  THE FEDERAL BUREAU OF
INVESTIGATION’S EFFORTS TO
  HIRE, TRAIN, AND RETAIN
  INTELLIGENCE ANALYSTS


      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

         Audit Report 05-20
             May 2005
            THE FEDERAL BUREAU OF INVESTIGATION’S
              EFFORTS TO HIRE, TRAIN, AND RETAIN
                    INTELLIGENCE ANALYSTS


                            Executive Summary

       Intelligence analysis is critical to the mission of the Federal
Bureau of Investigation (FBI), especially in light of the changed
priorities of the FBI after the September 11, 2001, terrorist attacks.
After September 11, the FBI’s need to add professional intelligence
staff to improve its ability to collect, analyze, and disseminate threat
information was well-recognized. Various terrorism-related
commissions and congressional testimony have commented that the
FBI’s limited intelligence capability was extremely limited.1

       The Office of the Inspector General (OIG) previously discussed
the FBI’s analytical program in its September 2002 report on the
management of the FBI’s counterterrorism program.2 At that time,
some FBI managers told the OIG that the FBI’s analytical capability
was “broken.” Our review found the FBI had difficulty pulling
information together from a variety of sources, analyzing the
information, and disseminating it. In other words, the FBI lacked the
ability to “connect the dots” or establish relationships among varied
pieces of information. Moreover, the FBI lacked the capability to
prepare a strategic or “big picture” threat assessment. Our report
concluded that the FBI lacked a professional corps of intelligence
analysts with a defined career path, standards for training or
experience, and a system for effectively deploying and utilizing
analysts to assess priority threats at either the tactical (investigative
or operational) level or the strategic (long-term or predictive) level.



      1
         Examples include the Bremer Commission’s (National Commission on
Terrorism) June 2000 report entitled Countering the Changing Threat of Terrorism;
the Gilmore Commission’s (Advisory Panel to Assess Domestic Response Capabilities
for Terrorism Involving Weapons of Mass Destruction) second and fourth reports in
December 2000 and December 2002, respectively; the Thornburgh Panel’s (National
Academy of Public Administration) June 2003 Congressional Testimony on the FBI’s
reorganization; and The 9/11 Commission Report (Final Report of the National
Commission on Terrorist Attacks Upon the United States) in July 2004.
      2
        The report is entitled A Review of the Federal Bureau of Investigation's
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource
Management, (Report No. 02-38), dated September 2002.
                                       -i–
       Senior FBI officials, including the FBI Director, who was newly
appointed at the time of the September 11 attacks, acknowledged the
FBI’s previous analytical shortcomings. In congressional testimony,
the FBI Director articulated that a strong enterprise-wide intelligence
program is not only key to the FBI’s counterterrorism efforts but is
critical to all investigations, including criminal, counterintelligence, and
cyber investigations. He noted that the FBI had long been a leader in
gathering information, but in the past did not elevate the analytical
process above an individual case or investigation. He stated that after
September 11, 2001, the FBI was focused not just on collecting
information, but on analyzing it, connecting it to other vital
information, and disseminating it widely. To accomplish this, the
Director emphasized the continuing development of the FBI’s
intelligence program, including a dramatic expansion in the number of
intelligence analysts.

       Since the September 11 terrorist attacks, the FBI has made and
continues to make progress toward bolstering its intelligence analysis
capabilities to help meet the FBI’s top priority of preventing future
attacks. In January 2003, the FBI Director authorized the position of
Executive Assistant Director (EAD) for Intelligence, and established an
Office of Intelligence to manage the FBI’s intelligence program.3 This
new office began an intensive effort to recruit, train, and utilize
well-qualified intelligence analysts. For example, as of July 2004 the
number of FBI analysts had grown to 1,272, a 24 percent increase
over Fiscal Year (FY) 2002. As of mid-2004, the FBI had assigned
49 percent of all analysts to field offices, 42 percent to operational
divisions at FBI headquarters – such as the Counterterrorism Division
– and 9 percent to other FBI entities such as the Information
Technology Centers.4

OIG Audit

      The OIG initiated this audit to review the FBI’s progress in
building the analytical corps. We reviewed the FBI’s efforts in hiring,
selecting, training, and retaining intelligence analysts. As part of the
audit, we specifically reviewed the FBI’s: 1) progress made toward
meeting analyst hiring goals; 2) analyst hiring requirements;

       3
         The FBI hired the EAD for Intelligence in May 2003, and Congress approved
the creation of EAD for Intelligence position in September 2003.
       4
        In this report, the term analysts refers to intelligence analysts. The FBI also
has other types of analysts, such as financial analysts.
                                        - ii –
3) progress made toward establishing a comprehensive training
program and meeting the training goals; 4) analyst staffing and
utilization to support the FBI’s mission; and 5) progress toward
retaining analysts.

      To perform this audit, we interviewed officials from the FBI, the
Central Intelligence Agency, the Defense Intelligence Agency, and the
Joint Military Intelligence College. We interviewed FBI intelligence
analysts at six FBI field offices and at FBI Headquarters. We also
conducted a survey provided to all FBI intelligence analysts. Finally,
we reviewed FBI documents related to the management of the
analytical corps, including the Human Talent for Intelligence Production
Concept of Operations (Human Talent CONOPS), which describes the
FBI’s plan for building its intelligence analysis capability.5

      In sum, our review found that the FBI has made significant
progress in hiring and training quality analysts, although significant
issues remain. Some of the significant improvements include:

       •   streamlining the hiring process used for intelligence analysts;

       •   establishing a funded staffing level for intelligence analysts,
           the number of intelligence analyst positions available to the
           FBI during a given fiscal year; and

       •   redesigning the introductory intelligence analysts class.

However, we found areas that need improvement. Among those
issues, we concluded that the FBI needs to:

       •   determine the number of analysts needed to meet its mission
           and, using threat-based criteria, allocate the analysts among
           FBI offices;

       •   establish and meet hiring goals for intelligence analysts that
           are based on the FBI’s projected need for additional analysts,
           forecasted attrition, and the FBI’s ability to hire, train, and
           utilize new analysts;

       5
        The Human Talent CONOPS, which is intended “to foster a
well-educated, highly trained, appropriately sized, effective analytical workforce,”
focuses on five areas: 1) recruiting and hiring analysts, 2) selecting new analysts,
3) developing the FBI’s current analytical staff, 4) training new and current analysts,
and 5) creating an Intelligence Module for the New Agent Curriculum.
                                        - iii –
       •   increase the number of analysts trained at the FBI’s College
           of Analytical Studies and develop a cadre of FBI instructors to
           teach the college’s classes;

       •   assess the work done by intelligence analysts and reduce the
           extent of miscellaneous, non-analytical duties assigned to
           analysts; and

       •   implement measures to improve the retention of qualified
           analysts.

Hiring Intelligence Analysts

       As of September 30, 2004, the FBI employed 1,403 intelligence
analysts.6 From the beginning of FY 2002 through July 8, 2004, the
FBI hired 540 analysts. However, during that same period, 291
analysts left their positions for other jobs, either within the FBI or
elsewhere. Overall, in the three years since the September 11
terrorist attacks, the FBI’s analytical corps increased by a net of 380
intelligence analysts, or 37 percent.

       However, the FBI has not established formal annual goals for
hiring intelligence analysts. Instead the FBI has used the number of
additional analyst positions appropriated in its budgets as its hiring
goals. The EAD for Intelligence said that the number of additional
appropriated positions is a valid hiring goal because the budget
process is how government organizations express their resource
needs. By their nature, these de facto hiring goals were not based on
attrition projections, hiring or training capacity, or other factors
affecting the FBI’s ability to assimilate new analysts. For FY 2004, the
hiring goal of 787 was based on the number of additional analyst
positions allowed by the FY 2004 budget. As of July 2004, the FBI had
only hired 22 percent of the analysts in its FY 2004 goal.
Disregarding any attrition of analysts between July 8, 2004, and
September 30, 2004, the FBI met 39 percent of its FY 2004 hiring
goal. Because the FBI fell significantly short of its FY 2004 hiring goal,




       6
          Before issuing this report, we asked the FBI to update the total number of
intelligence analysts employed as of September 30, 2004. However, throughout the
report we primarily cite data from October 1, 2001, through July 8, 2004.

                                       - iv –
it ended FY 2004 with an intelligence analyst vacancy rate of 32
percent.7

       The FBI’s Human Talent CONOPS for the FBI’s intelligence
program recognizes that the success of the program depends on the
quality of the analysts the FBI hires. In addition, the experience and
skills of new analysts should help further the FBI’s new priorities.
Currently in its hiring, the FBI emphasizes military intelligence
experience, law enforcement experience, and foreign-language
proficiency. Based on these criteria and the analysts’ educational
levels, we found that the FBI has hired well-qualified analysts over the
past three years. For example, analysts who started their employment
with the FBI from 2002 through 2004 were much more likely to have
an advanced degree than the analysts who started with the FBI before
2002. In addition to their educational qualifications, the analysts who
started with FBI in 2002 through 2004 had other qualities that the FBI
seeks, including a commitment to public service (Presidential
Management Fellows), prior military intelligence or intelligence
community experience, experience living abroad for an extended
period, or foreign language proficiency.

       Through interviews with FBI analysts and managers, we
identified several impediments to hiring analysts and meeting the FBI’s
hiring goals. Among the factors are attrition (discussed below), the
lengthy hiring process, failure to pass the FBI background
investigation, and the effect on analysts’ career paths of regulations
covering federal position classification and grading.

       FBI managers told us the primary impediment to hiring
intelligence analysts was the hiring process itself. In particular, the
FBI has generally received a good response to its job announcements
for analysts. Until recently, the process of screening a large pool of
applicants to identify the best-qualified candidates was time
consuming and labor intensive. But in May 2004 the FBI streamlined
its hiring process, and FBI officials said a new Internet-based hiring
system appears to be much more efficient.

      Once selected, applicants undergo a lengthy and detailed
background investigation, including a polygraph examination and drug
test. Many selected applicants either give up on the hiring process or

       7
        In commenting on a draft of this report, the FBI told us that a new
automated hiring system had significantly increased hiring during the first quarter of
FY 2005.
                                        -v–
“wash out” in the background investigation. FBI managers we
interviewed said that applicants often lose patience with the FBI’s
lengthy hiring process and accept other jobs.

      In FYs 2002 and 2003, the FBI initiated 433 background
investigations on potential analysts. During that same time, 210
background investigations were discontinued.8 In FYs 2002 - 2004,
58 percent of discontinued background checks occurred for substantive
reasons uncovered in the course of the investigation, generally failing
the polygraph examination or having a history of illegal drug use.

       Another impediment to hiring well-qualified intelligence analysts
cited by FBI managers was the requirement that the FBI comply with
Title 5 of the U.S. Code, including those dealing with General Schedule
(GS) pay grades.9 For example, Title 5 prevented the FBI from
offering a non-supervisory GS-15 pay grade to its analysts. Other
intelligence agencies are exempt from Title 5. According to the
Executive Assistant Director for Intelligence and other FBI managers
with whom we spoke, the restrictions of Title 5 prevented the FBI from
developing an intelligence capability on par with other agencies
comprising the United States Intelligence Community. Further, the
same managers believed that the Title 5 regulations prevented the FBI
from hiring a sufficient number of intelligence analysts or from
retaining analysts once it hired them, and also prevented the FBI from
placing any analysts at the GS-15 and Senior Executive Service pay
levels. The ability to promote intelligence analysts to non-supervisory
senior level positions can contribute to the hiring and retention of
qualified intelligence analysts.

      Recent legislation should substantially alleviate FBI managers’
concerns over the limitations of Title 5 and provide the FBI with
greater flexibility to structure and compensate its analyst workforce.
For example, the Intelligence Reform and Terrorism Prevention Act of
2004, approved in December 2004, exempts FBI intelligence analysts
from the position classification and pay requirements of Title 5. Under
the new law, the FBI Director, in consultation with the Office of
Personnel Management (OPM), has the authority to create intelligence

       8
          Each of 210 background investigations discontinued in FYs 2002 and 2003
may or may not be one of the 433 background investigations initiated during the
same period. Some of those discontinued background investigations may have been
initiated prior to the start of FY 2002.
       9
         Title 5 contains the statutes that govern most of the federal workforce,
including position classification and grading.
                                        - vi –
analyst positions that do not meet all the requirements of Title 5.
Similarly, the FBI Director may establish basic rates of pay for
intelligence analyst positions without having to comply with Title 5.

       In December 2004, the President signed an appropriations act
entitled Making Appropriations for Foreign Operations, Export
Financing, and Related Programs for the Fiscal Year Ending
September 30, 2005, and for Other Purposes (Consolidated
Appropriations Act, 2005). The Consolidated Appropriations Act allows
the FBI, in conjunction with the Office of Management and Budget and
OPM to pay up to an Executive Schedule I salary for personnel in high-
level positions with skills critical to the FBI’s intelligence mission. The
FBI is currently engaged in an extensive planning effort to implement
the provisions of the Intelligence Reform Act and the Consolidated
Appropriations Act.

Requirements and Staffing

       As of July 2004, 49 percent of the FBI’s 1,272 analysts were
assigned to field offices; 42 percent to operational divisions at FBI
headquarters (such as the Counterterrorism Division); and
9 percent to other FBI entities such as Information Technology
Centers, the Office of Intelligence, and the Critical Incident Response
Group at Quantico, Virginia. In the field offices, the number of
analysts varied from 1 (Springfield, IL) to 59 (New York, NY). The
distribution of analysts by GS pay grade varied greatly by
organizational unit. Analysts assigned to the operational units at FBI
headquarters were most likely to be GS-14s. In contrast, analysts
assigned to the field offices were most likely to be GS-11s.

       However, the FBI has not determined the total number of
intelligence analysts needed to meets its mission. We believe that a
formal requirements determination is necessary to properly size and
allocate the FBI’s analytical corps. Further, a rationally based
requirements determination would help support the FBI’s budget
requests, recruiting and hiring plans, and any necessary reallocation of
analysts. The FBI’s Executive Assistant Director for Intelligence told
the OIG that she recognizes the need for the FBI to link its allocation
of analysts to current and evolving threats. After our field work was
completed, the FBI’s Office of Intelligence began work on a formal
requirements determination. However, the FBI has not yet completed
an estimate of the number of analysts needed, nor has it finalized the
methodology for doing so.

                                  - vii –
       In addition to not determining the total number of intelligence
analysts needed, prior to FY 2005 the FBI did not establish the total
number of analyst positions available to the FBI as a whole in a given
year. In the federal government, this number is known as the Funded
Staffing Level (FSL). Without an FSL for analysts, the FBI could not
determine the number of analyst vacancies or the distribution of those
vacancies across FBI units. However, in September 2004, after the
completion of our field work, the FBI established its first ever FSL for
intelligence analysts. We did not evaluate the FBI’s FSL methodology.

       Prior to FY 2005, the causes for both the lack of a sound
methodology for determining the FBI’s intelligence analyst
requirements and the longstanding lack of an FSL are closely linked.
Both conditions relate to the FBI’s budget, which has provided FSLs for
only two categories — special agents and support staff. The support
staff category includes positions as diverse as clerk, intelligence
analyst, forensic scientist, and attorney. Historically, FBI headquarters
units and field offices have had wide flexibility in deciding the
composition of their support staff. Thus, if an intelligence analyst
resigned, FBI management could decide to replace the intelligence
analyst with a financial analyst or some other category of support
staff.

Training

       FBI intelligence analysts are trained at the FBI’s College of
Analytical Studies, which was created among the changes in the FBI
after the September 11 attacks. At that time, the FBI Director
assigned the FBI’s Training and Development Division the
responsibility for coordinating, developing, and implementing
professional training for analysts throughout the FBI. In October
2001, the FBI formally established the College of Analytical Studies
and gave it the following mission:

      •   conceptualize analytical training programs,

      •   identify analytical training resources, and

      •   administer the College with a focus on improving the FBI’s
          analytical capabilities to meet all present and future
          investigative responsibilities.


                                  - viii –
       Until late 2004, the primary product of the College was the Basic
Intelligence Analyst course, which was first held in FY 2002 and ran for
five weeks. However, the basic course has had significant problems,
resulting in poor attendance and frequent changes to the curriculum.
From FY 2002 through April 2004, only 264 FBI intelligence analysts
have attended the Basic Intelligence Analyst course, although the
course is required of all analysts at some point — new hires and
veterans alike.

       Our interviews with intelligence analysts who had taken the basic
course, and the results of our analyst survey, indicated that the course
was not structured to sufficiently prepare intelligence analysts to
perform their job. Over 60 percent said that the course did not meet
their expectations, and only 6 percent of respondents said the course
exceeded their expectations. The most frequently cited deficiency with
the class was that it did not adequately address analysts’ daily work or
the databases necessary to accomplish that work.

      We also found that 75 percent of the analysts who had not
attended the course did not want to attend, because they felt that the
course repeated training they had already taken elsewhere. The
desire not to attend the course is reflected in attendance statistics.
While all analysts are required to attend the basic course, actual
enrollment is voluntary. Our review of FBI data found that classes for
FYs 2002 through 2004 were only about 56 percent full. According to
College managers, the high vacancy rate resulted from analysts not
being directed to attend a particular session of the class.

       The Basic Intelligence Analyst course was replaced in September
2004 with a 7-week Analytical Cadre Educational Strategy 1 (ACES-1)
course developed by the Office of Intelligence and a contractor. Under
the auspices of the Office of Intelligence, the FBI Academy will be
responsible for delivering the new course. The primary objective of
ACES-1 is to produce graduates who have the skills and abilities
needed to perform any of three general work roles of the FBI’s
intelligence analysts: intelligence analyst, operations specialist, and
reports officer.

      In our opinion, the ACES-1 curriculum as a whole is generally
well-balanced for an introductory intelligence analyst class. However,
we have three concerns about the curriculum: 1) the amount of time
spent on some subjects; 2) the number, length, and type of class
exercises; and 3) computer training. We are concerned that the

                                 - ix –
curriculum does not provide enough instruction in intelligence
dissemination and intelligence assessment. We also were not able to
determine the amount of time devoted to class exercises, an
instructional method that analysts told us would be helpful. Further,
ACES-1 will include what an FBI manager described as a limited
amount of software training, none of which will be on classified
computer systems.

      Aside from the recent revamping of the curriculum, another
challenge facing the FBI is the need to develop experienced FBI
employees to teach in the College of Analytical Studies. Currently,
most instructors are either contractors or personnel from other
agencies. During interviews with intelligence analysts who had
attended the basic course, we were told the students wanted to learn
the FBI method of approaching different topics, and FBI faculty would
be helpful in that regard.

Utilization of Intelligence Analysts

      The FBI recognizes the need to enlarge and professionalize its
analytical corps. While it is taking important steps to do so, the FBI
must ensure that its analysts receive assignments that make the best
use of their training and abilities.

       The 9/11 Commission reported that prior to the September 11
attacks, FBI managers often did not properly use the qualified analysts
the FBI had and instead often used them to answer phones and
perform miscellaneous duties that did not involve analyzing or
producing intelligence products. During our interviews with
intelligence analysts in field offices, we found that, similar to the 9/11
Commission’s report, many analysts are still asked to perform duties
that are not analytical in nature, such as escort, trash, and watch
duty. As the name implies, escort duty is following visitors, such as
contractors, around the FBI office to ensure that they do not
compromise security. Trash duty involves collecting all “official trash”
to be incinerated. Watch duty involves answering phones and radios.
The Executive Assistant Director for Intelligence told us that FBI
special agents and others also perform similar duties, which points
more to a need for administrative assistance than to analysts being
singled out for occasional non-analytical work.

      Our survey found that the type of work done by FBI intelligence
analysts varies depending on grade, years of experience, and location.
On average, analysts reported spending 31 percent of their time on
                                 -x–
different types of administrative work, and they estimated that one-
third of this administrative work was not related to their job. In
addition, 25 percent of analysts in headquarters and 39 percent of
analysts in the field reported they had not worked on any
disseminated intelligence products in the three months that preceded
our survey. We recognize that the intelligence analyst position
involves work other than disseminated intelligence products. For
example, identifying intelligence gaps is a key mission of intelligence
analysts. The FBI told us that it uses 27 metrics to evaluate the
performance of its intelligence operations. However, we believe that
disseminated intelligence products is a good performance measure for
intelligence analysts and indicates how analysts are being used. The
Directorate of Intelligence’s Performance Metrics Plan also includes the
number of intelligence products produced by each analyst as one of its
measures of performance.

       Our survey found that the vast majority of FBI intelligence
analysts are generally satisfied with the work assignments they
receive. However, certain categories of intelligence analysts are less
satisfied with their work assignments than intelligence analysts as a
whole: 1) analysts at headquarters are less satisfied than those in
field offices; 2) analysts with advanced degrees are less satisfied than
those without advance degrees; 3) analysts hired within the last three
years are less satisfied than those who have been with the FBI for
more than three years; and 4) analysts who have military intelligence
experience, intelligence community experience, or are Presidential
Management Fellows are less satisfied than those who do not have
that experience.

       For analysts voicing a lack of satisfaction with their work
assignments, there were three primary reasons. First, analysts told us
that FBI special agents do not always understand the capabilities or
functions of intelligence analysts, and our survey results reflect this
perception. Overall, 27 percent of respondents said special agents
“rarely” or “never” understand the capabilities or functions of
intelligence analysts. The analysts we interviewed, both at
headquarters and in the field, also said that they believe this
misunderstanding between agents and analysts could be mitigated by
integrating at least part of new agent training with analyst training.
Some analysts stated that an integrated case study, where agents and
analysts work together to solve a case, would be helpful.



                                 - xi –
      Second, most analysts are supervised by special agents.
However, many analysts with whom we spoke believe that intelligence
analysts should be supervised by their peers. They think that other
analysts best know their functions and capabilities, and can therefore
make the best use of the FBI’s analytical resources.

      Third, both FBI managers and analysts said that the FBI does
not have a sufficient number of administrative personnel and as a
result are asked to handle administrative duties.

Retaining Intelligence Analysts

       The strategic objective stated in the FBI’s Human Talent
CONOPS is to “foster a well-educated, highly trained, appropriately
sized, effective analytical work force.” To fully accomplish this
objective, the FBI must focus on retaining those analysts currently on
its staff who are well-educated, highly trained, and effective.

       From the beginning of FY 2002 through July 8, 2004, 291
intelligence analysts left the FBI’s analytical corps. Of the 291
analysts, 165 left the FBI entirely. The remaining 126 took other
positions within the FBI. The turnover rate for intelligence analysts
has decreased for two consecutive fiscal years, from 10 percent in
FY 2002 to 9 percent in FY 2003 and 8 percent in FY 2004.10 The EAD
for Intelligence told us she was pleased with the 8 percent turnover
rate in FY 2004 because the rate declined from the previous year and
because she believes this rate compares favorably with the rest of the
intelligence community.11 We attempted to compare the turnover rate
of FBI intelligence analysts with that of the DIA and the CIA.
However, both agencies declined to provide us with the classified data
to perform that calculation. While the turnover rate for FBI
intelligence analysts has decreased each of two past fiscal years, the
number of FBI intelligence analysts leaving the analytical corps, either
by transferring to other jobs in the FBI or leaving the FBI entirely,
increased 10 percent from FY 2002 to FY 2004. During that same

       10
          The 291 analysts who left their positions for other jobs includes 15 FBI
analysts were transferred in FYs 2003 and 2004 with the National Infrastructure
Protection Center to the Department of Homeland Security. Our turnover rate
calculations do not include these 15 analysts in our count of analysts who separated
from the FBI.
       11
           According to a Government Accountability Office report, the turnover rate
for all government employees was 7 percent in FY 2002. However, it did not provide
a figure for the intelligence community.
                                       - xii –
period, the number of intelligence analysts leaving the FBI entirely
increased 79 percent, from 42 in FY 2002 to 75 in FY 2004.

      In our survey, 22 percent of the FBI’s current intelligence
analysts reported that they do not plan on staying with the FBI as
analysts beyond the next 5 years. Among analysts hired since
FY 2002, 35 percent do not plan to remain. Only 16 percent of newly
hired analysts said they are very likely to stay for the next 5 years.

       Our survey found that analysts have several reasons for not
intending to stay with the FBI beyond the next five years. The reason
most often cited is retirement, but other reasons such as pay,
promotion potential, work assignments, and a lack of respect for the
intelligence analyst position in the FBI are also frequently cited.

       While the turnover rate for FBI intelligence analysts is not
excessive, we are concerned about the effect attrition may have on the
FBI’s efforts to build a well-qualified analytical corps. The loss of
analysts hinders the FBI’s efforts to meet its hiring goal and to provide
sufficient numbers of analysts to support its intelligence requirements.

       The FBI’s Human Talent CONOPS does not address the retention
of analysts; however, the Office of Intelligence told us it is actively
managing the retention of intelligence analysts by activities such as
constantly monitoring the attrition rate and surveying intelligence
analysts to understand their career needs. Given the anticipated high
attrition rate for analysts hired in the last three years, we believe the
FBI should develop a formal strategy for retaining qualified intelligence
analysts.

Recommendations

       In our report, we make 15 recommendations to the FBI
regarding improvements the FBI can make to its efforts to build a high
quality corps of intelligence analysts that meets the FBI’s intelligence
needs. With regard to the FBI’s efforts to hire intelligence analysts,
our recommendations focus on the need for the FBI to develop hiring
goals and to ensure that those hiring goals are based on the FBI’s
ability to hire, train, and assimilate intelligence analysts. Our
recommendations to the FBI on its intelligence analyst requirements
focus on ensuring that the FBI’s allocation of intelligence analysts and
forecasted need for intelligence analysts are based on current and
forecasted threats. To improve the quality of the FBI’s introductory

                                 - xiii –
analyst training, we recommend that the FBI carefully evaluate its new
ACES-1 course and ensure that the classes are well attended. To help
ensure that intelligence analysts do more analytical work, we
recommend that the FBI carefully assess the work done by intelligence
analysts (and hire additional support personnel if necessary) and train
special agents on the role of analysts. Finally, we recommend that the
FBI take additional steps to improve the retention of intelligence
analysts, including conducting exit interviews of analysts who leave
the FBI and developing a retention plan aimed at keeping its current
high quality analysts.




                                - xiv –
                               TABLE OF CONTENTS

BACKGROUND .............................................................................. 1
    Authorities ........................................................................... 1
    Prior Reviews Relating to FBI Intelligence Analysts .................... 1
    Organization and Resources ................................................... 4
    Recent Directives and Legislation ............................................ 5

FINDINGS AND RECOMMENDATIONS ............................................... 9

Finding 1: Hiring Intelligence Analysts ............................................ 9
      Hiring Goals ......................................................................... 9
      The FBI Needs More Intelligence Analysts .............................. 21
      Hiring Initiatives ................................................................. 23
      Hiring Impediments ............................................................ 24
      Conclusion ......................................................................... 29
      Recommendations .............................................................. 30

Finding 2: Requirements and Staffing ........................................... 31
      Current Allocation of Intelligence Analysts .............................. 31
      No Funded Staffing Level for Intelligence Analysts in FY 2004 ... 34
      FY 2004 Allocation .............................................................. 37
      Funded Staffing Level Developed for FY 2005.......................... 39
      Forecasting the Need for Intelligence Analysts ........................ 40
      Conclusion ......................................................................... 44
      Recommendations .............................................................. 44

Finding 3: Training ..................................................................... 46
      The College of Analytical Studies........................................... 46
      Student Feedback on the BIA Course ..................................... 50
      Analytical Cadre Educational Strategy 1 Course (ACES-1) ......... 52
      Analyst Training at the CIA and DIA ...................................... 57
      Observations on the FBI’s College of Analytical Studies ............ 61
      Conclusion ......................................................................... 62
      Recommendations .............................................................. 62

Finding 4: Utilization of Intelligence Analysts ................................. 64
      Contribution to the FBI Mission ............................................. 65
      Satisfaction with Work Assignments ...................................... 69
      Intellectual Challenge .......................................................... 71
      The Work of FBI Intelligence Analysts .................................... 74
      Intelligence Program Relies on Effective Use of Intelligence
      Analysts ............................................................................ 85
      Role of Intelligence Analysts Misunderstood............................ 87
       Conclusion ......................................................................... 88
       Recommendations .............................................................. 88

Finding 5: Retaining Intelligence Analysts...................................... 90
      Attrition in the Analytical Corps, FYs 2002 - 2004 .................... 90
      Causes for Attrition ............................................................101
      Conclusion ........................................................................111
      Recommendations .............................................................111

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........112

STATEMENT ON INTERNAL CONTROLS ..........................................113

APPENDIX 1: OBJECTIVES, SCOPE, AND METHODOLOGY ...............114

APPENDIX 2: AUTHORITIES FOR FBI INTELLIGENCE ACTIVITIES.....118

APPENDIX 3: OBSERVATIONS OF THE 9/11 COMMISSION..............119

APPENDIX 4: RESPONSIBILITIES OF THE OFFICE OF
            INTELLIGENCE ......................................................121

APPENDIX 5: MEMBERS OF THE UNITED STATES INTELLIGENCE
            COMMUNITY .........................................................124

APPENDIX 6: ACRONYMS...........................................................126

APPENDIX 7: RESULTS OF OIG SURVEY OF FBI INTELLIGENCE
            ANALYSTS ............................................................127

APPENDIX 8: THE FBI’s RESPONSE TO THE DRAFT REPORT ............153

APPENDIX 9: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
            AND SUMMARY OF ACTIONS NECESSARY TO
            CLOSE REPORT .....................................................167
                                 BACKGROUND

Authorities

       The Federal Bureau of Investigation’s (FBI) authorities for
intelligence activities derive from legislation, executive order and a
series of Director of Central Intelligence Directives (DCID).12
Executive Order 12333, issued in December 1981, authorizes the FBI
within the United States to collect, produce, and disseminate foreign
intelligence. The order states that United States Intelligence
Community agencies such as the FBI are authorized to collect
information on U.S. persons only in accordance with procedures
established by the head of the agency concerned and approved by the
Attorney General. The National Security Act of 1947 includes the FBI
in its authorization of foreign intelligence and counterintelligence
activities by the intelligence community. Such activities include those
designed to protect against international terrorist activities. These
foreign intelligence and counterintelligence authorities supplement the
FBI’s investigative authority.

      Under the DCIDs that implement national foreign intelligence
requirements, the FBI disseminates foreign intelligence acquired in the
course of investigations conducted in accordance with FBI priorities
and guidelines. Thus, when the FBI recruits sources in its
investigations to protect the United States from terrorist attack, those
sources may be queried on other foreign intelligence topics to meet
national requirements.13

Prior Reviews Relating to FBI Intelligence Analysts

       9/11 Commission

      On November 27, 2002, the Congress and the President created
the National Commission on Terrorist Attacks Upon the United States
(9/11 Commission) to investigate “facts and circumstances relating to
the terrorist attacks of September 11, 2001,” including those relating

       12
          DCIDs are the principal means by which the Director of Central Intelligence
(DCI), as the head of the intelligence community, provides guidance, policy, and
direction to the intelligence community pursuant to authorities of the DCI. DCIDs
are normally coordinated through the Intelligence Community Deputies Committee
and intelligence community working groups.
       13
          The DCIDs applicable to the FBI’s management of foreign intelligence
collection and production are discussed in greater detail in Appendix 2.
                                        -1-
to law enforcement and intelligence agencies. In July 2004, the
9/11 Commission released its report entitled “Final Report of the
National Commission on Terrorist Attacks upon the United States”.

      The 9/11 Commission’s report made a number of observations
about the role of intelligence in the FBI and its intelligence capabilities.
One of its primary observations concerned the potential the FBI’s 1998
strategic plan to reshape the way the FBI addressed terrorism cases.
The FBI’s 1998 strategic plan shifted the FBI’s priorities and mandated
a stronger intelligence collection effort. The plan also called for a new
information technology system to aid in the collection, analysis, and
dissemination of intelligence and other information.

      The FBI’s strategic plan was based on the FBI’s creating a
professional analytical corps. The 9/11 Commission found that if the
FBI had fully implemented the 1998 strategic plan, it would have made
“a major step toward addressing terrorism systematically, rather than
as individual unrelated cases.”14 However, the Commission found that
the plan was not successfully implemented and attributed that failure
to several factors, three of which are discussed below.15

       •    The FBI’s practice of hiring analysts from within the agency
            rather than recruiting individuals with the relevant
            educational background and expertise contributed to a lack of
            strategic analysis. In the 9/11 Commission’s field visits, its
            staff “encountered several situations in which poorly qualified
            administrative personnel were promoted to analyst positions,
            in part as a reward for performance in other positions.”

       •    When the FBI hired or promoted people with appropriate
            analytical skills and experience, the lack of a long-term career
            path and a professional training program caused many
            capable individuals to leave the FBI or move internally to
            other positions.

       •    When the FBI did hire qualified analysts, FBI managers often
            did not use them effectively. This was especially true in the
            field offices. Some field analysts interviewed by the
       14
         In commenting on a draft of this report, the FBI told us that the
Department of Justice rejected its budget requests for the additional personnel
necessary to implement the plan.
       15
        The remaining factors cited by the Commission are discussed in
Appendix 3.
                                        -2-
         9/11 Commission said they were viewed as “über-
         secretaries,” expected to perform any duty that was deemed
         non-investigative, including data entry and answering phones,
         because FBI headquarters did not have sufficient staff
         support. As a result, analysts were often asked to perform
         duties that were not analytic in nature.

      OIG

      In September 2002, the Office of the Inspector General (OIG)
issued an audit report entitled, A Review of the Federal Bureau of
Investigation’s Counterterrorism Program: Threat Assessment,
Strategic Planning, and Resource Management (Report 02-38). One of
the fourteen recommendations we made to the FBI was that it
establish a time goal and a process for building a corps of professional,
trained, and experienced intelligence analysts.

       In December 2003, the OIG issued an audit report entitled, The
Federal Bureau of Investigation’s Efforts to Improve the Sharing of
Intelligence and Other Information (Report 04-10). This audit focused
on the FBI’s: 1) identification of impediments to the sharing of
counterterrorism-related intelligence and other information;
2) improvement of its ability to share intelligence and other
information both within the FBI and to the intelligence community and
state and local law enforcement agencies; and 3) dissemination of
useful threat and intelligence information to other intelligence and law
enforcement agencies.

       In this review, the OIG found that the FBI had faced a number of
impediments in its efforts to transform itself into a law enforcement
agency with a robust intelligence capability to help prevent future
terrorist attacks. One of the major impediments cited in the report
was the FBI’s problems with being able to pull information together
from a variety of sources, analyze the information, and disseminate it.
Along with the FBI’s analytical weakness, the OIG also concluded that
the FBI lacked the capability to prepare a strategic threat assessment
or “big picture” intelligence estimate. The OIG found that the FBI had
a number of reforms underway to improve its ability to share
intelligence and other information.




                                  -3-
Organization and Resources

       The FBI’s Human Talent for Intelligence Production Concept of
Operations (Human Talent CONOPS), released in September 2003, is
the FBI’s roadmap for hiring and developing the FBI’s corps of
intelligence analysts.

      On January 30, 2003, the FBI Director authorized the position of
Executive Assistant Director (EAD) for Intelligence, and established an
Office of Intelligence to manage the FBI’s intelligence program.16 The
EAD for Intelligence was created to manage a single intelligence
program across the FBI's four operational divisions —
counterterrorism, counterintelligence, criminal, and cyber. Previously,
each division controlled and managed its own intelligence program. To
emphasize its new priority to prevent terrorist attacks, the Director
also elevated intelligence from program support to full program status
through the Office of Intelligence.

       The Office of Intelligence, managed by an Assistant Director who
reports to the EAD for Intelligence, has six units: 1) Career
Intelligence, which develops career paths for intelligence analysts;
2) Strategic Analysis, which provides strategic analyses to senior level
FBI executives; 3) Oversight, which monitors field intelligence groups;
4) Intelligence Requirements and Collection Management, which
establishes and implements procedures to manage the FBI intelligence
process; 5) Administrative Support; and 6) Executive Support. The
Office of Intelligence is responsible for implementing an integrated
FBI-wide intelligence strategy, developing an intelligence analyst
career path, and ensuring that intelligence is appropriately shared
within the FBI as well as with other federal agencies. The Office of
Intelligence also is responsible for improving strategic analysis,
implementing an intelligence requirements and collection regime, and
ensuring that the FBI's intelligence policies are implemented. The
direct day-to-day management of the FBI’s analysts remains with the
operating division or field office to which each analyst is assigned. The
Office of Intelligence’s responsibilities for intelligence collection,
analysis, dissemination, and program management are described in
Appendix 4.

     Until August 2003, the FBI had three types of analyst positions:
operations specialist, all source analyst, and reports officer.

      16
          The FBI hired the EAD for Intelligence in May 2003, and Congress approved
the creation of EAD for Intelligence position in September 2003.
                                       -4-
Operations specialists provided direct support to special agents in their
investigations. All source analysts gathered and evaluated information
coming into the FBI through investigations or from other intelligence
agencies. Reports officers identified and extracted essential
information from FBI and other intelligence products, synthesized the
information into reports, and disseminated them.

       According to the FBI’s Human Talent CONOPS, these three
positions were actually all functions of a single professional occupation
encompassing analysis and intelligence. Consequently, August 2003
the FBI decided to merge the three positions into a single position of
intelligence analyst while retaining the three distinct roles within that
career field. One purpose of this consolidation of roles was to provide
for much greater flexibility in assigning analysts, who could perform
any of the three functions.

Recent Directives and Legislation

      Presidential Memorandum Creating Intelligence Directorate

       In a November 23, 2004, memorandum to the Attorney General,
the President concurred with the 9/11 Commission’s recommendation
to create an intelligence cadre at the FBI. To allow the special agents,
analysts, linguists, and surveillance specialists in the new cadre to
specialize in intelligence, he ordered the FBI to implement a separate
career track for this new cadre. Organizationally, the cadre will be a
part of a new Intelligence Directorate, also created by the
memorandum. The new Directorate will be responsible for all of the
FBI’s intelligence functions, including oversight of field intelligence
operations, human source development and management, intelligence
collection, information sharing, translation, strategic analysis, and
program management.

      Consolidated Appropriations Act, 2005

      On December 8, 2004, the President signed legislation entitled
Making Appropriations for Foreign Operations, Export Financing, and
Related Programs for the Fiscal Year Ending September 30, 2005, and
for Other Purposes (Consolidated Appropriations Act, 2005). Two
sections of the Act provide the FBI with additional flexibility to hire and
retain highly skilled intelligence personnel. Section 115 amends Title 5
of the U.S. Code to allow the FBI, in conjunction with the Office of
Management and Budget and the Office of Personnel Management

                                   -5-
(OPM) to pay up an Executive Schedule I salary for personnel in high
level positions with skills critical to the FBI’s intelligence mission.17
Section 113 allows the FBI to pay retention bonuses, up to 50 percent
of an employee’s base pay, to personnel with critical skills who are
otherwise likely to leave the FBI. This section also allows the FBI to
pay relocation bonuses, up to 50 percent of an employee’s base pay,
to employees who are transferred to an area with a higher cost of
living.

       The conference report accompanying the Consolidated
Appropriations Act also directed the FBI to establish a Directorate of
Intelligence, headed by an EAD for Intelligence. The report directed
the new directorate have:1) clear authority over the FBI’s intelligence
functions, and 2) responsibility for both operational and programmatic
elements of the FBI’s intelligence program. As part of the control over
the programmatic elements, the report specifies that the Directorate of
Intelligence will be responsible for recruiting and retaining the highest
quality intelligence personnel. The conference report also directs the
FBI to:

       •    ensure that analysts and special agents have intelligence-
            related performance measures;

       •    increase the number of basic and advanced classes offered by
            the College of Analytical Studies; and

       •    expand the number of employees participating in the FBI’s
            Student Loan Repayment Program.

       In addition, the report requires the FBI to structure its budget to
reflect the status of intelligence as one of the following four primary
missions of the FBI: 1) intelligence, 2) counterterrorism and
counterintelligence, 3) criminal, and 4) criminal justice services.

     The FBI is currently developing a strategy to implement the new
authorities granted it in the Act.




       17
           Title 5 contains the statutes that govern position classification and grade
levels for most of the federal workforce.

                                         -6-
      Intelligence Reform and Terrorism Prevention Act of 2004

       On December 17, 2004, the President signed into law the
Intelligence Reform and Terrorism Prevention Act of 2004. Title II of
this law makes significant changes to intelligence operations at the
FBI, including establishing a National Intelligence Workforce and a
Directorate of Intelligence, changing the FBI’s budget structure, and
mandating personnel reforms for intelligence analysts.

      To institutionalize intelligence in the FBI, the Act requires the FBI
Director to create a specially recruited and trained corps of special
agents, analysts, linguists, and surveillance personnel who will
specialize in intelligence. The Act also requires the FBI to:

      •   establish career paths for the FBI’s new intelligence
          specialists, including allowing specialists to work in their area
          of expertise throughout their careers;

      •   recruit and train personnel with backgrounds in intelligence,
          international relations, language, technology and other skills
          relevant to the FBI’s intelligence mission; and

      •   provide analysts training and career paths similar to analysts
          in other United States Intelligence Community agencies.

      The Act requires the FBI to convert its Office of Intelligence into
a Directorate of Intelligence, with the current Executive Assistant
Director of Intelligence becoming the head of the new Directorate.
The Directorate will be responsible for the FBI’s intelligence mission,
including:

      •   supervising its national intelligence programs and activities;

      •   ensuring the FBI fulfills its intelligence responsibilities under
          the National Security Act of 1947;

      •   overseeing intelligence operations in the FBI’s field offices;

      •   managing the development of human sources of intelligence;

      •   coordinating the FBI’s collection of intelligence, including
          ensuring that its collection efforts are in line with the rest of
          the United States Intelligence Community;

                                    -7-
      •   performing strategic analysis;

      •   managing the FBI’s intelligence program and the program’s
          budget; and

      •   overseeing the FBI’s intelligence workforce.

       In addition, the law requires the FBI to structure its budget to
reflect the status of intelligence as one of the following four primary
missions of the FBI: 1) intelligence, 2) counterterrorism and
counterintelligence, 3) criminal enterprises and federal crimes, and
4) criminal justice services.

       The Act also exempts FBI intelligence analysts from the position
classification and pay requirements of Title 5 of the U.S. Code. Under
the new law, the FBI Director, in consultation with the OPM, has the
authority to create intelligence analyst positions that do not meet all
the requirements of Title 5. Similarly, the FBI Director may establish
basic rates of pay for intelligence analyst positions without having to
comply with Title 5.

       The Title 5 exemptions will allow the FBI to create position
classifications and pay structures similar to those already granted to
other agencies in the United States Intelligence Community. The FBI
intends to use the exemption from the position classification rules to
create senior non-supervisory analytical positions similar to positions
found in many other intelligence agencies. Similarly, the exemptions
should allow the FBI to offer pay competitive with other intelligence
agencies. Competitive position classification and pay should
significantly aid the FBI in attracting and retaining qualified analysts,
especially senior analysts and analysts with a high level of expertise in
specialty areas. The FBI is currently developing a strategy to
implement the Title 5 exemptions granted it in the Act.




                                  -8-
                  FINDINGS AND RECOMMENDATIONS

Finding 1: Hiring Intelligence Analysts

       The FBI has not established formal annual goals for hiring
       intelligence analysts and, in their absence, has instead used the
       number of additional analyst positions in its budget as the hiring
       goal. The number of additional intelligence analysts positions
       authorized and appropriated in the FBI’s FY 2004 budget was
       787. With 3 months remaining in FY 2004, the FBI had hired
       only 22 percent of the 787 analysts in its goal. Assuming there
       was no attrition of analysts between July 8, 2004, and
       September 30, 2004, the FBI met 39 percent of its FY 2004
       hiring goal.18 In FYs 2002 - 2004, the FBI hired 540 intelligence
       analysts, 55 percent of whom were from outside of the FBI, and
       the remaining 45 percent transferred from other positions within
       the FBI.19 By many measures, we concluded that the analysts
       newly hired in the last three years are very well qualified. In
       FYs 2002 - 2004, FBI employees from 19 different occupational
       groups bolstered the analytical corps by transferring to the
       intelligence analyst position.

       While the FBI has hired many new analysts in the last three
       years, FBI managers we interviewed reported that there are still
       impediments to the FBI’s ability to hire analysts quickly,
       including the hiring process itself. In an effort to streamline the
       hiring process, the FBI recently revamped the way it screens
       applicants for intelligence analyst positions, and this new process
       appears to be more efficient.

Hiring Goals

       The FBI has not established formal annual goals for hiring
intelligence analysts. OPM suggests that each agency develop a
formal recruiting, hiring, and retention plan. In the absence of such a
plan, the OPM suggests that strategic or human capital planning
documents outline staffing goals and approaches. The FBI does not

       18
          Before issuing this report, we asked the FBI to update the total number of
intelligence analysts employed as of September 30, 2004. However, throughout the
report we primarily cite data from October 1, 2001, through July 8, 2004.
       19
         We use the term “transfer” to describe analysts hired from within the FBI.
According to the FBI, internal hires must meet the same standards as analysts hired
from outside of the FBI.
                                       -9-
have either a formal recruiting, hiring, and retention plan or strategic
or human capital planning documents that include staffing goals for
intelligence analysts. As discussed in the next finding, the FBI also
has not determined the total number of intelligence analysts required
to meet current and evolving threats or the total number of analyst
positions available to the FBI in a given year. These projections, as
well as data on the number of analysts on board, are necessary for the
FBI to establish realistic annual hiring goals.

       In the absence of formal hiring goals, the FBI has used the
number of additional intelligence analyst positions in its budget as a
de facto hiring goal. The EAD for Intelligence told the OIG that she
believes the number of additional appropriated positions are valid
hiring goals because the budget process is how government
organizations express their resource needs. By their nature, these de
facto hiring goals were not based on attrition projections, hiring or
training capacity, or other factors affecting the FBI’s ability to
assimilate new analysts. For FY 2004, the Office of Intelligence
recognized that the large number of additional positions put the focus
on hiring the greatest number of people without consideration for
other factors. During a weekly briefing to the Executive Assistant
Director, the Office of Intelligence noted the FBI’s offices needed more
time to meet potential candidates and to make good hiring decisions.

      The numbers of additional positions authorized in the FBI’s
FY 2003 and FY 2004 budgets were 126 and 787, respectively.
However, with 3 months remaining in FY 2004, the FBI had hired only
22 percent of the 787 intelligence analysts in its de facto goal. The
FBI exceeded its FY 2003 de facto hiring goal of 126, hiring 189 new
analysts from outside the FBI and allowing 77 current FBI employees
to transfer into the intelligence analyst position. The 787 positions in
the FY 2004 de facto hiring goal were allocated as follows: 401 to FBI
headquarters, 384 to FBI field offices, and 2 to the Critical Incident
Response Group.

       As shown below, as of September 30, 2004, the FBI had 1,403
intelligence analysts. In the three years since the September 11
terrorist attacks, the FBI’s analytical cadre has increased by 380, or
37 percent.




                                 - 10 -
                      Number of FBI Intelligence Analysts
                               FYs 2001 - 2004



   1600

   1400

   1200

   1000

    800

    600

    400

    200

       0
               2001             2002                 2003                 2004
                                       Fiscal Year

                          FY 2004 Increase

                          Number of Analysts (Beginning of Fiscal Year)


       Source: The FBI

       From the beginning of FY 2002 through July 8, 2004, the FBI
hired 540 intelligence analysts. During that same period, 291
intelligence analysts left their positions for other positions within the
FBI, or they left the FBI entirely.20 As a result, during that same
period, there was a net increase of 249 intelligence analysts.




       20
        The 291 analysts who left their positions for other jobs includes 15 analysts
who were transferred with the National Infrastructure Protection Center to the
Department of Homeland Security.
                                         - 11 -
            Analyst Hiring and Attrition FYs 2002 - 2004

On-Board (October 1, 2001)                                           1,023
                                               Increase (Decrease)
  New hires from outside the FBI                               296
  Internal transfers to Intelligence Analyst                   244
  Internal transfers from Intelligence Analyst               (126)
  Separations                                                (165)
Net change                                                             249
On-Board (July 8, 2004)                                              1,272

       Source: The FBI

        As shown above, of the 540 intelligence analysts hired by the
 FBI between FYs 2002 - 2004, 296 (55 percent) were hired from
 outside of the FBI. The remaining 244 (45 percent) transferred from
 other positions within the FBI. Of the 540 new analysts, 390
 (72 percent) were assigned to FBI headquarters and 150 (28 percent)
 were assigned to field offices or other offices. As shown below, of the
 390 assigned to headquarters, 66 percent were hired from outside the
 FBI. However, of the 150 new intelligence analysts assigned to FBI
 field offices, 75 percent were transfers from other positions within the
 FBI.




                                  - 12 -
                 Work Assignment of New Intelligence Analysts
                      By Type of Hire, FYs 2002 - 200421


        250

        200

        150
                                               174
        100
                                                                                  47
                                                                                           20
         50        37
                                                             15
                            3                                                     55       56
                   35                           42           35
                           21
             0
                         rs




                                                        rs




                                                                                          rs
                          s




                                                         s




                                                                                           s
                        ce




                                                       ce




                                                                                         ce
                      rte




                                                     rte




                                                                                       rte
                     ffi




                                                    ffi




                                                                                      ffi
                    ua




                                                   ua




                                                                                     ua
                    O




                                                   O




                                                                                     O
                dq




                                               dq




                                                                                 dq
                  d




                                                 d




                                                                                   d
               el




                                              el




                                                                                el
             ea




                                            ea




                                                                              ea
             Fi




                                            Fi




                                                                              Fi
    H




                                   H




                                                                     H
          02




                                         03




                                                                           04
   02




                                  03




                                                                    04
        20




                                       20




                                                                         20
 20




                                20




                                                                  20
                                 Fiscal Year and Organizational Unit
                                                     New Hires
                                                     Transfers



        Source: The FBI

      After our field work had concluded, we asked the FBI to provide
us with updated overall data on number of analysts; however, we did
not request updated supporting data such as the number of attritions.
As of September 30, 2004, the FBI employed 1,403 intelligence
analysts. Assuming there was no attrition of analysts between
July 8, 2004, and September 30, 2004, the FBI met 39 percent of its
hiring goal. In addition, based on the FSL established after the end
our audit work, 32 percent of the FBI’s intelligence analyst positions
were vacant.

       The Human Talent CONOPS recognizes that the success of the
FBI’s intelligence program is directly related to the quality of the
analysts the FBI hires. In addition, the experience and skills of new
analysts should reflect the FBI’s new priorities. Currently, the FBI is
focusing on hiring persons with military intelligence or law
enforcement experience, and with foreign-language proficiency. Based
        21
             FY 2004 data is through July 8, 2004.
                                             - 13 -
on experience and education, many of the analysts who “entered on
duty” in the last three years are well-qualified.22 As shown below, the
analysts who began their employment with the FBI between
FY 2002 - 2004 were three times more likely to have an advanced
degree than the analysts who began their employment with the FBI
before FY 2002. Also, analysts who began their employment with the
FBI in the last three fiscal years were two and a half times more likely
to have an advanced degree than the FBI employees who transferred
into the analyst position. While 56 percent of the analysts who
entered on duty in the last three years have advanced degrees, only
22 percent of the internally hired analysts and 16 percent of the
analysts hired prior to FY 2002 have such degrees. Analysts who
began their employment with the FBI prior to FY 2002 were 30 times
more likely to have less than a bachelors degree than the analysts who
entered on duty in FYs 2002-2004. Similarly, FBI employees who
transferred to the intelligence analyst position were 10 times more
likely to have less than a bachelors degree than the analysts who
entered on duty in FYs 2002-2004.




      22
       An FBI employee’s entry-on-duty date is the date that employee began
employment with the FBI, regardless of any changes in that employee’s position.
                                      - 14 -
                Highest Degree of Education of
         Intelligence Analysts By Fiscal Year Hired23


                        Entered on Duty FYs 2002-2004
                                          No Degree
                            No Data                   Associates
                                             0%
                             16%                         1%


                                                            Bachelors
                                                              27%




                Advanced Degree
                     56%


               Transferred to Intelligence Analyst FYs 2002-2004

                                No Data        No Degree
                                 10%              6%       Associates
                                                              7%


          Advanced Degree
               22%




                                                               Bachelors
                                                                 55%



                       Entered on Duty Prior to FY 2002
                                      No Data
              Advanced Degree
                                        3%
                   16%                                 No Degree
                                                          26%




                                                              Associates
                                                                 13%
                     Bachelors
                       42%

Source: The FBI




23
     FY 2004 data is through July 31, 2004.
                                          - 15 -
       In addition to their educational qualifications, the analysts who
entered on duty between 2002 - 2004 had other qualities that the FBI
seeks, such as a commitment to public service — demonstrated, for
example, as being a Presidential Management Fellow — or having prior
military intelligence or intelligence community experience, experience
living abroad for an extended period, or foreign-language proficiency.
According to our survey, 16 percent of the new intelligence analysts
are Presidential Management Fellows.24 Of our survey responses, 28
of the 37 Presidential Management Fellows (76 percent) were hired
between FYs 2002 - 2004. FBI managers told us they are very
pleased with the work of the Presidential Management Fellows.

      Many analysts who began their FBI employment between
2002 - 2004 have military intelligence or intelligence community
experience. Twenty-six percent of the newly hired analysts have prior
military experience compared to 7 percent of the analysts entered on
duty prior to 2002. Similarly, while only 11 percent of the intelligence
analysts hired prior to 2002 reported they have prior intelligence
community experience, 23 percent of the analysts hired between
2002 - 2004 reported such experience.

      The intelligence analysts that the FBI has newly hired in the last
three years are also more likely to have a proficiency in a foreign
language or to have lived outside the United States for a period of six
months or more.25 Of the 230 respondents to our survey who
reported they have proficiency in a foreign language, 103 began their
employment in the last 3 years. In percentage terms, 58 percent of
newly hired analysts compared to 19 percent of analysts hired prior to
2002 reported proficiency in at least one foreign language. The
average self-rated level of proficiency, on a scale of one to five, was
similar for both groups. The average rating for analysts hired prior to
2002 is 2.6, while the average rating of recently hired analysts is 2.3.
Thirty-four percent of analysts hired prior to 2002 reported having
taken the FBI language proficiency test, while only 6 percent of the
analysts hired in 2002 or after reported taking the test. Likewise, 35
percent of the intelligence analysts hired in 2002 or after reported they
have lived outside the United States for a period of at least 6 months,

       24
          According to the OPM, the Presidential Management Fellows program is
designed to attract to the federal service outstanding graduate students from a wide
variety of academic disciplines who demonstrate an exceptional ability for leadership
in the analysis and management of public policies and programs.
       25
            Foreign language proficiency was self-assessed by the analysts in our
survey.
                                         - 16 -
but only 13 percent of the analysts hired before 2002 - 2004 reported
such experience.

       Most of the analysts hired in the last three years were hired
directly into FBI analyst positions. However, prior to 2002 many
analysts began their FBI careers in other, lower-level positions.
According to our survey, the average analyst hired in the last three
years started in the General Schedule (GS) pay grade as a GS-10,
while the average analyst hired prior to 2002 started as a GS-05. The
table below shows the GS level at which our survey respondents
started their employment with the FBI.




                                - 17 -
                 GS Grade of Intelligence Analysts When
                 They Began Employment With the FBI26


                                     Hired Prior to 2002

                                         1%        0%

                                    7%             0%
                                                                 GS Grade
                          15%                                      3-4
                                                                   5-6
                                                                   7-9
                                                                   10-11
                                                           58%     12
                         19%                                       13
                                                                   14




                                         Hired 2002-2004

                                              0%
                                         5%         4%
                              13%                                GS Grade
                                                                   3-4
                                                                   5-6
                                                                   7-9
                        12%
                                                                   10-11
                                                           48%     12
                                                                   13
                                                                   14
                              18%




Source: OIG Survey of FBI Intelligence Analysts

       Of the 244 intelligence analysts that transferred from other
positions within the FBI, they did so from 19 different FBI occupational
groups, ranging from the Biological Sciences Group to the Library and
Archives group. However, the majority of FBI employees who
transferred to the intelligence analyst position transferred from two
groups: 1) the General Administrative, Clerical, and Office Services

      26
           FY 2004 data is through July 8, 2004.
                                              - 18 -
       group and 2) the Investigation group. As shown in the table below, 57
       percent of the analysts who transferred into the position from
       FY 2002 - FY 2004 came from these two groups.

         Former Occupations of Internally Hired Intelligence Analysts
                             FYs 2002 - 200427

   GS
 Series         General Schedule Occupational Groups                    Number Percent28
0080          Miscellaneous Occupations                                      9       4%
0090          Miscellaneous Occupations                                      1       0%
0100          Social Science, Psychology, and Welfare                        7       3%
0200          Human Resources Management                                     3       1%
              General Administrative, Clerical, and Office
0300          Services                                                         68          28%
0400          Biological Sciences                                               3           1%
0500          Accounting and Budget                                             7           3%
0800          Engineering and Architecture                                      1           0%
0900          Legal and Kindred                                                16           7%
1000          Information and Arts                                             25          10%
1100          Business and Industry                                             4           2%
1300          Physical Sciences                                                 3           1%
1400          Library and Archives                                             15           6%
1500          Mathematics and Statistics                                        4           2%
1700          Education                                                         4           2%
1800          Investigation                                                    71          29%
2000          Supply                                                            1           0%
2200          Information Technology                                            1           0%
5800          Transportation/Mobile Equipment Maintenance                       1           0%
              Total                                                           244

       Source: The FBI and OPM




              27
                   FY 2004 data is through July 8, 2004.
              28
                Due to rounding, the sum of the percentages in this table does not equal
       100 percent.
                                                - 19 -
      Of the 139 internal hires from these 2 occupational groups,
64 (46 percent) received promotions when they became intelligence
analysts. Of the remaining 75, 52 (37 percent) received lateral
reassignments, and 23 (17 percent) took demotions.

      As shown in the table below, the number of employees
transferring from the General Administrative, Clerical, and Office
Services Group to the intelligence analyst position has increased each
year from FY 2002 - FY 2004. For the same period, the percentage of
employees who received promotions for the transfer from general
administrative group positions to the analyst position has also
increased each year.

         Grade Changes for Intelligence Analysts Who
     Transferred from the General Administrative, Clerical,
                  and Office Services Group29



           35

           30

           25                                                     53%

           20
                                             45%
                       25%                                        9%
           15
                       19%
                                             25%
           10
                                                                  38%
                       56%
            5                                30%

            0
                   FY 2002               FY 2003             FY 2004

                               Lateral    Downgrade   Promotion



      Source: The FBI

       As shown below, the number of employees transferring from
positions within the Investigation Group to the analyst position has
also increased each year from FY 2002 - FY 2004. However, for the
same period, the percentage of employees who received promotions
for the transfer from the Investigation Group positions to the analyst
position has decreased each year.

      29
           FY 2004 data is through July 8, 2004.
                                            - 20 -
             Grade Changes for Intelligence Analysts Who
              Transferred from the Investigation Group30



            30
                                                          30%
            25

                                          59%
            20
                                                          27%

            15

                                          10%
            10
                       67%
                                                          43%
             5          8%                31%
                       25%
             0
                    FY 2002            FY 2003        FY 2004

                             Lateral   Downgrade   Promotion


      Source: The FBI

      For FYs 2002 - 2004, of the 244 employees who transferred from
another job within the FBI to an analyst position, 54 percent were
assigned to headquarters, 41 percent were assigned to field offices,
and 5 percent were assigned to other FBI offices. Employees assigned
to headquarters were also more likely to receive promotions as a
result of the transfer. Forty-one percent of the headquarters
employees who transferred into the analyst position received
promotions, while 36 percent of the transfers in the field offices
received promotions.

The FBI Needs More Intelligence Analysts

       A number of FBI reports and planning documents address the
need for the FBI to expand its analytical corps. According to its latest
strategic plan, the FBI cannot implement an enterprise-wide
intelligence capability without an appropriately sized intelligence
workforce. The FBI recognizes that an enterprise-wide intelligence
capability is necessary to meet current and emerging national security
and criminal threats.

      30
           FY 2004 data is through July 8, 2004.
                                         - 21 -
      The Office of Intelligence clearly recognizes that the FBI needs to
plan for the future of the FBI’s intelligence program. The Human
Talent CONOPS created by the Office of Intelligence in September
2003 notes that the FBI’s analytical needs have increased dramatically
and that approximately 17 percent of the FBI’s current intelligence
analysts will be eligible to retire in the next 5 years. According to the
CONOPS:

       These two factors mean that a large number of analysts
       will be hired in a very short period. Therefore, effective
       recruiting, hiring, training, and workforce development
       plans are more of a necessity than ever before, and are
       critical to the future analytical program at the FBI.

       In our September 2002 report on the management of the FBI’s
counterterrorism program, we noted the need for the FBI to add
professional intelligence staff to help meet a clear need for improving
its ability to collect, analyze, and disseminate threat information.31 At
that time, some FBI managers had described to us the FBI’s analytical
capability as “broken.” Others on terrorism-related commissions and
in Congress suggested that the FBI’s intelligence capability was
virtually nonexistent.

      Specifically, the FBI had difficulty pulling information together
from a variety of sources, analyzing the information, and
disseminating it. In other words, the FBI lacked the ability to “connect
the dots” or establish relationships among diverse information.
Moreover, the FBI lacked the capability to prepare a strategic or “big
picture” intelligence estimate or threat assessment. Our report
concluded that the FBI lacked a professional corps of intelligence
analysts with a defined career path, standards for training or
experience, or a system for effectively deploying and utilizing analysts
to assess priority threats at either the tactical (investigative or
operational) level or the strategic (long-term or predictive) level.

      Similarly, the 9/11 Commission found that prior to the
September 11 terrorist attacks, the FBI did not have a sufficient
analytical capability. In discussing the formation of the now-defunct
FBI Investigative Services Division, the 9/11 Commission noted that

       31
         The report is entitled, A Review of the Federal Bureau of Investigation’s
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource
Management.
                                       - 22 -
the plan for that division had “envisioned the creation of a professional
intelligence cadre of experienced and trained agents and analysts.”
However, the 9/11 Commission found that the plan for the analytical
cadre failed because the FBI did not devote the necessary human
resources. The FBI disagrees with the 9/11 Commission’s conclusion
because the FBI said it did not have the authority to devote additional
analysts to the new cadre. The FBI requested additional analysts, but
its requests were rejected by the Department of Justice. However,
given this background, the Office of Intelligence recognizes that hiring
well-qualified analysts is a major priority.

Hiring Initiatives

       The Office of Intelligence and the FBI’s Personnel Resources Unit
share responsibility for recruiting analysts. According to the Office of
Intelligence, recruiting has not been an impediment to hiring. In fact,
one Office of Intelligence official said the FBI has been “swamped” with
applicants, and both FBI managers and Office of Intelligence officials
reported that the quality of analyst applicants has been high. One FBI
manager who formerly worked for another intelligence agency said the
quality of applicants was similar to what he had experienced at his
former agency.

       These results may be due in part to several recruiting initiatives
instituted by the FBI to ensure that its future analytical corps
possesses the critical skills needed to develop and maintain the FBI’s
intelligence capabilities:

      •   National Recruitment Team. Thirty current intelligence
          analysts volunteered to recruit at colleges and job fairs.

      •   National Advertising Program. Between February and March
          2004, the Office of Intelligence issued several press releases
          announcing the FBI’s hiring goals for the calendar year.

      •   Military and Law Enforcement Recruitment. FBI personnel
          attended a recruiting event aimed at former military. The FBI
          has not had trouble attracting enough former military to apply
          for intelligence analyst positions.

Also, the Office of Intelligence planned to pilot a college-level co-op
program at the end of calendar year 2005.


                                  - 23 -
Hiring Impediments

       Through our interviews of FBI analysts and managers, we
identified several impediments that have prevented the FBI from
meeting its de facto hiring goal. Among the factors we identified are
attrition, the hiring process, Title 5 position classification rules,
intelligence analyst career paths, and the large proportion of
applicants who are offered positions pending background
investigations who do not become FBI employees.

       As stated previously, in FYs 2002 – 2004, 291 employees left the
analyst position for other positions in the FBI or left the FBI entirely.
Attrition among the FBI’s analysts is discussed in greater detail in
Finding 5 of this report.

       Several FBI managers told us the primary impediment to hiring
intelligence analysts is the hiring process itself. In particular, the FBI
has generally received a very good response to its job announcements.
One FBI manager told us that one job announcement for 56 analysts
resulted in approximately 2,000 applications. Every application had to
be evaluated to determine whether the applicant met minimum
qualifications.32 Those applicants who were judged minimally qualified
had their applications passed to the FBI unit conducting the hiring.
That unit formed a career board to conduct interviews and determine
the best qualified applicants. The hiring manager then selected
applicants from those rated best qualified. Many managers described
this process of winnowing a large pool of applicants down to the best
qualified as very time consuming and labor intensive.

      The FBI has recently streamlined its hiring process. In
May 2004, the FBI began using a commercially available automated
application system to screen applicants for analyst vacancies. With
the automated system, the FBI posts job announcements on the
Internet and applicants can apply on-line. Each announcement is open
for two weeks. After one job announcement ends, another opens
immediately. Applicants not accepted under one job posting must
reapply to be considered again. The basic steps of the automated
process are outlined below.



       32
         Minimally qualified means the applicant meets the basic and essential
requirements for the position. The minimum qualifications for a position may include
educational requirements and selective placement factors specific to the position.
                                      - 24 -
       •    Applicants answer screening questions about their
            background such as their use of illegal drugs. If an applicant
            answers inappropriately, such as admitting to using hard
            drugs more than a certain number of times, the application
            process stops and the applicant is told that they are not
            qualified.

       •    Applicants have the option to submit a resume highlighting
            their qualifications and experience.

       •    Applicants are asked to answer a series of multiple choice
            screening questions. Depending on the grade for which the
            applicant is applying, the applicant also has to include a
            narrative to support his or her answer to some of the
            multiple-choice questions. Because the screening questions
            are weighted, not all questions have the same value.

       •    The FBI downloads and scores applications each workday.
            The applications with passing scores are sent to the division
            or field office that is the stated preference of the applicant.

       •    If the division or field office views the applicant favorably, a
            conditional offer of employment can be made.

      Applicants who receive conditional offers of employment are
placed in “background.” While in background status, applicants’
backgrounds are investigated to determine whether they are suitable
for FBI employment.33 The investigation includes a drug test, a
polygraph, and an extensive investigation into each applicant’s credit
history, drug use, personality, and legal violations.

      The table below shows, by month, the number of applicants
entered into background during FY 2004. Shortly after the FBI started
using the automated system to screen applicants in May 2004, that
number rose dramatically. Part of the increase is the result of the
FBI’s decision to issue conditional offers of employment to all
applicants who receive a passing score on the automated system. We
attribute the increase in the number of background investigations

       33
           At the time of our audit, the FBI conducted its own background
investigations. The Intelligence Reform and Terrorism Prevention Act of 2004 also
addresses the need to streamline the process by which government agencies grant
security clearances. The Act directs the President to select a single entity to conduct
all security clearance investigations.
                                        - 25 -
during May and June 2004 to the FBI’s adoption of the automated
system.

                Background Investigations Initiated
        on Intelligence Analyst Applicants During FY 200434


        300                                                                 270

        250
                                                                      196
        200
                                                                138
        150

        100                                              72
                                                   54
                                           38
            50    13                 11
                         6     5
             0
                 Oct   Nov   Dec   Jan    Feb   Mar     Apr   May     Jun   Jul
                               Projected Background Investigations
                               Background Investigations Initiated


            Source: The FBI

      Many background investigations are discontinued before
completion. In FYs 2002 and 2003, the FBI initiated a total of 433
background investigations on potential intelligence analysts, and
during that same time, the FBI discontinued 210 background
investigations.35 The reasons for halting a background investigation
vary. For FYs 2002 - 2004, a frequently cited reason for discontinuing
a background investigation was that the applicant was no longer
interested in the position. FBI managers we interviewed said that
applicants often lose patience with the FBI’s hiring process and accept
other jobs. Some applicants cannot financially afford to wait to be
hired by the FBI, take other jobs, and are reluctant to leave jobs they
have just begun. However, between FYs 2002 - 2004, 58 percent of

       34
          FY 2004 data is through July 8, 2004. The July projection is based on the
average number of background investigations initiated each business day from
July 1, 2002 through July 8, 2004.
       35
        Each of 210 background investigations discontinued in FYs 2002 and 2003
may or may not be one of the 433 background investigations initiated during the
same period. Some of the background investigations discontinued during FYs 2002
and 2003 may have been initiated prior to the start of FY 2002.
                                          - 26 -
discontinued background checks occurred for substantive reasons
identified in the course of the background check. Among these
substantive reasons were failing the polygraph examination and use of
illegal drugs. The most frequently cited reasons for discontinuing
background investigations on analyst applicants from FY 2002 –
FY 2004 are listed in the table below.

     Reasons for Discontinuing Background Investigations
                       FYs 2002 - 2004

Reason for                       FY 2002        FY 2003   FY 200436   Total
Discontinuation
No Longer Interested             25             31        27          83
Pre-employment                   31             18        25          74
Polygraph/Deception
Better Candidates                27             2         0           29
Available
Admitted Drug Use                9              5         13          27
Presently Not Available          1              1         12          14
Pre-employment Second            0              6         6           12
Polygraph/Deception
Credit                           1              4         6           11
Pre-employment Second            0              6         5           11
Polygraph Request
Denied
Employment                       3              5         3           11
Pre-employment                   3              3         2           8
Polygraph/Drug Use/Lack
of Candor
Other Discontinuation            8              21        21          50
Categories
Total                            108            102       120         330

     Source: The FBI




     36
          FY 2004 data is through July 8, 2004.
                                       - 27 -
      Even analysts who passed the background investigation found
the process difficult. Some of the analysts we interviewed cited the
following problems or complications with their own hiring:

      •     all of the supporting documentation for the security clearance
            was lost,

      •     the employment application was lost,

      •     there was no continuous point of contact at the FBI, and

      •     extensive travel outside the United States complicated the
            clearance process.

       Another impediment to hiring large numbers of well-qualified
analysts cited by FBI managers has been the requirement that the FBI
comply with Title 5 of the U.S. Code. Title 5 contains employment
provisions that govern most of the federal workforce, including
position classification and grading. For example, Title 5 has prevented
the FBI from offering a non-supervisory GS-15 position to any of its
analysts. Other intelligence agencies are exempt from Title 5. FBI
managers said the FBI competes with the other intelligence community
agencies for the same pool of applicants, and those agencies with the
Title 5 exemption have a competitive advantage because they can
offer prospective employees a higher-graded career path.

       According to the EAD for Intelligence and other FBI managers
with whom we spoke, compliance with Title 5 prevented the FBI from
developing an intelligence capability on par with the rest of the United
States Intelligence Community.37 Further, these managers believe
that compliance with Title 5 would prevent the FBI from being able to
hire a sufficient number of intelligence analysts or retain analysts once
it hires them. According to the FBI’s Strategic Human Capital Plan, the
FBI needs “greater latitude to pursue innovative hiring, workforce
management and performance enhancement initiatives to address its
human resource management needs.”

      For example, with the exemption from Title 5, the FBI could
have non-supervisory analysts at the GS-15 and the Senior Executive
Service (SES) pay levels. FBI managers we interviewed also believe


      37
           See Appendix 5 for a list of the intelligence community agencies.

                                        - 28 -
that the ability to promote intelligence analysts to these senior levels
may contribute to the hiring and retention of qualified individuals.

       The new Consolidated Appropriations Act, 2005 and the
Intelligence Reform and Terrorism Prevention Act of 2004, both of
which were enacted in December 2004, collectively grant the FBI
Director a waiver from portions of Title 5. These exemptions give the
FBI flexibility to establish analyst positions, determine rates of pay for
those positions, hire specialized personnel critical to the FBI’s
intelligence mission at Executive Schedule I salary, and pay retention
and relocation bonuses to critical intelligence personnel. The FBI
believes that this flexibility should alleviate many of the concerns over
Title 5 expressed by FBI managers and will aid the FBI in recruiting
and retaining highly qualified intelligence analysts. The FBI is
currently engaged in an extensive planning effort to implement the
provisions of these new laws and improve the overall management of
its intelligence program. The EAD for Intelligence said the FBI has
begun a 20-position pilot project of its new authority to hire senior
critical personnel. She said some of the new specialists would be
assigned to the College of Analytical Studies.

      The flexibilities discussed above are closely linked to the issue of
retention of intelligence analysts. We address this issue in great detail
in Finding 5 of this report.

Conclusion

       The FBI has made significant progress in hiring qualified analysts
over the last three years to help build its analytical corps. However,
the FBI fell significantly short of its FY 2004 hiring goal. As a result,
the FBI ended FY 2004 with an intelligence analyst vacancy rate of 32
percent. Also, new analysts who transferred from other positions
within the FBI are less than half as likely to have an advanced degree
and were less likely to have the desired military intelligence
experience, intelligence community experience, be a Presidential
Management Fellow, lived outside the United States, or have foreign
language skills. The 9/11 Commission concluded that the FBI had
promoted poorly-qualified administrative personnel to analyst
positions, in part as a reward for good performance in other positions.
Because one of the Office of Intelligence’s objectives is to enhance the
status of the FBI’s analysts, the FBI should continue its efforts to hire
the highest quality analysts possible. In terms of education and
experience, the analysts who entered on duty in the last three years

                                  - 29 -
have — as a group — superior qualifications. We believe the FBI
should select the best qualified personnel available such as these
recently hired external candidates.

      The FBI’s FY 2004 analyst hiring goal was based on the number
of additional analyst positions the FBI received in its FY 2004 budget.
We found no evidence that the FBI incorporated attrition projections,
hiring capacity, training capacity, or other factors when it developed its
hiring goal. Because the hiring goal did not consider these types of
data, we are not able to conclude whether the hiring goal was a
reasonable one.

Recommendations

      We recommend that the FBI:

      1.   establish hiring goals for intelligence analysts based on:
           a) the forecasted need for intelligence analysts; b) projected
           attrition in the analyst corps; and c) the FBI’s ability to hire,
           train, and utilize intelligence analysts; and

      2.   assign applicants a point of contact at the FBI to answer
           questions during the application and background
           investigation processes.




                                  - 30 -
Finding 2: Requirements and Staffing

      As of June 2004, 49 percent of the FBI’s 1,272 intelligence
      analysts were assigned to field offices, 42 percent to the four
      operational divisions at headquarters — such as the
      Counterterrorism Division — and 9 percent to other FBI entities.
      For years prior to FY 2005, the FBI did not establish the total
      number of analyst positions available to the FBI as a whole in a
      given year. In government, this number of positions is known as
      the Funded Staffing Level (FSL). Because the FBI had not
      established an FSL for intelligence analysts, it could not identify
      or track the number of analyst vacancies. However, after the
      completion of our field work, the FBI developed an FSL for
      intelligence analysts for use with its FY 2005 budget. Still, the
      FBI has not determined the total number of intelligence analysts
      needed to support its intelligence program. We believe that a
      formal requirements determination is necessary to properly size
      and allocate the FBI’s analytical corps. Further, a rationally
      based requirements determination would help support the FBI’s
      budget requests, recruiting and hiring plans, and any necessary
      reallocation of analysts. After we completed our audit, the Office
      of Intelligence began work on a formal requirements
      determination, but it has not yet completed an estimate of the
      number of analysts the FBI needs nor has it finalized the
      methodology for doing so.

Current Allocation of Intelligence Analysts

       As of June 2004, 49 percent of the FBI’s intelligence analysts
were assigned to field offices, 42 percent to operational divisions at
FBI headquarters, and 9 percent to other FBI entities such as the
Information Technology Centers, the Office of Intelligence, and the
Critical Incident Response Group at Quantico, Virginia. Within the field
offices, the number of analysts varied from 1 (Springfield, IL) to 59
(New York, NY). In terms of intelligence analysts, the five largest field
offices were Los Angeles, Newark, New York, San Francisco and
Washington. Each of these field offices had 25 or more intelligence
analysts.




                                 - 31 -
              Allocation of FBI Intelligence Analysts
                             June 2004

       Organizational           Number          Percent of Total
             Unit
         Field Offices             612                 49
        Headquarters –             523                 42
          Operational
           Divisions
       Other FBI Entities         112                   9
             Total               1,247                 100

            Source: The FBI

       As shown below, there is a significant disparity in the allocation
of special agents and intelligence analysts to the FBI’s different
organizational units. While less than half of the intelligence analysts
were assigned to the FBI’s field offices, 86 percent of the special
agents where assigned to the field. On the other hand, intelligence
analysts were much more likely to be assigned to the operational
divisions — such as the Counterterrorism Division — at headquarters
than agents: 42 percent of the intelligence analysts and 6 percent of
the special agents were assigned to the operational divisions at
headquarters. Other headquarters units, and other FBI entities, such
as the Critical Incident Response Group, received 9 percent of both the
intelligence analysts and the special agents. The EAD for Intelligence
told us she believes “[a]ll the intelligence is in the field,” and she is
concerned that there are too few seasoned intelligence analysts
working at the FBI’s field offices. In our judgment, the disparity in the
allocation of intelligence analysts and special agents to the FBI’s field
offices reinforces this concern.




                                 - 32 -
            Allocation of FBI Intelligence Analysts and
                     Special Agents, June 2004


                               Intelligence Analysts


                                     112

                                        9%

                                                          523
                                                  42%
                                     49%

                             612



         Headquarters - Operational Divisions     Field Offices   Other FBI Entities


                                   Special Agents


                                   1,033        666
                                             6%
                                        9%




                                           86%



                                            10,332
         Headquarters - Operational Divisions Field Offices       Other FBI Entities


     Source: The FBI

      The distribution of analysts by GS pay grade varied widely by
organizational unit. Analysts assigned to FBI headquarters operational
units were most likely to be GS-14s. Fifty-seven percent of
headquarters analysts were GS-13s and above. In the
Counterintelligence Division, 54 percent of intelligence analysts were
GS-14s and higher.




                                        - 33 -
       In contrast, analysts assigned to the field offices were most
likely to be GS-11s. Sixty-eight percent of analysts assigned to the
field were GS-11s and below. Only 8 percent of field office analysts
were GS-13s and higher. Only the following field offices had
GS-14 intelligence analysts: Denver, Indianapolis, Louisville,
Pittsburgh, Richmond, Sacramento, San Diego, and San Juan. None of
the five field offices with the most intelligence analysts had any
GS-14s.

                   GS Level of Intelligence Analysts by
                          Organizational Unit38

Organizational      GS-    GS-     GS-     GS-     GS-     GS-     GS-     Executive
     Unit            7     9       11      12      13      14      15      Service
 Field Offices      2%      9%     56%     24%      7%      1%      0%         0%

 Headquarters       4%     12%     14%     13%     19%     33%      4%         1%
 (Operational
  Divisions)
  Other FBI         2%      6%     49%     12%     13%     16%      2%         1%
   Entities
    Total           3%     10%     38%     19%     12%     16%      2%         0%


       Source: The FBI

No Funded Staffing Level for Intelligence Analysts in FY 2004

       As of September 2004, the FBI did not establish the total
number of intelligence analyst positions available to the FBI as a whole
in a given year. Because the FBI had not established a Funded
Staffing Level (FSL) for analysts, it was unable to determine the
number of intelligence analyst vacancies or the distribution of those
vacancies across FBI units. According to the GAO, agencies should
collect this type of data to evaluate the success of their human capital
approaches, including strategies for attracting and retaining
personnel.39 Subsequent to our audit field work, the FBI told us that it
had established an FSL for intelligence analysts to be used during
FY 2005. However, we did not evaluate the formulation of this FSL.

       38
          Until September 2003, the career path for analysts in FBI field offices was
limited to GS-12.
       39
        The report is entitled A Model of Strategic Human Capital Management
(GAO-02-373SP), dated March 2002.

                                        - 34 -
       From FY 1996 through FY 2004, the FBI’s process for allocating
positions did not specifically identify the number of analyst positions.40
This lack of an FSL for intelligence analysts was a result of the FBI’s
budget process, which included FSLs for only two categories of
employees, special agents and support staff. The support staff
category included positions as diverse as clerk, intelligence analyst,
forensic scientist, and attorney. Historically, FBI headquarters units
and field offices have had wide flexibility in deciding the makeup of
their support staff. Thus, if an intelligence analyst in a field office
resigned, the special agent in charge had the latitude to replace the
intelligence analyst with a financial analyst or some other category of
support staff.

      From FY 1996 through FY 2004, the FBI’s budget allocation
process began when the President signed the budget. With the
exception of earmarks, the FBI had discretion in how it apportioned its
resources, including analysts. The budget broke support staff into the
following classifications: clerical and administrative, investigative
(includes intelligence analysts), and technical. Since FY 1996, the FBI
has determined the three categories of support staff in the following
manner:

      •     In general, .67 support positions are budgeted for every
            agent position according to the following formulas:

            o the number of clerical positions is equal to .313 multiplied
              by the total number of agent and investigative support
              positions,

            o the number of investigative support positions is equal to
              .246 multiplied by the number of agent positions, and

            o the number of technical support positions is equal to .018
              multiplied by the total number of agent, clerical support,
              and investigative support positions.

      The budgeting process outlined above produced an FSL for
investigative support staff, but not one for intelligence analysts. The
number of intelligence analyst positions was ultimately determined by
FBI units and field offices, with each unit or field office using its own
methodology. After the FBI received its budget, the Resource

      40
           We did not gather data on the allocation process prior to FY 1996.
                                        - 35 -
Management and Allocation office (RMA) allocated the resources
outlined in the budget. Following an informal and undocumented
process, the RMA asked program managers, usually unit chiefs, to
assess their current staffing levels and any additional needs. The
program managers submitted their assessments and a proposed
staffing level to their managers. The proposed staffing levels
continued through the management chain until each division submitted
a proposed divisional staffing level. Using the staffing data provided
by the divisions, the RMA summarized the numbers submitted by the
divisions and determined the appropriate staffing level for each
division. However, the RMA’s determinations were not final.
Ultimately, the level of personnel allocated to each division, section,
unit, and field office was negotiated.

       Once the RMA determined the FSLs, the individual sections and
units had discretion in how they allocated personnel. For example,
financial analysts, intelligence analysts, and investigative analysts are
all part of the investigative subcategory of support personnel. If a unit
received 100 positions in this subcategory, it could devote all 100
positions to financial analysts. The field offices, in particular, enjoyed
the discretion to decide how to “spend” their FSL. Because the units
and field offices valued the discretion to spend their FSLs according to
their needs, the FBI did not institute an FSL for intelligence analysts
prior to FY 2005. In addition, the FBI did not have the necessary
information systems to track the positions throughout the FBI.
Without an information system to track positions throughout the FBI,
an FSL for intelligence analysts would have had little impact because
FBI management would not be able to track vacancies and other hiring
data.

       Because the FBI did not have an FSL for intelligence analysts it
was unable to provide its management, Congress, or other interested
parties with data on the number of intelligence analyst vacancies.
Information on the number of vacancies would have been useful in
determining whether the FBI’s recruiting strategies were working as
intended. Vacancy data also would have been helpful in targeting
recruiting toward understaffed offices. In addition, an FSL for
intelligence analysts would have elevated the visibility of the analyst
position and underscored the important role of analysts in achieving
the FBI’s mission.




                                  - 36 -
FY 2004 Allocation

       In its FY 2004 budget, the FBI received an enhancement of 787
intelligence analyst positions.41 In the absence of an FSL for
intelligence analysts for the organization as a whole and for each
headquarters division and field office, the FBI allocated the positions
provided in the FY 2004 budget using the following process. The RMA
notified each program manager of the enhancement. Taking into
account the total enhancement in intelligence analyst positions, each
program manager requested the number of intelligence analysts
desired. The RMA allocated the analyst positions to the program
manager, who in turn allocated some of the positions to field offices.
Each program manager had complete discretion in deciding the
number of analysts to allocate to field offices and to which field offices
to allocate them.

       The process resulted in 384 of the new positions being allocated
to the field offices, 401 to the 4 operational divisions at headquarters,
and 2 to the Critical Incident Response Group. The 4 operational
divisions received increases ranging from 7 to 277. The 56 field office
increases varied from 3 to 26 positions. Four offices — Albany,
Knoxville, Louisville, and Minneapolis — received increases of three
positions each. The New York and the Washington field offices
received the largest increase, 26 positions each. The other top
increases went to Los Angeles (20 positions), San Francisco (14
positions), Chicago (12 positions) and Newark (12 positions). The
table below shows the number of additional analyst positions each field
office received in FY 2004.




       41
          The FBI originally received an enhancement of 817 intelligence analyst
positions, but 30 of these positions were converted to financial analysts and allocated
to the Criminal Investigative Division.
                                        - 37 -
           Allocation of FY 2004 Enhancements in
        Intelligence Analyst Positions, by Field Office

                     Additional                       Additional
Field Office         Positions     Field Office       Positions
Albany                    3        Memphis                5
Albuquerque               4        Miami                   9
Anchorage                 4        Milwaukee               4
Atlanta                  10        Minneapolis             5
Baltimore                10        Mobile                  3
Birmingham                5        Newark                 12
Boston                   11        New Haven               4
Buffalo                   4        New Orleans             7
Charlotte                 7        New York City          26
Chicago                  12        Norfolk                 4
Cincinnati                6        Oklahoma City           5
Cleveland                 4        Omaha                   4
Columbia                  4        Philadelphia            9
Dallas                    7        Phoenix                 9
Denver                    6        Pittsburgh              6
Detroit                  10        Portland                4
El Paso                   4        Richmond                4
Honolulu                  4        Sacramento              5
Houston                   7        St. Louis               4
Indianapolis              6        Salt Lake City          4
Jackson                   5        San Antonio             6
Jacksonville              5        San Diego               5
Kansas City               5        San Francisco          14
Knoxville                 3        San Juan                4
Las Vegas                 5        Seattle                 6
Little Rock               5        Springfield             4
Los Angeles              20        Tampa                   7
                                   Washington Field
Louisville               3         Office                 26

   Source: The FBI




                                  - 38 -
                Allocation of FY 2004 Enhancements
                  in Intelligence Analyst Positions



                                        CIRG
                                        0.3%




                                                Field Offices
                      Headquarters
                                                   48.8%
                         51.0%




                  Source: The FBI

Funded Staffing Level Developed for FY 2005

       In September 2004, after the end of our audit field work, the FBI
developed an FSL of 2,062 for intelligence analyst positions and a base
allocation of those positions by division and field office. The base
allocation of those positions will first be used in conjunction with the
FY 2005 budget. Both the FSL and the base allocation are predicated
on the FBI’s 2004 funding levels. Any enhancements received in the
FBI’s FY 2005 budget will be added to the base and allocated
separately. The base allocation does not represent the total number of
analysts needed by the FBI. Instead, the base allocation allocates the
number of analyst positions available as a whole to divisions and field
offices. To make this allocation, the RMA gathered and examined the
following data:

      •   the number of analyst positions each field office had in
          FYs 2003 and 2004 (because there has never been an official
          FSL for intelligence analysts, the data reported by the field
          offices reflected the managerial decisions made by each field
          office),

      •   the number of intelligence analyst positions each division had
          in FYs 2003 and 2004 (because there has never been an


                                     - 39 -
          official FSL for analysts, the data reported by the divisions
          reflected the managerial decisions made by each division),

      •   intelligence analysts on board by division and field office,

      •   enhancements in the number of intelligence analysts in the
          FY 2003 and FY 2004 budgets,

      •   allocation of special agents by program, and

      •   Time Utilization Record Keeping data for FY 2001 prior to the
          terrorist attacks of September 11, 2001, and for the first
          three-quarters of FY 2004.

       In addition to reviewing this data and making the allocations, the
RMA also consulted with the Office of Intelligence and obtained that
office’s views on the current allocation of intelligence analysts.

Forecasting the Need for Intelligence Analysts

       At the time of our audit, the FBI had not determined the total
number of analysts it needed to support its intelligence program, nor
did it have a methodology in place for doing so. To determine the
correct size and allocation of the analytical corps to support the FBI’s
intelligence program, the FBI should have a forecasting methodology
based on assessments of both current and future threats and on
overall intelligence collection, analysis, and dissemination
requirements. The methodology should also determine the resource
requirements across the FBI, including the operational divisions, field
offices, and other offices.

      According to the OPM’s Human Capital Assessment and
Accountability Framework, an agency should have an explicit
workforce planning strategy that is linked to the agency's strategic and
program planning efforts. In addition, the workforce planning strategy
should identify the agency’s current and future human capital needs,
including the size of the workforce, its deployment across the
organization, and the competencies needed for the agency to fulfill its
mission.

     To demonstrate that the size and allocation of the workforce is
based on mission needs, the OPM states an agency needs to complete


                                   - 40 -
a number of planning steps. The following items summarize the most
relevant steps.

      •    Develop a systematic process for identifying the human
           capital required to meet organizational goals and to develop
           strategies to meet these requirements.

      •    Develop a strategic workforce planning model for managers to
           assess and analyze their workforce. This model should
           describe agency-specific processes for setting strategic
           direction, restructuring the workforce through work-flow
           analysis to meet future needs, developing and implementing
           action plans, and evaluating and revising them as necessary.

       Once an organization identifies its workforce gaps, it needs to
develop a strategy to fill the gaps. The strategy should be tailored to
address gaps in the number, deployment, and alignment of human
capital. The correct number, deployment and alignment of human
capital should allow an agency to sustain the contribution of its critical
skills and competencies. The OPM suggests that each agency publish
a strategic workforce plan that includes mission-critical positions,
current needs, projected business growth, future needs by competency
and number, and a basic plan to close the gaps identified.

       The FBI’s EAD for Intelligence acknowledged to the OIG the need
to tie the FBI’s allocation of intelligence analysts to existing and
forecasted threats. In 2004, the Office of Intelligence published a
Concept of Operations for Threat Forecasting and Operational
Requirements (Threat Forecasting CONOPS). According to the Threat
Forecasting CONOPS, the FBI will establish a Human Talent
Requirements Forecast. The forecast will be an assessment of the
characteristics of the personnel required to support the FBI’s
intelligence program in the future. The annual forecast will be based
on the Future Threat Forecast and an Operational Impact
Assessment.42 As of September 2004, the Office of Intelligence had
not implemented the Human Talent Requirements Forecast. However,
the FBI told us that it is currently developing threat-based criteria for

      42
         A Future Threat Forecast assesses future threats that will drive FBI
operations and operational environments. The forecast will be the primary basis for
Operational Impact Assessments to be used to determine operational requirements.
An Operational Impact Assessment will translate the high-level assessment in the
Future Threat Forecast into planning information for FBI managers. Both the Future
Threat Forecast and the Operational Impact Assessment are to be produced annually
and used to support strategic planning and budgeting.
                                      - 41 -
determining the total number of intelligence analysts needed by the
FBI to meet its intelligence mission. This forecast, which will be a part
of the larger Human Talent Requirements Forecast, will be used to
support the FBI’s FY 2007 budget. The same threat-based criteria will
also determine the allocation of intelligence analysts among the FBI’s
divisions and field offices. The Office of Intelligence’s expectations for
the larger forecast are described below.

       The primary goal of the Human Talent Requirements Forecast is
to estimate the overall level of analytical resources the FBI requires.
The secondary goal of the forecast is to estimate the analytical
resources required for specific job functions. In addressing these
goals, the forecast will provide an estimate of the intelligence
workforce capabilities that the FBI will require to adequately address
all current and emerging threats. In addition, it will allow the FBI’s
intelligence program to appropriately develop plans for recruiting,
hiring, training, developing, and retaining intelligence personnel. The
forecast will include all FBI employees that perform an intelligence
analysis function.

       According to the Threat Forecasting CONOPS, the Human Talent
Requirements Forecast was to include an estimate of the number and
characteristics of employees that the FBI will require in each
intelligence job function, in each out-year, and in each threat issue
area. The result will be an understanding of the overall level of
analytic staff that the FBI must maintain, given that the analytic
workforce will adapt and surge to address the changing threat
environment. The Office of Intelligence will translate human staff
needs into specific hiring and training plans.

      The Threat Forecasting CONOPS establishes the guiding
principles that will be applied to formulating human talent
requirements for the intelligence function. According to the CONOPS,
the following principles are critical to ensuring an enterprise-wide
approach to building and executing the FBI intelligence program.

      •   Threat-Based: intelligence capabilities must be adequate for
          current and future threat environments.




                                  - 42 -
       •    Linked to Resource Decisions: the Intelligence Human Talent
            Requirements Forecast will be used by the Intelligence
            Production Board to manage current, and allocate future, FBI
            analytical resources and to assess gaps in FBI capabilities.43

       •    Common Vocabulary: the intelligence program must ensure
            an enterprise-wide, common vocabulary for discussing,
            tracking, and assessing threat information.

       •    Dependencies: the human talent capabilities forecasting
            process relies on the ability of the Office of Intelligence to:

            o adequately assess the threat implications for intelligence
              production, collection, analysis, and dissemination; and

            o translate accurately threat implications into the number
              and type of intelligence analysts required to meet
              intelligence production requirements.

       •    Advocacy: the Office of Intelligence will articulate shortfalls
            in meeting the intelligence production requirements at current
            or projected funded staffing levels.

       The Office of Intelligence has also taken other steps to further its
efforts to develop an FBI-wide threat forecast that can be used to
project the personnel needed for the FBI’s intelligence program. In
April 2004, the Office of Intelligence sent an electronic communication
(EC) to all four operational divisions, the Information Resources
Division, and the Laboratory Division instructing program managers in
those divisions to provide the following information:

       •    a complete and specific narrative description of the
            methodology used to allocate analyst positions provided in
            the budget process, including supporting charts, graphs, and
            other data depictions;




       43
          The Intelligence Production Board is an FBI-wide advisory board that
coordinates the production of short- and long-term intelligence products. The Board
is made up of representatives from each FBI headquarters investigative division and
the Office of Intelligence. The EAD for Intelligence chairs the Board, which meets
daily.
                                      - 43 -
     •   a spreadsheet showing the current allocation of analyst
         positions. The spreadsheet was to show the distribution of
         analysts down to the unit level; and

     •   FY 2006 internal budget requests for intelligence analyst
         positions for headquarters and the field offices.

      We do not believe that the methodology for determining the
number of intelligence analysts needs to be complicated. However,
the methodology needs to be supported by data and be consistent with
the FBI’s strategic mission.

Conclusion

       Although the Threat Forecasting CONOPS and the Office of
Intelligence’s April 2004 EC demonstrate the need for a standard
methodology for determining the number of intelligence analysts the
FBI needs to carry out its mission, the Office of Intelligence has not
completed such a methodology, nor has it completed a threat-based or
risk-based methodology for allocating its current intelligence analyst
positions. The Office of Intelligence is currently developing
threat-based criteria to determine its mission needs and its internal
allocation. We believe the FBI needs to implement both a
threat-based method of determining the number of analysts it needs
to carry out its mission and a threat-based method of allocating those
analysts. Both of these requirements forecasts would help the FBI
decide the appropriate size of its analytical corps as well as support
budget requests, hiring plans, and any reallocation of analysts.

Recommendations

     We recommend that the FBI:

     3. develop and implement a threat-based or risk-based
        methodology for determining the number of intelligence
        analysts required,

     4. develop and implement a threat-based or risk-based
        methodology for allocating intelligence analyst positions
        across the FBI’s headquarters divisions and field offices,




                                 - 44 -
5. link the methodology for allocating intelligence analyst
   positions to the Human Talent Requirements Forecast, and

6. list the current FSL for intelligence analysts and any
   requested additions to this FSL in all budget documenation.




                          - 45 -
Finding 3: Training

     The FBI’s Human Capital Plan calls for analyst training that
     is “second to none.” We found that progress toward
     achieving that goal has been slow but is improving. The
     FBI has taken the initial steps needed to create an
     introductory intelligence analyst course that is aligned with
     the FBI’s strategic objectives. Shortly after the September
     11 attacks, the FBI established the College of Analytical
     Studies (CAS) and assigned it responsibility for training
     new FBI analysts. However, we found that the 5-to-6
     week Basic Intelligence Analyst (BIA) course at the CAS
     struggled to provide quality training to all new analysts.
     Classes for new analysts have not been full, and student
     evaluations of the basic course have been largely negative.
     Many analysts we surveyed said the class did not
     adequately prepare them to perform their jobs. In an
     attempt to address student concerns, the FBI modified the
     curriculum several times and, as a result, many analysts
     said the course appeared disorganized. The FBI has
     recognized many of the shortcomings in the course and
     implemented a revised 7-week course called the Analytical
     Cadre Educational Strategy 1 (ACES-1) in September
     2004. We believe ACES-1 will be an improvement over the
     former basic course, although some problems may remain,
     such as ensuring attendance and the lack of sufficient FBI
     instructors.

The College of Analytical Studies

       In response to the September 11 terrorist attacks, the FBI
Director assigned the FBI’s Training and Development Division to
immediately coordinate, develop, and implement a professional
training program for analysts. In October 2001, the FBI formally
established the CAS at the FBI Academy in Quantico, Virginia, with the
following mission:

     •   conceptualize analytical training programs,

     •   identify analytical training resources, and




                                 - 46 -
       •    administer the CAS with a focus on improving the FBI’s
            analytical capabilities to meet all the FBI’s present and future
            investigative responsibilities.

       The first course established at the CAS was the BIA.44 The BIA
course was first held in FY 2002 and was mandatory for all FBI
intelligence analysts. Since its inception, the BIA has been a
residential training program. The first session of the BIA was five
weeks long. As a result of student feedback and changes in the
curriculum, subsequent versions of the class have varied in length
from five to six weeks.

      The BIA has undergone several curriculum changes. The first
four or five sessions of the BIA followed what one FBI manager called
an “emergency curriculum.” With expediency a major factor, the CAS
modeled this curriculum on the FBI’s new agent training. By not
having to develop a curriculum from the start, the CAS was able to
launch the BIA quickly. However, the CAS soon recognized that the
new agent curriculum was not well-suited to training intelligence
analysts. Based on the experience with this first curriculum, the CAS
assembled a team of analysts from both headquarters and field offices
to develop what it believed would be a more appropriate curriculum.
However, the new curriculum was never implemented because the
newly formed Office of Intelligence, which at that time was part of the
Counterterrorism Division, did not approve the course.

      Although the Office of Intelligence did not approve the revised
curriculum, the effort formed the basis for the approved second
version of the course, which included six weeks of instruction. As
suggested by the Office of Intelligence, the second curriculum included
two segments developed and taught by another intelligence agency.
This portion of the class took two weeks and covered analytical
thinking and writing. The remaining four weeks of the class were a
condensed version of the new FBI curriculum. FBI managers said the
new class did not flow well and was repetitive at times. They also said
these problems were caused by simply inserting two weeks of outside
instruction into the FBI curriculum rather than integrating the outside
instruction.
       44
          In addition to the BIA, the CAS also offers specialty courses in a variety of
subjects, including analytical methods, denial and deception, Lexis/Nexis, money
laundering, and statement analysis. The CAS also collaborates with other
intelligence community training institutions so that FBI analysts can obtain additional
specialized training.

                                        - 47 -
       By refining the second generation curriculum, the CAS developed
a third generation curriculum for use during FY 2004. The course
content was re-ordered and the repetition was eliminated.

      All analysts, new hires and veterans alike, were required to
attend the BIA. However, we found that 75 percent of the analysts
who had not attended the course did not want to enroll in future
sessions of the course, with the most frequently cited reason being
that the BIA would repeat training the analysts had already taken
elsewhere.

                 Reasons Analysts Do Not Want to
             Attend the Basic Intelligence Analyst Class

                        Response                        Percent45
           The class will repeat topics of                 82
           courses I’ve already attended.
           I do not need to attend because of               60
           my years of analytical experience.
           I have not heard positive feedback               44
           from those who have attended.
           My supervisor is discouraging me                 3
           from attending because I’ll be away
           from work for an extended period.
           Other (Please specify)                           37

      Source: OIG survey of FBI intelligence analysts

       The reluctance to attend the BIA course is reflected in
attendance statistics. While all analysts are required to attend the
course, enrollment in any particular session is voluntary. As shown in
the following charts, our review of FBI data found that there were
vacancies in each fiscal year from 2002 - 2004 and that, in total, BIA
classes for FYs 2002 - 2004 were only about 56 percent full. If these
classes were full, the FBI could have trained an additional 240
intelligence analysts.




      45
         Because respondents could check more than one response, the sum of the
percentages does not equal 100.
                                     - 48 -
                      Basic Intelligence Analyst Class
             Students Trained and Vacancies, FY 2002 - 200446

  450
  400
  350
  300
  250
  200
  150
  100
   50
    0
                    2002                    2003                  2004
                                        Fiscal Year

                                Students Trained      Vacancies



                                         2002-2004




                              240
                              43%
                                                           312
                                                           57%




                                 Students Trained    Vacancies


        Source: The FBI

      CAS officials acknowledged that BIA course attendance was low.
According to these officials, the fact that analysts were not directed to
attend a particular session of the BIA course caused a high number of
vacancies. They believe that the intelligence analysts’ managers
should have been held accountable for ensuring that all of the analysts
under their supervision have attended the course. Specifically, they

        46
             FY 2004 data is through April 19, 2004.
                                           - 49 -
advocated having the analysts’ managers submit a plan to the Office of
Intelligence showing when all of their intelligence analysts would
attend the training.

Student Feedback on the BIA Course

      Our interviews with analysts who have taken the BIA course,
reviews of student evaluations, survey results, and our review of the
curriculum, suggest that the course did not sufficiently prepare
analysts to perform their jobs. Of the 186 respondents to our survey
who attended the BIA course, over 60 percent said that the course did
not meet their expectations for helping them do their work. Only
6 percent of the respondents said the BIA course exceeded or greatly
exceeded their expectations.

                     Student Satisfaction With the
                    Basic Intelligence Analyst Class


  45%
  40%
  35%
  30%
  25%
  20%
  15%
  10%
   5%
   0%
           Greatly       Exceeded           Met        Did Not Meet    Completely
          Exceeded      Expectations    Expectations   Expectations   Failed to Meet
         Expectations                                                 Expectations

                               Percentage of Respondents


     Source: OIG survey of FBI intelligence analysts

      In addition to our survey, we reviewed student evaluations of
the BIA course. We randomly selected and reviewed 32 of the 224
evaluations the FBI had on file and found that only 38 percent of the
respondents in our sample believed that the BIA would help their
performance. Further, only 47 percent of the respondents in our
sample reported that they learned new information in the BIA course.

                                       - 50 -
The evaluations are particularly noteworthy given that 72 percent of
the respondents in our sample had less than one year experience as
an analyst.

      During our interviews of 17 analysts who had attended various
versions of the BIA, they reported various reasons for their
dissatisfaction:

     •   the course did not cover the specialized software used by FBI
         intelligence analysts,

     •   there were not enough FBI instructors,

     •   the information presented was too basic,

     •   the course was not well organized, and

     •   the course did not address the actual work done by
         intelligence analysts.

The analysts’ concerns about the organization of the class were
widespread. These concerns were mirrored in the results of our review
of the student evaluations. In our sample of the evaluations, only
19 percent of the respondents thought the class was well-organized.

      During our interviews, analysts suggested ways to improve the
BIA course. We included many of those suggestions into our survey
and asked analysts who had attended the course to tell us which of the
following suggestions they thought would improve it. We received the
following survey responses.




                                - 51 -
                     Suggestions to Improve the
                    Basic Intelligence Analyst Class

                        Response                        Percent
         Integrate software used by intelligence          87
         analysts into case studies
         Spend more time on the tools FBI                 83
         intelligence analysts use
         Integrate case studies throughout the            79
         new analyst training
         Integrate introductory analyst training          70
         with new agent training
         Spend more time on preparing specific            70
         intelligence products
         Breakout training according to role (all         67
         source, operations specialist, and
         reports officer)
         Breakout training according to                   52
         operational division
         Other                                            24

      Source: OIG survey of FBI intelligence analysts

Analytical Cadre Educational Strategy 1 Course (ACES-1)

      In 2004, the Office of Intelligence and a contractor have
developed a new 7-week introductory level course for intelligence
analysts, called Analytical Cadre Educational Strategy 1 (ACES-1).
ACES-1 replaced the BIA in September 2004. Under the auspices of
the Office of Intelligence, the FBI Academy will be responsible for
course delivery. The primary objective of ACES-1 is to produce
graduates having the skills and capabilities needed to perform any of
the three work roles: all source intelligence analyst, operations
specialist, and reports officer.

       Initially, the students attending ACES-1 will be a mix of new
intelligence analysts who are just entering on duty and those who are
currently assigned within the FBI. The students who are entering on
duty at the training will attend a 3-day “Introduction to the FBI”
course immediately prior to attending ACES-1. After completing
ACES-1, the new analysts will be assigned to a unit within the FBI.
The Office of Intelligence’s goal is to have all new intelligence analysts
start their employment at the FBI Academy. However, the Office of

                                     - 52 -
Intelligence predicts that it will take until the beginning of FY 2006
before the ACES-1 course is comprised entirely of analysts who are
entering on duty. The capacity of each ACES-1 session will be 48
students.

       Development

      In evaluating the introductory analyst course and the needs of
the FBI’s intelligence program as a whole, the Office of Intelligence
developed seven core elements for FBI intelligence training. The
ACES-1 class will be based on these elements. The seven elements
are: 1) FBI intelligence mandates and authorities, 2) the intelligence
cycle, 3) the United States Intelligence Community,
4) intelligence reporting and dissemination, 5) FBI intelligence
requirements and the collection management process, 6) the role of
the intelligence analyst, and 7) validating human sources.

       The overall structure and instructional design of ACES-1 are built
around the seven core elements for intelligence training. According to
the Office of Intelligence, a variation of these core elements is
well-accepted by the rest of the intelligence community. Office of
Intelligence managers said that in developing ACES-1, the FBI did not
want to “reinvent the wheel.” In addition to applying the generally
accepted core elements in developing the curriculum, the FBI’s
contractor consulted with other federal agencies, companies that
provide training to intelligence analysts elsewhere, experienced FBI
intelligence analysts, and academic institutions with intelligence
programs. The contractor is also responsible for ensuring that the
course material is presented in an appropriate sequence. Finally, the
contractor is responsible for vetting the instructors who will present
the material at ACES-1 classes.47

       Curriculum Review

      According to the course design, ACES-1 includes 35 days of
instruction over 7 weeks, which comprises 74 instructional blocks.
Included in that 35 days are 9 hours that are not instructional. Block
7 allows 1 hour for credential photos, and Block 74 allows 8 hours for
graduation and out-processing.

       47
          In commenting on a draft of this report, the EAD for Intelligence said that
the Office of Intelligence is responsible for choosing the order in which the course
material is presented and for vetting instructors. The contractor only provides advice
to the FBI on these aspects of the course.
                                       - 53 -
       The instructional design of the ACES-1 course is grouped into
five components: 1) Foundations for FBI Intelligence Analysts, 2) FBI
Intelligence Program, 3) Core Competencies of FBI Intelligence
Analysts, 4) FBI Intelligence Analyst Field Skills, and 5) Practical
Application Exercise and Graduation.

       The Foundations for FBI Intelligence Analysts component lasts
5 days and includes 16 instructional blocks, which cover areas such as
security classifications and clearances and developing a professional
support network of analysts. The FBI Intelligence Program component
lasts 5 days and includes 11 instructional blocks, which cover topics
such as the FBI intelligence cycle and the role of the FBI intelligence
analyst. The Core Competencies of FBI Intelligence Analysts
component lasts 16.5 days and includes 34 instructional blocks, which
address areas such as report writing, analytical methodologies, and
analytical tradecraft. The FBI Intelligence Analyst Field Skills
component lasts 6.5 days and includes 11 instructional blocks that
vary from statement analysis to fraudulent financial transactions. The
Practical Application Exercise and Graduation component lasts 2 days
and includes 2 instructional blocks: an 8-hour exercise and 8 hours
for graduation.

       In our judgment, the newly-designed ACES-1 curriculum
generally is a well-balanced introductory analyst course. However, we
have three concerns: 1) the amount of time spent on some subjects;
2) the number, length, and type of class exercises; and 3) computer
training.

       Concerning the amount of time spent on some subjects, we
looked at the amount of instruction provided on intelligence
dissemination and intelligence assessment. In our survey of
intelligence analysts, threat assessment was the area in which the
most respondents said they needed additional training. According to
the instructional plan we reviewed, ACES-1 devotes only four hours to
this topic. In addition, the 9/11 Commission called the lack of
information sharing the biggest impediment to all source intelligence
analysis. The 9/11 Commission also stated that “Intelligence gathered
about transnational terrorism should be processed, turned into reports,
and distributed according to the same quality standards, whether it is
collected in Pakistan or Texas.” ACES-1 provides only eight hours on
intelligence dissemination. In addition, because the intelligence
dissemination class is not held in a classroom equipped with

                                - 54 -
computers, students cannot practice electronically disseminating FBI
intelligence products electronically.

       Concerning the number, length, and type of class exercises,
analysts we interviewed and survey respondents told us that more
exercises would be helpful. In reviewing the ACES-1 curriculum, we
could not quantify the number of exercises or amount of time
devoted to them. However, we did determine that 49 percent of the
instructional blocks had some type of exercise or case study for a
portion of the class. Also, an additional 15 percent of the instructional
blocks used computer labs for software instruction. But not all of
these exercises appear to be directly related to the work of an
intelligence analyst. For example, two exercises are related to the
Myers-Briggs personality test. While the computer training will be in a
classroom equipped with computers, we were unable to determine
whether the exercises will require analysts to develop FBI intelligence
products. Because the computer-related classes will be held before
students are introduced to FBI intelligence products, it seems unlikely
that the computer exercises will require students to use computers in
developing or disseminating intelligence products.

       Our third concern, computer training, is related to the other two
concerns mentioned above. ACES-1 will include what an FBI manager
described as a limited amount of software training. As a result of the
lack of computer-equipped Sensitive Compartmented Information
Facilities (SCIFs) and secure classrooms, all of the software training at
ACES-1 will be unclassified.48 At no point does ACES-1 address any of
the highly-classified databases that many FBI intelligence analysts
regularly use, such as Intelink and CT Link. According to CAS officials,
the FBI recognizes this weakness and is building more SCIFs at the FBI
Academy to correct it.

       Commercially available software will be used in ACES-1, but
students will use guest accounts for that training. Any data they enter
into the systems will not be accessible at their workplaces. The Office
of Intelligence would like to eventually make it possible for the
students to obtain user accounts as part of the training and use the
FBI computer network in their ACES-1 classrooms. If the students


      48
           A SCIF is an accredited area, room, group of rooms, buildings, or
installation where Sensitive Compartmented Information may be securely stored,
used, discussed, or processed.

                                     - 55 -
have user accounts, once they report to their assigned positions, the
exercises and data would be available.

      Finally, we noted that the FBI’s contractor will be responsible for
evaluating the ACES-1 training. Initially, the evaluation will be
informal and based on the observations of the contractor’s staff.
Office of Intelligence officials told us that students will not be tested on
subject matter learned because the analyst job announcements do not
state that passing training is a condition of employment. According to
the Office of Intelligence, specific evaluation plans for ACES-1 are still
in their infancy because both the FBI and its contractor are primarily
concerned with implementing the new curriculum.49

       Instructor Review

       One challenge the FBI faces in training its analysts is developing
FBI employees to teach segments of the introductory intelligence
analysis course. The FBI recognizes this shortcoming and plans to
have FBI personnel “shadow” the contract instructors and managers.
The plan is to have some of those FBI personnel become either adjunct
faculty or class administrators. The CAS also wants to provide some
full-time instructors for the critical intelligence elements taught in
ACES-1.

      The BIA course used many instructors who are either contractors
or personnel from other agencies. During interviews with intelligence
analysts who had attended the BIA course, we were often told that the
students wanted to learn “the FBI way” of approaching different topics.
The analysts did not think that instructors from other agencies
provided them with that perspective. According to one instructor from
another intelligence agency, developing instructors is a major
challenge for the FBI that requires more attention.

       The FBI plans to use a mix of instructors for ACES-1. The
instructional design we reviewed showed that FBI personnel will be
teaching 33 percent of the 280 class hours and 34 percent of the 74
instructional blocks. A mix of FBI instructors and non-FBI instructors
will teach 5 percent of the instructional hours and 7 percent of the

       49
           In reviewing a draft of this report, the EAD for Intelligence said that the
Office of Intelligence and the Training and Development division are responsible for
evaluating the ACES-1 training. She said that an executive from the Office of
Intelligence visits each ACES-1 session to get feedback directly from the students.
The contractor only provides advice to the FBI on evaluating the course.
                                        - 56 -
instructional blocks. Non-FBI personnel, including contractors and
other government agency personnel, will teach 59 percent of the
instructional hours and 57 percent of the instructional blocks.50

      The amount of FBI-provided instruction varies by course
component. The FBI Intelligence Analyst Field Skills component, for
example, has the highest level of FBI instruction. FBI instructors are
to teach 69 percent of the instructional hours and 55 percent of the
instructional blocks for that component. The Core Competencies for
FBI Intelligence Analysts component has the lowest level of FBI
instruction. Instructors from outside of the FBI will teach 91 percent
of both the instructional hours and instructional blocks.

Analyst Training at the CIA and DIA

       In order to better evaluate the FBI’s introductory training for
intelligence analysts, we interviewed officials at the Central
Intelligence Agency (CIA) and the Defense Intelligence Agency (DIA)
to learn how those agencies provide introductory analyst training. As
described below, we found that the introductory training for
intelligence analysts at the FBI, CIA, and DIA varies significantly in
overall approach, length, and evaluation. The FBI and the CIA both
have one extended class for introductory analysts that covers multiple
topics the agency managers believe are necessary. The DIA, however,
uses a “smorgasbord” approach to training and does not have a
mandatory introductory analyst class. The FBI’s ACES-1 is 7 weeks
long while the CIA’s introductory class is 16 weeks long. The CIA’s
introductory class features testing throughout and individual DIA
classes have tests. The FBI’s ACES-1 does not have tests.

       CIA

       The CIA’s Sherman Kent School is dedicated to training
intelligence analysts and, to that extent, is similar to the FBI’s CAS.
The Kent School consists of three parts: 1) the Career Analyst
Program (CAP), 2) the Intelligence Analyst Training Program, and 3)
the Kent Center. The CAP is the CIA’s new analyst training program.
The Intelligence Analyst Training Program is the CIA’s
“discipline-focused” program for experienced analysts, defined as
those with five or more years of experience. In the Intelligence
Analyst Training Program, experienced analysts receive mid-career

       50
         The FBI has not determined the instructors for 2 percent of the instructional
hours and 3 percent of the instructional blocks.
                                       - 57 -
training tailored to the areas or specialties in which they work. The
Kent Center is the Kent School’s outreach arm. It disseminates
examples of products, evaluates CIA intelligence products, and
reaches out to the academic and private sectors.

       The CAP is five years old. In that time, 31 classes have
graduated. The CIA has experimented with the length of the CAP. It
is currently 16 weeks long and the program director believes that is
the appropriate length. In earlier iterations, the CAP was as long as
26 weeks. Prior to attending the CAP, all students attend “CIA 101,”
where they fill out their national security forms and health forms and
take care of other administrative tasks. Also prior to attending the
CAP, they work in the units to which they are permanently assigned
for two to five months. The CIA believes this work experience helps
new analysts in three ways: 1) they gain exposure to the work of the
CIA, 2) they get an opportunity to understand who their unit’s
customers are, and 3) the time working in the units gives context to
the training they receive in CAP.

      The three-fold mission of the CAP is to educate its students:
1) about the history, mission, and values of the CIA with an emphasis
on the Directorate of Intelligence; 2) on analytical tradecraft, and 3)
about the United States Intelligence Community. The CIA officials we
spoke to, believe that the accomplishment of these three missions
leads to the CAP’s ultimate objective: after completing CAP, all
students return to their positions with the professional knowledge they
need to perform their jobs.

      The history, mission, and values portion of the CAP includes
sections on lessons learned, the Directorate of Intelligence customer
focus, ethics, and analytical objectivity. The CIA believes that lessons
learned provide valuable insights into the challenges the intelligence
community faces today, so the CAP examines historical events
including, the Battle of Gettysburg, the attack on Pearl Harbor, and the
September 11 terrorist attacks. The CAP also attempts to instill in new
analysts the CIA’s customer focus, and also how their analytical
products influence the nation’s policy and law enforcement operations.
The CAP includes a 2-day segment on the Directorate of Intelligence
goal to be analytically objective in all its work.

     The analytic tradecraft mission of the class is fulfilled by a
2-week analytical thinking section, a 3-week analytical writing section,
a 1-week briefing section, and a 1-week teamwork section. The

                                 - 58 -
analytical thinking section introduces students to a variety of analytical
tools and thinking methods, denial and deception practices, indications
and warning, targeting analysis, and terrorism analysis. The 3-week
writing section emphasizes the CIA’s deductive, journalistic writing
style, with the main points stated first. Participants practice writing a
variety of CIA products to which they are given feedback. The 1-week
briefing section covers the types of briefings that CIA analysts provide.
The 1-week teamwork section covers a variety of teamwork exercises
including team building, the Myers-Briggs personality test, conflict
resolution, and giving and receiving feedback. The CIA believes the
teamwork section is essential to educating new analysts because
almost all of the CIA’s products are collaborative efforts.

       In the CAP there are three main “task force” exercises:
simulations in which the students have to complete tasks and respond
to incoming information within a limited amount of time. These task
force exercises range in length from one to two-and-a-half days. The
third task force is a continuous 30-hour exercise where the students
respond to information and tasks at all times of the day and night.
During this exercise, students brief CIA officials who role play as senior
government officials, write Presidential Daily Briefs, and evaluate cable
traffic and other data. In the task force exercises, senior CIA analysts
role play senior CIA and government officials. To make the exercises
as realistic as possible, the analysts acting as the senior government
officials attempt to exhaust the students and create pressure similar to
what they would experience in a real situation. The exercises are
designed to be very demanding, so the students can better understand
their current strengths and weaknesses. The final exercise is a
terrorism simulation where the students must determine who attacked
the United States.

      Students spend 5 of the 16 weeks at a rotation outside of their
home office. The rotation may be in another CIA office, another
federal agency, or some entity outside the government. In
conjunction with the student, the student’s home office decides where
the student will go on rotation and makes all of the arrangements.
Involving the student’s home office in selecting the rotation attempts
to ensure that the rotation will be beneficial to the student’s
performance once the student returns to his or her job.

      Students at the CAP are constantly evaluated and coached. For
example, they receive feedback on all of their written assignments. In
addition, after the six weeks of class immediately prior to the

                                  - 59 -
“rotation,” they take a midterm exam. The final exam is a 30-hour
role-playing exercise.

      All of the CAP’s permanent staff are GS-14 or GS-15 professional
analysts assigned to the Kent School on a 2-year rotation, with an
optional third year. The permanent staff manage and instruct the CAP
and other Kent School programs. In addition, the Kent School uses
part-time instructors. The part-time instructors are both contractors
(usually retired CIA) and current CIA analysts. All instructors have to
be certified by the CIA University. Certification requires attendance at
a 1-week instructor class and an in-class evaluation of the instructor.

      All classes are held in SCIFs. There are computer-equipped
breakout rooms used to work on class assignments. The computers in
the breakout rooms are connected to the CIA’s network and students
have full access to all of the agency’s databases.

DIA

       The DIA takes what it refers to as a “smorgasbord” approach to
training. The DIA does not have a mandatory introductory analyst
class. Instead, each analyst develops an Individual Development Plan
(IDP) in consultation with his or her supervisor. These plans are
tailored to the individual needs of the analyst, and state which courses
the analyst will take during the period covered by the plan.

       While the smorgasbord approach allows a wide degree of
flexibility, DIA officials said most new analysts take three courses
within their first year. The first course is the Basic Analyst course.
This 2-week course covers intelligence analysis, analytical thinking,
and research skills. Representatives of foreign governments often
attend this class, so none of the material in the class is classified and it
does not include any simulation exercises. The second course is
Introduction to Intelligence Collections, which includes topics such as
the limitations and capabilities of collections systems. The third course
is a 3-day class entitled Analytic Writing, where students write
intelligence products similar to those they would write on the job.
Typically, students complete these three courses and then pursue
specialty courses related to their particular job assignment. Students
may take these specialty classes shortly after completing the three
basic classes, or they may wait until the classes are more relevant to
the work they are doing.


                                   - 60 -
       Most classes at the DIA include some type of test to determine
whether the students have mastered the material in the class. The
tests vary in type from written exams, practical exercises, and papers,
to group exercises. All tests are graded pass/fail, but the grade is
intended only for the benefit of the student and is not recorded by the
DIA. However, students must pass all of the course examinations to
receive credit for that course. If a student fails a test, the student
may take the class again or negotiate with the instructor to determine
how the student can demonstrate mastery of the subject. At the
instructor’s prerogative, the student may be allowed to retake the test,
participate in a group exercise in another session of the class, or
retake portions of the class. If the instructor offers a student a second
testing opportunity and the student fails a second time, the student
must retake the entire course.

Observations on the FBI’s College of Analytical Studies

       We spoke with one guest instructor at the CAS from another
Intelligence Community agency. A seasoned intelligence professional,
he pointed out the limited number of staff at the CAS compared to
other intelligence community training facilities where the faculty is
dedicated to the facility for given periods. The instructor said that in
his opinion the FBI does not appreciate the importance of having a
dedicated staff at the CAS. He cited his experience at the CAS, for
example, during which time he was teaching under the train-the-
trainer concept. The idea was that two FBI personnel would attend the
sessions he taught and, after a number of sessions, would ultimately
be able to teach the sessions themselves. However, this concept failed
because the FBI personnel were always being called upon to perform
other duties and were never able to attend the sessions in their
entirety.

       The same guest instructor stated that he believes that the FBI
has grossly underestimated the investment in staff necessary to make
the introductory analyst program work. For example, if the FBI is
going to require students to write papers during its introductory
analyst class, it needs sufficient staff to read the papers and provide
individual feedback. He believes that because the FBI has not invested
sufficient resources, it has to rely on contractors to teach most of the
introductory analyst class.




                                 - 61 -
Conclusion

      Training is a key element in developing a well-qualified corps of
FBI intelligence analysts. Without a first-rate training program, the
FBI cannot fully develop its intelligence program. As the FBI’s
Strategic Human Capital Plan notes:

      Historically, the FBI has been an Agent centric organization
      because the core mission of the FBI has been performed by
      Special Agents. The Director elevated intelligence to program
      status and has made it a priority function within the FBI. As a
      result, the professional analyst, like the Special Agent, performs
      part of the core business of the FBI. Hence, the FBI must have a
      training and career development program for its analysts that is
      second to none.

      Aside from the limitations the FBI faces in the CAS, such as the
lack of secure classrooms and access to the FBI’s computer networks,
the new ACES-1 curriculum seems generally sound and reasonable.

      The success or failure of ACES-1 may well depend on two
factors: providing qualified FBI instructors to the course and
evaluating the quality and effectiveness of the training. The FBI must
ensure that it dedicates a sufficient number of FBI employees as
ACES-1 staff and that these employees take over instruction of the
majority of the instructional blocks, including those addressing the
Core Competencies of FBI Intelligence Analysts. The FBI also needs to
thoroughly evaluate the ACES-1 curriculum after it is implemented and
ensure that it meets the needs of new analysts as well their
supervisors. Lastly, the FBI needs to ensure that all analysts who
need training receive it.

Recommendations

      We recommend that the FBI:

      7.   ensure that all ACES-1 courses are full;

      8.   develop a more rigorous training evaluation system that
           includes the effectiveness and relevance of each
           instructional block; asks analysts what other topics need to
           be covered; obtains the views of analysts after returning to
           work when they can evaluate the effectiveness of the

                                 - 62 -
     training in improving their job skills; and obtains evaluations
     of training effectiveness from analysts’ supervisors;

9.   develop a methodology to determine the number of staff
     needed to teach ACES-1 and a plan to staff ACES-1 with FBI
     personnel, including experienced FBI intelligence analysts;
     and

10. integrate testing into the ACES-1 curriculum.




                            - 63 -
Finding 4: Utilization of Intelligence Analysts

      Based on our survey of FBI intelligence analysts, the vast
      majority reported that they: 1) believe they make a
      significant contribution to the mission of the FBI, 2) are
      satisfied with the work assignments they receive, and
      3) are intellectually challenged by their work. However,
      smaller percentages of analysts, including some of the
      newer and more highly qualified analysts, are less satisfied
      with their work assignments than analysts as a whole.
      Some analysts reported that their contribution to the FBI’s
      mission is low and they do not feel intellectually challenged
      by their work.

      Through our survey, we found that the type of work done
      by FBI intelligence analysts varies depending on location,
      years of employment, and education level. According to
      our survey, work requiring analytical skills accounts for
      only an average 50 percent of intelligence analysts’ time.
      During our interviews with analysts, we found that many
      are asked to perform administrative tasks that are not
      analytical in nature, such as escort duty.

      We identified two primary reasons for analysts not being
      used for analytical purposes. First, several analysts told us
      that not all FBI special agents understand the capabilities
      or functions of intelligence analysts. Second, most
      analysts are supervised by special agents rather than
      higher-graded analysts. Many analysts with whom we
      spoke believe that analysts should be supervised by other,
      more senior, analysts. In our opinion, the FBI’s ability to
      develop and retain a well-qualified analytical corps
      depends on it fully utilizing the specialized skills of its
      analysts.

      To determine how the FBI is utilizing the skills of its intelligence
analysts, in our survey questions we asked about: 1) their level of
contribution to the FBI mission; 2) their satisfaction with the work
assignments intelligence analysts received; 3) the intellectual
challenge of their work as an FBI analyst; and 4) the type of work
analysts performed, including the products they produced. In
addition, we interviewed 25 analysts to learn in greater detail about
their work.

                                  - 64 -
Contribution to the FBI Mission

      The FBI’s analysts we surveyed as a whole believe that they are
contributing significantly to the FBI’s mission. Seventy-three percent
of the respondents to our survey rated their contribution to the FBI
mission as “high” or “very high.” As shown below, only four percent of
the respondents rated their contribution as “below average” or “low.”

      Analysts’ Perceived Contribution to the FBI’s Mission


                                    1%
                                  3%
                                                 27%
                           23%




                                       46%


               Very High   High    Average    Below Average   Low


      Source: OIG survey of FBI intelligence analysts

       Yet, analysts in the following groups gave lower ratings on their
level of contribution to the FBI mission than other analysts: 1) hired
in the last three years, 2) military intelligence experience,
3) Presidential Management Fellows, 4) advanced degrees,
5) intelligence community experience, and 6) assigned to
headquarters. As shown below, all of these groups of analysts have a
greater tendency to rate their contribution to the FBI mission as
“below average” or “low” compared to analysts in general. Still, most
of the analysts in these categories reflect the overall consensus of
analysts who have positive feelings about their contributions.




                                     - 65 -
                                                        Analysts Expressing a Lower Level of
                                                          Contribution to the FBI Mission51

      Rated Contribution Below Average (%)
                                              16
                                              14
                                              12
                                              10
                                                 8
                                                 6
                                                 4
                                                 2
                                                 0
                                                                        ce




                                                                                                                  ts
                                                                                                                   e



                                                                                                                 rs
                                                                                         ee
                                                          1




                                                                               F




                                                                                                                nc




                                                                                                                ys
                                                        00



                                                                      en



                                                                             PM




                                                                                                              rte
                                                                                       gr




                                                                                                             al
                                                                                                            rie
                                                      r2



                                                                  llig




                                                                                                           ua
                                                                                     De




                                                                                                          An
                                                                                                         pe
                                                    te



                                                                te




                                                                                                       dq
                                                                                    ed
                                                 Af




                                                                                                      Ex




                                                                                                      er
                                                              In




                                                                                                     ea



                                                                                                    th
                                                                                  nc
                                                d



                                                               y




                                                                                               C



                                                                                                  H
                                             ire




                                                                                                 lO
                                                            ar




                                                                                va



                                                                                            SI
                                                        ilit
                                             H




                                                                                               Al
                                                                              Ad




                                                                                         U
                                                       M




                                             All Other Analysts
                                             Categories with Higher Levels of Below Average Contribution


                Source: OIG survey of FBI intelligence analysts

      We found that analysts’ perceptions about their contribution to
the FBI’s mission are closely linked to their satisfaction with the work
assignments they receive and the intellectual challenge they receive
from their work. As shown below, analysts who rate their contribution
to the FBI mission as less than average (below average or low) are
much more likely to describe their work as not intellectually
challenging. For example, while 96 percent of analysts who rate their
contribution as “very high” said they are intellectually challenged, only
18 percent of those analysts who rate their contribution as “low” say
they are intellectually challenged.



                51
        “Rated Contribution Below Average” is equal to the percentage of
respondents who reported their contribution to the FBI mission is “below average” or
“low.”
                                                                                   - 66 -
                         Contribution to FBI Mission by
                            Intellectual Challenge52

 100%
  90%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
  10%
   0%
             Very High          High            Average         Below Average         Low
                                       Contribution to FBI Mission


                         Intellectually Challenged    Not Intellectually Challenged


        Source: OIG survey of FBI intelligence analysts

      There is a similar link between analysts’ ratings of their
contribution to the FBI mission and their satisfaction with the work
assignments they receive. As the chart below illustrates, analysts who
rate their contribution to the FBI as “very high” or “high” are much
more likely to be satisfied with their work assignments than those
analysts who rate their contribution as “below average” or “low.”




        52
          For presentation purposes, we grouped “very challenging” and
“challenging” responses to our survey question on the intellectual challenge of the
intelligence analyst position into “intellectually challenged.” We also grouped
“unchallenging” and “very unchallenging” responses into “not intellectually
challenged.”
                                             - 67 -
                         Contribution to FBI Mission by
                     Satisfaction with Work Assignments53

 100%
  90%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
  10%
   0%
             Very High      High            Average          Below Average   Low
                                   Contribution to FBI Mission


                                     Satisfied     Unsatisfied


        Source: OIG survey of FBI intelligence analysts




        53
          For presentation purposes, we grouped “extremely satisfied,” “very
satisfied” and “satisfied” responses to our survey question on satisfaction with work
assignments into “satisfied.” We also grouped “unsatisfied” and “very unsatisfied”
responses into “unsatisfied.”
                                         - 68 -
Satisfaction with Work Assignments

      As shown in the chart below, the vast majority, 84 percent, of
the analysts in our survey are satisfied with the work assignments
they receive.

    Intelligence Analyst Satisfaction with Work Assignments



                                      3%    10%
                              13%


                                                  27%



                              47%



                     Extremely Satisfied   Very Satisfied
                     Satisfied             Unsatisfied
                     Very Unsatisfied


      Source: OIG survey of FBI intelligence analysts

       While the majority of the FBI’s intelligence analysts are satisfied
with the work assignments they receive, certain categories of analysts
are significantly less satisfied with their work assignments than
intelligence analysts as a whole. As shown below, the following
categories of analysts are less satisfied than all other FBI analysts with
their work assignments: 1) working at FBI headquarters, 2) with
advanced degrees, 3) hired within the last five years, and
4) Presidential Management Fellows.54




      54
         Some respondents belong to more than one subgroup. As a result, the
sum of all the subgroups and “all other analysts” is greater than 100 percent.
                                      - 69 -
                               Groups of FBI Intelligence Analysts Expressing
                               A Higher Level of Dissatisfaction with the Work
                                        Assignments They Receive55


                               35

                               30

                               25
        Percent Dissatisfied




                               20

                               15

                               10

                                5

                                0
                                    Management




                                                                                          Advanced
                                                                           Headquarters




                                                                                                     All Other
                                                                                                     Analysts
                                                   Less Than 5
                                                   Years w/ FBI
                                    Presidential




                                                                                           Degree
                                      Fellow




                                      Percent of Subgroup Dissatisfied                    All Other Analysts


       Source: OIG survey of FBI intelligence analysts

       We performed statistical tests and found that respondents’
satisfaction with the work assignments they receive is statistically
related to whether or not they have been employed by the FBI for five
years or more and to their level of education.56 These tests showed
that whether an analyst has been employed by the FBI for at least five
years is an indicator of how satisfied that analyst is with the work
assignments he or she receives. Likewise, the higher the level of
education an intelligence analyst reported, the more likely that analyst
is dissatisfied with his or her work assignments.


       55
         “Level of Dissatisfaction” is equal to the percentage of respondents who
reported they are “unsatisfied” or “very unsatisfied” with the work assignments they
receive.
       56
        The statistical test we performed was a chi-squared analysis, which
determines whether two variables are statistically related.
                                                                  - 70 -
Intellectual Challenge

      As shown in the chart below, 85 percent of the FBI’s intelligence
analysts say they are challenged by their work assignments. However,
among certain highly qualified categories of analysts, significant
percentages of analysts reported not being as challenged as they could
be.

   Intellectual Challenge of the Intelligence Analyst Position



                                     3%
                              12%
                                                 30%




                               55%


                     Very Challenging      Challenging
                     Unchallenging         Very Unchallenging


      Source: OIG survey of FBI intelligence analysts

       While most intelligence analysts think their work is at least
intellectually challenging, some categories of analysts reported that
their work is significantly less intellectually challenging than analysts
as a whole. Specifically, the following categories of analysts reported
that their work is less intellectually challenging than did other analysts
who were not among these categories: 1) at headquarters,
2) advanced degrees, 3) employed by the FBI for less than five years,
4) Presidential Management Fellows, and 5) military intelligence
experience.




                                     - 71 -
                              Groups of FBI Intelligence Analysts Expressing
                                 A Lower Level of Intellectual Challenge


                         35
                         30
  Percent Dissatisfied




                         25
                         20
                         15
                         10
                          5
                          0
                                             Years w/ FBI




                                                                                        Headquarters
                              Management




                                                            Intelligence


                                                                           Advanced




                                                                                                       All Other
                                             Less Than 5




                                                                                                       Analysts
                              Presidential




                                                                            Degree
                                                              Military
                                Fellow




                                Percent of Subgroup Not Challenged                    All Other Analysts

Source: OIG survey of FBI intelligence analysts

       We performed statistical tests and found that the respondents’
level of intellectual challenge from the intelligence analyst position is
statistically related to a number of variables. Most importantly, we
found that the level of intellectual challenge posed by intelligence
analysts’ work correlates to the level of satisfaction with their work
assignments. As shown below, 86 percent of the analysts who
reported being “very unsatisfied” with their work assignments also
reported that they are not intellectually challenged by their work.
Likewise, 100 percent of the intelligence analysts who reported being
“extremely satisfied” or “very satisfied” with the work assignments
they receive also reported being intellectually challenged.




                                                              - 72 -
    Intelligence Analyst Satisfaction with Work Assignments
       By Level of Intellectual Challenge Posed by Work57

 120%
 100%
  80%
  60%
  40%
  20%
   0%
             Very High         High           Average        Below Average         Low
                                  Satisfaction with Work Assignments


                         Intellectually Challenged   Intellectually Unchallenged


Source: OIG survey of FBI intelligence analysts

       The other variables we identified that correlate with an
intelligence analyst’s level of intellectual challenge include: whether
they have been employed by the FBI for five years or more, their level
of education, and whether they work at FBI headquarters. The
statistical test we performed was a chi-squared analysis, which was
discussed earlier. These tests showed that whether an analyst had
been employed by the FBI for five years or more was an indicator of
the level of intellectual challenge posed by their position. Specifically,
analysts who have been employed by the FBI for five or more years
are more likely to be intellectually challenged than those employed
more recently. Likewise, the higher the level of education an
intelligence analyst reported, the more likely that analyst is to feel
intellectually unchallenged. Also, these tests showed a negative
correlation between analysts working at FBI headquarters and the
extent of intellectual challenge reported.




        57
          For presentation purposes, we grouped “very challenging” and
“challenging” responses to our survey question on the intellectual challenge of the
intelligence analyst position into “intellectually challenged.” We also grouped
“unchallenging” and “very unchallenging” responses into “intellectually
unchallenged.”

                                           - 73 -
The Work of FBI Intelligence Analysts

       In addition to hiring and training well-qualified analysts, the
FBI’s intelligence program depends on the FBI using its analytical
corps for its intended purpose: performing intelligence work and
developing intelligence work products. We found that the type of work
done by FBI intelligence analysts varies depending on grade, years of
experience and location.

       Broad Categories of Work

       In our survey, we asked analysts to report what percentage of
their time is spent on each of the following categories of work in an
average month: 1) work requiring analytical skills, 2) program
management, 3) administrative work related to being an intelligence
analyst, and 4) administrative work not related to being an intelligence
analyst.58 Overall, 57 percent of respondents reported they spend the
majority of their time doing work that requires analytical skills. The
majority of analysts also said they spend less than 25 percent of their
time on program management activities, such as getting approval for
warrants under the Foreign Intelligence Surveillance Act. Sixty-eight
percent of analysts said they spend less than 25 percent of their time
on administrative duties related to their job. Over 80 percent of
analysts reported that administrative duties not related to their job
take less than 25 percent of their time.

      While 57 percent of the FBI’s intelligence analysts spend the
majority of their time on work requiring analytical skills, 43 percent
reported spending the majority of their time working on duties that do
not require such skills.59 Further, 12 percent of respondents reported
they spend the majority of their time on administrative duties.
According to our survey, the average intelligence analyst spends his or
her time as follows:

       •     51 percent doing work requiring analytical skills,

       •     13 percent doing program management,

       58
          Program management refers to tasks often performed by headquarters
special agents such as getting approval for warrants under the Foreign Intelligence
Surveillance Act. As an integral part of the intelligence analyst position, program
management also refers to providing expert advice to aid in intelligence collection.
       59
            We describe below the non-analytical duties performed by intelligence
analysts.
                                         - 74 -
       •    20 percent doing administrative work related to being an
            intelligence analyst,

       •    11 percent doing administrative work not related to being an
            intelligence analyst, and

       •    5 percent doing other types of work.

       Variations by Work Role

       The amount of time analysts devote to these different types of
work vary by the analysts’ specific roles in the general analyst job
classification. On average, all source analysts reported spending more
time doing work that requires analytical skills than reports officers and
operational specialists. Of the three analyst roles, all source analysts
spend the least amount of time on program management. On
average, all source analysts spend 57.4 percent of their time doing
work that requires analytical skills and 9.4 percent of their time on
program management. In addition, only 9 percent of all source
analysts reported spending 25 percent or more of their time on
administrative duties not related to their job.60




       60
           In responding to a draft of this report, the EAD for Intelligence said that the
variations in the different types of work by the three types of analysts accurately
reflects the varying responsibilities of the three roles.
                                         - 75 -
                                How All Source Analysts
                                  Spend Their Time


                                        Other
                   Administrative -     4.4%
                   Not Related to
                        Job
                       10.0%




             Administrative -
             Related to Job
                 18.8%                                  Analytical Skills
                                                            57.4%


                      Program
                     Management
                        9.4%




      Source: OIG survey of FBI intelligence analysts

       Of the three work roles, reports officers said they spend the least
amount of time doing work that requires analytical skills. According to
our survey, the average reports officer spends only 41 percent his or
her time on work that requires analytical skills. However, reports
officers were the most likely (22 percent) of the three types of
analysts to say they spend the majority of their time on administrative
duties related to their job. On average, reports officers said they are
spending 25.9 percent of their time on administrative work related to
being a reports officer.




                                         - 76 -
                                 How Reports Officers
                                  Spend Their Time

                                     Other
                                     8.4%
              Administrative -
              Not Related to
                   Job
                  11.2%

                                                           Analytical Skills
                                                               41.0%




              Administrative -
              Related to Job
                  25.9%

                                               Program
                                              Management
                                                13.5%




     Source: OIG survey of FBI intelligence analysts

      Of the three roles, the work done by operations specialists in
headquarters and the field offices varies the most. As a whole,
operations specialists reported spending 48.3 percent of their time on
work requiring analytical skills and 16.1 percent of their time on
program management. However, operations specialists at
headquarters reported spending significantly less time on work
requiring analytical skills and significantly more time on program
management.




                                             - 77 -
                          How Operations Specialists
                              Spend Their Time

                                             Other
                                             3.0%
                Administrative - Not
                  Related to Job
                      12.0%




                                                       Analytical Skills
             Administrative -                              48.0%
             Related to Job
                 21.0%




                                 Program
                                Management
                                  16.0%




     Source: OIG survey of FBI intelligence analysts

      Operations specialists at headquarters reported spending only 29
percent of their time on work requiring analytical skills and 32.7
percent of their time on program management. Of the operations
specialists assigned to one of the headquarters operational divisions,
those in the Counterterrorism Division reported spending the least
amount of time, 28 percent, on work requiring analytical skills. Of the
operational divisions, operations specialists assigned to the
Counterintelligence Division reported spending the most time,
43 percent, on program management. The chart below shows how the
average headquarters operations specialist reported spending his or
her time.




                                             - 78 -
                         How Headquarters Operations
                          Specialists Spend Their Time

                                             Other
                    Administrative - Not     0.9%
                      Related to Job
                          13.8%

                                                              Analytical Skills
                                                                  29.0%




               Administrative -
               Related to Job
                   23.5%




                                                      Program
                                                     Management
                                                       32.7%




       Source: OIG survey of FBI intelligence analysts.

       Through anecdotal reports, the EAD for Intelligence said she is
aware of the high percentage of time that headquarters operations
specialists spend on program management. She further said that she
does not believe that all aspects of program management are
appropriate work for intelligence analysts and would like to redefine
the operations specialist role in a way that eliminates certain aspects
of program management. She has asked the Analyst Advisory Group
for its assistance in redefining the role of the operations specialist.61

       Tasks and Intelligence Products

       In our survey, we listed 19 tasks and asked intelligence analysts
to tell us which specific tasks they had performed during the last three
months. The responses show that the tasks intelligence analysts work
on most frequently are not related to intelligence products



       61
          Formed by the EAD for Intelligence, the Analyst Advisory Group is an
ad-hoc committee made up of intelligence analysts from both headquarters and field
offices. It advises the EAD for Intelligence, through meetings and written reports, on
issues of concern to intelligence analysts.
                                           - 79 -
disseminated to the intelligence community or to law enforcement.
The five most frequently cited tasks in our survey were:
1) intelligence research to support specific field office cases (79
percent of respondents), 2) administrative duties (77 percent), 3)
background checks and name checks (71 percent), 4) ECs on
intelligence topics (61 percent), and 5) telephone analysis
(55 percent).62

       In our list of tasks, we itemized six intelligence products that are
disseminated to the intelligence community or to law enforcement:
1) threat assessment, 2) Intelligence Information Report,
3) Intelligence Assessment, 4) Director’s Daily Report, 5) Intelligence
Bulletin, and 6) Presidential Terrorism Threat Report.63 We recognize
that the intelligence analyst position involves work other than
disseminated intelligence products. For example, identifying
intelligence gaps is a key mission of intelligence analysts. The FBI told
us that it uses 27 metrics to evaluate the performance of its
intelligence operations. However, we believe that disseminated
intelligence products is a good performance measure for intelligence
analysts and demonstrates how analysts are being used. The
Directorate of Intelligence’s Performance Metrics Plan also includes the
number of intelligence products produced by each analyst as one of its
measures of performance.

      For each of the 6 products listed, the percentage of intelligence
analysts reporting they have worked on the product was less than
50 percent. Responses to these 6 intelligence products ranked as
follows in a list of 19 total types of tasks performed by analysts:

       •    Threat Assessment, ranked 6th at 40 percent;

       •    Intelligence Information Report, ranked 7th at 33 percent;

       •    Intelligence Assessment, ranked 8th at 31 percent;


       62
         The FBI tracks the telephone traffic of the people it is investigating based
on a court authorization. The FBI determines what number is calling or being called.
Telephone analysis involves determining patterns in calls placed and received, and
may also involve some data entry.
       63
           At the time of our audit, the FBI did not collect data on the number of
intelligence products produced by each analyst. After we completed our audit, the
Office of Intelligence told us that by the middle of FY 2005 the FBI would begin
producing such data and using the data as one of its performance measures.
                                       - 80 -
      •   Director’s Daily Report, ranked 13th at 14 percent;

      •   Intelligence Bulletin, ranked 15th at 11 percent; and

      •   Presidential Terrorism Threat Report, ranked 19th at
          4 percent.

      Some official FBI intelligence products — the National Report,
the FBI Daily Report, and the Threat Matrix — were not included in our
survey. We pretested our survey with intelligence analysts at
headquarters and field offices, and we interviewed 25 intelligence
analysts. None of these analysts told us that they worked on the
products other than those included in our survey. Further, none of the
“other” responses to our survey cited products other than those that
were included.

       According to our survey, 34 percent of analysts had not worked
on any of the 6 intelligence products in our list of tasks. The majority
of the respondents to our survey had worked on none or one of the six
intelligence products. Further analysis of the survey results showed
that analysts at headquarters, when compared to their colleagues in
field offices, were more likely to have worked on more than two
intelligence products and less likely not to have worked on any of the
six intelligence products. Nearly 40 percent of the analysts located in
field offices did not work on any intelligence products in the three
months prior to taking our survey. Only 15 percent of analysts located
in field offices reported working on more than two intelligence
products. Based on the results of our survey, the following chart
shows the differences, by location, in the number of intelligence
products on which analysts worked.




                                  - 81 -
                         Number of Intelligence Products Worked On
                           in the Last Three Months: By Location

                        45
                        40
    Percent of Survey

                        35
      Respondents

                        30
                        25
                        20
                        15
                        10
                         5
                         0
                               0            1              2           >2
                                     Number of Intelligence Products

                                        Headquarters   Field Offices


         Source: OIG survey of FBI intelligence analysts

      Analysts assigned to field offices are much more likely than
analysts at headquarters to report they have performed a number of
low-level intelligence tasks. Analysts at field offices are more likely
than their headquarters counterparts to perform telephone analysis,
background and name checks, and intelligence research to support
specific field office cases. As discussed below, this data supports the
information we obtained in our interviews with analysts.

       We also found that analysts who have been employed by the FBI
for five years or less are more likely to have worked on the
disseminated intelligence products listed in our survey. As shown in
the table below, intelligence analysts with five years or less experience
were more likely than those with more tenure to report they have
worked on the six intelligence products listed in our survey. Fifty
percent of intelligence analysts with less than five years’ employment
with the FBI reported they had worked on two or more intelligence
products in the three months prior to our survey. Only
37 percent of analysts with 5 or more years of employment with the
FBI said they had worked on a similar number of intelligence products.




                                            - 82 -
                 Number of Intelligence Products Worked On
            in the Last Three Months: by Length of Employment


                        40
                        35
    Percent of Survey



                        30
      Respondents



                        25
                        20
                        15
                        10
                         5
                         0
                             0              1              2                 >2
                                    Number of Intelligence Products

                                 Less Than Five Years   Five Years or More


         Source: OIG survey of FBI intelligence analysts

      As shown above, 37 percent of the analysts with 5 or more years
of employment with the FBI, compared to 26 percent of the analysts
with less than 5 years, reported they had not worked on any of the
disseminated intelligence products listed in our survey. However,
analysts with more than 5 years of experience were more likely to
report they recently worked on 5 of the 18 tasks listed in our survey:
source validation, vetting new informants, intelligence research to
support specific field office cases, background and name checks, and
telephone analysis.

      In addition to location and years of employment, we also found
that analysts with advanced degrees, on average, reported they had
worked on more of the six intelligence products listed in our survey
than analysts without advanced degrees. Specifically, as shown in the
chart below, we found that analysts with a masters or law degree, or a
doctorate, were much more likely than analysts without advanced
degrees to report they had worked on more than two intelligence
products in three months prior to our survey. In addition, analysts
with advanced degrees were the least likely of any group we measured
not to have worked on any intelligence products. Only 21 percent of
the analysts with advanced degrees reported they had not worked on

                                            - 83 -
any disseminated intelligence products in the 3 months prior to our
survey.

                          Number of Intelligence Products Worked On
                        in the Last Three Months: by Level of Education


                        45
                        40
    Percent of Survey




                        35
      Respondents




                        30
                        25
                        20
                        15
                        10
                         5
                         0
                                 0            1              2              >2
                                       Number of Intelligence Products

                                     No Advanced Degree   Advanced Degree


         Source: OIG survey of intelligence analysts




                                              - 84 -
Intelligence Program Relies on Effective Use of Analysts

       The FBI’s intelligence program relies on the FBI using its
analysts for their intended purpose of conducting intelligence analysis
and producing and disseminating intelligence products. The 9/11
Commission reported that prior to the September 11 attacks, the FBI
did not use its intelligence analysts as effectively as it should have.
The Commission found that, prior to the September 11 attacks, the
FBI did not appreciate or understand the role of strategic analysis in
driving investigations or allocating resources. Strategic analysts look
across individual operations and cases to identify trends and develop
broad assessments of threats. Strategic analysis should drive
intelligence collection efforts because it is the only way for an
organization to determine what it does not know. In contrast, tactical
analysts provide direct support to investigations. According to the
9/11 Commission, FBI agents viewed tactical analysts as performing
duties that advanced their investigative cases. Agents failed to see
the value of strategic analysis, finding it too academic and seemingly
irrelevant. As a result of this perception, prior to September 11, the
FBI completed relatively few strategic counterterrorism analytical
products.

       The 9/11 Commission also reported on the FBI’s tradition of
transferring personnel into analyst positions from other job categories
rather than recruiting individuals with the relevant educational
background and expertise. The 9/11 Commission identified several
situations in which poorly qualified administrative personnel were
promoted into analyst positions, in part as a reward for good
performance in other positions. When the FBI hired or promoted
people with appropriate analytical skills and experience, the FBI’s lack
of a long-term career path and a professional training program caused
many capable individuals to the leave the FBI or move internally to
other positions. In addition, managers often did not use qualified
analysts effectively, especially in the field offices. Some field analysts
the Commission interviewed said that they were viewed as
“über-secretaries,” and were expected to perform any duty that was
deemed non-investigative, including data entry and answering phones.
Headquarters managers often did not have sufficient staff support, so
they, too, turned to analysts to perform policy-oriented, programmatic
duties, and administrative tasks that were not analytical in nature.

     During our interviews with intelligence analysts, we found that
many analysts are still asked to perform non-analytical duties. In the

                                  - 85 -
field offices we visited, analysts told us that it is common for
intelligence analysts to perform such tasks as escort, trash, watch, or
command post duty. One analyst, who happens to have prior
experience as an analyst and translator with another intelligence
agency, told us of having to spend a week watching workers do repair
work. Another analyst described escort duty as “demeaning.” As the
name implies, escort duty is following visitors, such as contractors,
around the FBI office to ensure that they do not compromise security.

       Trash duty involves collecting all classified trash for incineration
and delivering it to the appropriate place. Watch duty consists of
answering phones and radios. At one smaller field office, an analyst
reported that he is required to work nights and weekends as an
operations security assistant – someone who operates the switchboard
and escorts the cleaning people while they are in the office.
Intelligence analysts said when they are assigned to command post
duty, they entered data into Rapid Start, the FBI’s crisis response
database.

       Some analysts we interviewed said they were assigned these
administrative duties regularly, but that the duties normally only took
a relatively small percentage of their time. However, we found some
instances in which intelligence analysts were permanently assigned to
duties that we do not view as being related to intelligence analysis.
For example, we interviewed one intelligence analyst, a GS-13 with an
associate degree, who was assigned to an interagency task force. She
told us she spends the majority of her time reviewing complaints of
copyright infringement, to determine if the complaints meet the
criteria necessary for the FBI or another agency to open an
investigation. When she is not reviewing such complaints, she is
providing “analytical support such as graphs and charts to Field
personnel.” Because the unit to which she is assigned does not have
sufficient administrative support, this analyst also prepares her unit’s
timesheets.

       Some analysts also complained about being assigned much
administrative work. A number of analysts said that agents give
intelligence analysts the administrative work the agents prefer not to
do, such as Internet searches. One analyst said, “Special agents hate
to do their own research, even it means finding out who the new SAC
in Kansas City is.” Another analyst told us “A lot of my job doesn’t
require a college education.” Many analysts told us that most


                                  - 86 -
intelligence analysts do very little analysis; instead, the work assigned
them is what they classify as investigative support.

       The EAD for Intelligence told us she is concerned about the
non-analytical tasks being asked of analysts due to the lack of
sufficient administrative support. She also said that she has removed
her own classified trash and that special agents perform escort duty
and other administrative tasks. However, analysts we interviewed
perceive that analysts are much more frequently asked to perform
extraneous duties than are agents.

Role of Intelligence Analysts Misunderstood

      Intelligence analysts identified three main causes for why they
believe they are not always used to for analytical purposes.

       FBI special agents do not understand the capabilities or functions
of intelligence analysts. Twenty-seven percent of survey respondents
reported that agents rarely or never understand the role of intelligence
analysts. Analysts assigned to headquarters or hired within the last
five years were more likely to be concerned about the role of
intelligence analysts at the FBI.

      Among analysts at FBI headquarters, 33 percent responded
“rarely” or “not at all” to our question about agents’ understanding of
the functions of intelligence analysts. Thirty-six percent of the
analysts with advanced degrees and 40 percent of the analysts hired
within the last 5 years replied “rarely” or “not at all” to the question.
In comparison, only 12 percent of the respondents with an associates
degree had a similar response.

       The analysts we interviewed, both at headquarters and in the
field, believed that some of this misunderstanding between agents and
analysts could be mitigated by integrating at least part of the new
agent training and the basic intelligence analyst training. As part of
that integrated training, some analysts thought a case study would be
very helpful.

      Most analysts are supervised by special agents. Many analysts
with whom we spoke believe that they should be supervised by other
analysts, not by special agents. They believe that other analysts best
know their functions and capabilities and can therefore make the best
use of the FBI’s analytical capabilities.

                                  - 87 -
      The FBI does not have enough administrative personnel. The
EAD for Intelligence recognizes that the FBI does not have enough
administrative personnel, causing intelligence analysts to be asked to
perform administrative functions. Some of the analysts we
interviewed agreed, saying they could accept being asked to do
administrative duties because the FBI did not have enough
administrative personnel and the nation’s security is at stake.

Conclusion

      The FBI has recognized the need to enlarge and professionalize
its analytical corps, and it is taking steps to do so. In our judgment,
however, one impediment is the level of work that analysts are asked
to perform. The FBI must ensure that its analysts receive work that is
analytical in nature and is not overly burdened by routine
administrative duties. The FBI also needs to ensure that its analysts
receive challenging work assignments if the FBI is to build and
maintain a professional and well-respected analytical corps.

      During our audit, we found that intelligence analysts 1) at FBI
headquarters, 2) with less than five years of employment, and
3) having an advanced degree, are more likely to have worked on
disseminated intelligence products. However, analysts with these
same attributes are also more likely to express dissatisfaction with the
work assignments they receive and the intellectual challenge of their
work. We attribute much of this dissatisfaction to the high
expectations these analysts have about their work. We also believe
that many special agents do not completely understand the role of
analysts in an intelligence agency. We found that many FBI managers
are committed to the difficult task of changing the FBI’s culture from
an investigative agency to an investigative agency with an intelligence
function and a common goal of preventing additional terrorist attacks.
Having special agents understand the role of analysts and work as
partners with them is a major part of the required cultural change.

Recommendations

      We recommend that the FBI:

      11. require all special agents to attend some mandatory training
          on the role and capabilities of intelligence analysts,



                                 - 88 -
12. assess the work done by intelligence analysts and determine
    what work is analytical in nature and what work is in general
    support of investigations that can more efficiently be
    performed by other support or administrative personnel, and

13. develop a strategic workforce plan for intelligence support
    personnel, and include in that plan a gap analysis of current
    investigative support personnel (by position) and the
    number (by position) the FBI needs to meet current and
    forecasted threats.




                           - 89 -
Finding 5: Retaining Intelligence Analysts

       To achieve its strategic objective of a well-educated, highly
       trained, and appropriately sized analytical work force, the
       FBI must retain well trained and productive intelligence
       analysts. In FYs 2002 – 2004, 291 intelligence analysts
       left the FBI’s analytical corps.64 Of the 291 analysts, 57
       percent left the FBI entirely, and 43 percent transferred to
       other jobs within the FBI. The turnover rate for
       intelligence analysts has decreased for two consecutive
       fiscal years, from 10 percent in FY 2002 to 9 percent in
       FY 2003 and 8 percent in FY 2004.65 The turnover rate for
       FBI intelligence analysts was higher at headquarters than
       in its 56 field offices.

       Our survey found that 63 percent of the FBI’s analysts plan
       on staying with the FBI as intelligence analysts for the next
       five years. However, we also found that analysts
       1) assigned to headquarters, 2) hired in 2002 - 2004, and
       3) possessing advanced degrees are less likely to say they
       will remain as FBI intelligence analysts. Analysts who are
       Presidential Management Fellows or have military
       intelligence or intelligence community experience are also
       less likely to say they will stay with the FBI. Analysts who
       reported they do not plan on staying with the FBI as an
       intelligence analyst cite a number of reasons for departing,
       including issues involving retirement, promotion and pay,
       and morale.

Attrition in the Analytical Corps, FYs 2002 - 2004

       From the beginning of FY 2002 through July 8, 2004, 291
intelligence analysts left the FBI’s analytical corps. Of the 291
analysts who left, 165 left the FBI entirely and 126 took other
positions within the FBI. Based on the first 9 months of FY 2004, we

       64
          FY 2004 data is through July 8, 2004. As discussed previously, the 291
analysts who left their positions for other jobs includes 15 FBI analysts were
transferred in FYs 2003 and 2004 with the National Infrastructure Protection Center
to the Department of Homeland Security. Our turnover rate calculations do not
include these 15 analysts in our count of analysts who separated from the FBI.
       65
           According to a Government Accountability Office report, the turnover rate
for all government employees was 7 percent in FY 2002. However, it did not provide
a figure for the intelligence community.
                                       - 90 -
project that the FBI will lose 110 intelligence analysts in FY 2004: 71
will leave the FBI entirely and 39 will take other positions within the
FBI.

       To achieve its strategic objective of a well-educated, highly
trained, appropriately sized analytical work force, the FBI recognizes
that it must retain its well trained and productive intelligence analysts.
According to the Human Talent CONOPS, “Onboard Analysts represent
the past, present, and future of the analytical program at the FBI.
New hires will need to rely on the analytical and organizational
expertise of the current complement in order to succeed.” However,
the CONOPS does not address the retention of analysts. The Office of
Intelligence told us it is actively managing the retention of intelligence
analysts by activities such as constantly monitoring the attrition rate
and surveying intelligence analysts to understand their career needs.

      As shown below, the turnover rate for intelligence analysts has
decreased for two consecutive fiscal years. Despite these decreases,
in FY 2004, the turnover rate for intelligence analysts was still 25
percent higher than the rate for other non-agent personnel.

                  Turnover Rates of FBI Employees,
                          FYs 2002 - 2004

                        FY 2002 %        FY 2003 %         FY 2004 %
Intelligence                10               9                 8
Analysts
Special Agents                5               5                 5
Other Non-                    5               5                 6
agent
Personnel

      Source: OIG Analysis of FBI data

       While the analyst turnover rate decreased in the last two fiscal
years, the total number of analysts leaving the analyst corps
increased. For example, between FY 2002 and FY 2004, the number
of intelligence analysts leaving the analytical corps increased 10
percent. In addition, in that same period, the number of analysts
leaving the FBI entirely increased 79 percent, from 42 in FY 2002 to
75 in FY 2004. The graph below shows the total number of analysts
who left the FBI’s analytical corps in FYs 2002 - 2004, and whether
they left the FBI entirely or transferred to other positions within the
FBI.
                                   - 91 -
                         Intelligence Analyst Attrition,
                                 FYs 2002-2004

        120

        100

         80

         60

         40

         20

          0
                     FY 2002                 FY 2003                  FY 2004

                         Separated from the FBI   Transferred within the FBI


              Source: OIG analysis of FBI data

       The EAD for Intelligence told us she was pleased with the 8
percent turnover rate in FY 2004 because the rate declined from the
previous year and because she believes this rate compares favorably
with the rest of the intelligence community. We attempted to compare
the turnover rate of FBI intelligence analysts with that of the DIA and
the CIA. However, both agencies declined to provide us with the
classified data to perform that calculation.

       As shown below, for FYs 2002 - 2004, the turnover rate for
intelligence analysts has been higher at FBI headquarters than at its
56 field offices.




                                       - 92 -
              Turnover Rates of FBI Intelligence Analysts,
                          FYs 2002 - 200466

                           FY 2002 %             FY 2003 %   FY 2004 %
Headquarters                   15                    14          8
Field Offices                  7                     5           5
Other Offices                  4                     12          3
Entire FBI                     10                     9          6

      Source: OIG analysis of FBI data

      Of the 165 analysts who left the FBI entirely during FYs 2002
through July 8, 2004, 97 were assigned to headquarters, 57 were
assigned to field offices, and 11 were assigned to other units. Analysts
at the GS-11 grade (38 percent) were the most likely to leave the FBI
entirely. In addition, GS-11 analysts were the most likely to transfer
to other positions within the FBI.

       The 126 analysts who left the analyst corps to take other
positions within the FBI transferred to 21 different job series ranging
from information technology management to secretary. As shown
below, the job series to which analysts most frequently transferred
was the management and program analysis series. This series
includes positions such as program analyst. The second most frequent
position to which analysts transferred was special agent. In
FYs 2002 - 2004, 26 intelligence analysts became special agents.




      66
           FY 2004 data is through July 8, 2004.
                                        - 93 -
     Job Series to Which Intelligence Analysts Transferred,
                       FYs 2002 - 200467

  Job
 Series     Job Series Description                Employees Percent
   80       Security Administration                   4       3.2
  134       Intelligence Aid and Clerk                2       1.6
  201       Human Resources Management                2       1.6
  260       Equal Employment Opportunity              1       0.8
            Miscellaneous Administration and
  301       Program                                  17       13.5
  303       Miscellaneous Clerk and Assistant        6        4.8
  318       Secretary                                 3        2.4
            Office Automation Clerical and
  326       Assistance                                1       0.8
  340       Program Management                        1       0.8
            Management and Program
   343      Analysis                                 30       23.8
   560      Budget Analysis                           1        0.8
   905      General Attorney                          1        0.8
   950      Paralegal Specialist                      3        2.4
  1035      Public Affairs                           1         0.8
  1082      Writing and Editing                       1        0.8
            Education and Training
  1702      Technician                                2       1.6
  1712      Training Instruction                      4       3.2
            General Inspection,
  1801      Investigation, and Compliance            11       8.7
            Compliance Inspection and
  1802      Support                                  5         4.0
  1811      Special Agent                            26       20.6
            Information Technology
  2210      Management                                4       3.2
            TOTAL                                    126     100.0

     Source: The FBI

       Our survey showed that 63 percent of the FBI’s current
intelligence analysts plan on staying with the FBI as intelligence
analysts for the next 5 years. However, the remaining 37 percent of
analysts either did not plan on remaining FBI analysts or did not know

     67
          FY 2004 data is through July 8, 2004.
                                       - 94 -
whether they would remain. We performed statistical tests and found
that the following variables correlate most strongly with the analysts’
views on wanting to stay in the FBI:

      •   job assignment (headquarters or field office),

      •   level of education, and

      •   length of employment with the FBI.

As detailed below, the likelihood an analyst would stay with the FBI
negatively related to an analyst being assigned to headquarters and
his or her level of education. The likelihood that an analyst would stay
is positively related with his or her length of employment with the FBI.

      While 18 percent of the analysts in field offices reported it is
“unlikely” or “very unlikely” they will remain in their current positions,
28 percent of the analysts at headquarters responded similarly. The
following table shows the dissimilarity of the views of headquarters
and field office analysts on the likelihood they will stay with the FBI as
an intelligence analyst.




                                    - 95 -
                                     Likelihood Analysts Will Stay with the FBI
                                    for the Next Five Years: By Job Assignment


                               50
                               45
     Percentage of Responses



                               40
                               35
                               30
                               25
                               20
                               15
                               10
                                5
                                0
                                     Very Likely   Likely      Unlikely     Very      Don't Know
                                                                           Unlikely
                                                              Response
                                                    Headquarters
                                                    Field offices and other offices

           Source: OIG survey of FBI intelligence analysts

       We found that having less than five years of employment with
the FBI is an indicator that an analyst does not plan to remain in that
position for at least the next five years. The opposite is also true:
having five years or more of FBI employment is an indicator that an
analyst plans to stay in that position. Given the FBI’s strategic goal of
building an appropriately sized analytical corps and the FBI’s hiring
efforts in the last three years, it is especially important that the FBI
retain the analysts it has recently hired. If a high percentage of
analysts rotate out of the FBI after three years, it will be difficult for
the FBI to build its analytical corps – both in terms of quality and
quantity. We found that 35 percent of intelligence analysts hired since
2002 do not plan to remain in those positions for the next five years.
Only 16 percent of these newly hired analysts said they are very likely
to stay for the next five years. Of the analysts hired prior to FY 2002,
only 19 percent reported they are not likely to stay with the FBI as an

                                                            - 96 -
intelligence analyst for the next five years and 45 percent said they
are very likely to stay. The chart below shows the differences in the
views between analysts hired prior to 2002 and analysts hired in 2002
and after.

                                     Likelihood Analysts Will Stay with the FBI
                                       for the Next Five Years: By Year Hired


                                50
                                45
      Percentage of Responses




                                40
                                35
                                30
                                25
                                20
                                15
                                10
                                 5
                                 0
                                     Very Likely   Likely      Unlikely    Very      Don't Know
                                                                          Unlikely
                                                              Response
                                                    Hired by FBI Prior to 2002
                                                    Hired by FBI from 2002-2004

            Source: OIG survey of intelligence analysts

       We also found a statistical relationship between an analyst’s
level of education and the likelihood the analyst will stay with the FBI
in that position for at least the next five years.68 Specifically, we
found that the higher an analyst’s level of education, the less likely he
or she is to remain. Given the FBI’s goal of developing a
well-educated analytical corps, it is especially important that the FBI
retain its analysts with advanced degrees. However, our survey data
shows that the FBI’s better-educated analysts are more likely to leave
the analytical corps than its less–educated ones. The graph below


            68
          As we discussed in Finding 1, a higher percentage of analysts hired within
the last three years have advanced degrees than those analysts who have been
employed by the FBI for longer than three years.
                                                            - 97 -
shows the likelihood that analysts at each educational level will remain
as an FBI analyst for the next five years.

                                  Likelihood Analysts Will Stay with the FBI
                                for the Next Five Years: By Educational Level


                               80

                               70
     Percentage of Responses




                               60

                               50

                               40

                               30

                               20

                               10

                                0
                                    Very Likely   Likely      Unlikely    Very      Don't Know
                                                                         Unlikely
                                                           Response
                                                   Associates     Bachelors
                                                   Masters        Law
                                                   Doctorate

           Source: OIG survey of FBI intelligence analysts

      In addition to examining variables that have a statistical
correlation with the likelihood that an analyst will stay with the FBI for
the next five years, we also examined the views of key categories of
analysts in our survey. We reviewed the likelihood that Presidential
Management Fellows, analysts with military intelligence experience,
and analysts with intelligence community experience will stay with the
FBI as analysts for the next five years. As shown in the following
chart, we found that Presidential Management Fellows are less likely to
report that they expect to remain at the FBI than analysts who are not
Presidential Management Fellows.



                                                           - 98 -
                                     Likelihood Analysts Will Stay with the FBI
                                               for the Next Five Years:
                                             Presidential Management
                                           Fellows and All Other Analysts


                                45
                                40
      Percentage of Responses




                                35
                                30
                                25
                                20
                                15
                                10
                                 5
                                 0
                                     Very Likely   Likely      Unlikely    Very      Don't Know
                                                                          Unlikely
                                                             Response
                                                      Presidential Management
                                                      Fellows
                                                      All Other Analysts

Source: OIG survey of FBI intelligence analysts

      We also found that analysts with prior military intelligence
experience are also less likely to remain with the FBI as intelligence
analysts. The chart below shows the difference in the views of
analysts with military intelligence experience and all other FBI analysts
concerning the likelihood they will remain in their current positions for
at least five years.




                                                            - 99 -
                                  Likelihood Analysts Will Stay with the FBI
                                for the Next Five Years: Analysts with Military
                                Intelligence Experience and All Other Analysts


                               45
                               40
     Percentage of Responses




                               35
                               30
                               25
                               20
                               15
                               10
                                5
                                0
                                    Very Likely   Likely      Unlikely       Very       Don't Know
                                                                            Unlikely
                                                             Response
                                                  Analysts with Military Intelligence
                                                  Experience
                                                  All Other Analysts

           Source: OIG survey of FBI intelligence analysts

       We found that the views of analysts with intelligence community
experience on this topic are very similar to those with military
intelligence experience. Fifty-five percent of the analysts with
intelligence community experience and 59 percent of those with
military intelligence experience said they would remain as FBI
analysts. Likewise, 27 percent of analysts with intelligence community
experience and 26 percent of those with military intelligence
experience said they would not remain. However, as shown below, we
found that analysts with previous intelligence community experience
were less likely to stay with the FBI in their current positions than all
other FBI analysts.




                                                           - 100 -
        Likelihood Analysts Will Stay with the FBI for the
        Next Five Years: Analysts with U.S. Intelligence
      Community (USIC) Experience and All Other Analysts


                                   45
                                   40
         Percentage of Responses


                                   35
                                   30
                                   25
                                   20
                                   15
                                   10
                                    5
                                    0
                                        Very Likely   Likely       Unlikely    Very      Don't Know
                                                                              Unlikely
                                                               Response
                                                      Analysts with USIC Experience
                                                      All Other Analysts

      Source: OIG survey of FBI intelligence analysts

Causes for Attrition

      The FBI does not conduct exit interviews when analysts leave
the FBI, nor does it collect any other data on the reasons for attrition.
Our survey asked those analysts who said they were unlikely to remain
to explain why. In addition, our survey showed a number of statistical
correlations that provide insights into the reasons analysts are leaving
the FBI’s analytical corps.

     Although we found variations in the reasons analysts cited for
why they do not intend to remain, when we considered education and




                                                         - 101 -
length of FBI employment overall, we identified 8 reasons cited by 5
percent or more of the analysts.69

                Reasons FBI Intelligence Analysts Cited
              for Why They Would Not Stay with the FBI
            as Intelligence Analysts for the Next Five Years

                       Reason Cited70                               Percentage
                                                                        of
                                                                   Respondents
   Retirement                                                           20
   Promotion/Pay/Benefits                                               16
   Morale/FBI Management                                                11
   Work Assignments/Role                                                10
   Change Careers (including becoming a special                          9
   agent)
   Lack of Respect                                                         8
   Lack of Challenge                                                       8
   Work for Another Intelligence Agency                                    5

       Source: OIG analysis of survey comments

       Retirement

      The Office of Intelligence recognizes the succession planning
challenge presented by the retirement eligibility of its current analysts.
According to the Human Talent CONOPS, approximately 17 percent of
the FBI’s current analysts will be eligible to retire within the next
5 years. Retirement and increased analytical needs are the two
factors that the FBI attributes for its need to hire a large number of
analysts in the near future. In our survey, retirement was the most
frequently cited reason given by analysts who plan on leaving the FBI.



       69
         In categorizing the reasons cited by FBI analysts for why it was unlikely
they would remain as an FBI analyst for the next five years, we included all the
reasons each respondent cited. For example, if an analyst wrote, “Another USIC
agency has expressed interest in hiring me and said they would give me a
promotion,” we counted that analyst’s response as both “promotion/pay/benefits”
and “work for another intelligence agency.”
       70
         This chart includes all reasons cited by 5 percent or more of the
respondents who said it is either “unlikely” or “very unlikely” they will remain as an
FBI analyst for the next five years.
                                       - 102 -
      Promotion, Pay, and Benefits

      Sixteen percent of analysts cited issues concerning promotion,
pay, and benefits as the reason they do not expect to remain in their
current positions. For analysts with less than five years of FBI
employment, issues concerning promotion, pay, and benefits were the
most frequently cited reason for them not intending to stay with the
FBI. Both our survey and our interviews with analysts indicated that
both the FBI’s promotion policy and analysts’ promotion potential are
issues that concern them.

       In our survey, we found the likelihood that an analyst will remain
in his or her current position is statistically related to that analyst’s
opinion of the FBI’s promotion policy. Specifically, we found that
analysts are less likely to think they will stay with the FBI for the next
five years, if they are not satisfied with the way the FBI’s promotion
process has been applied to them. In addition, we found that analysts’
views about the likelihood of their promotion up to a GS-14 are
statistically related with their views about whether they will remain at
the FBI. Analysts who think they are likely to reach a GS-14 were
likely to say they will stay. Finally, we found that analysts’ satisfaction
with the FBI’s promotion policy is statistically linked to whether they
plan to remain as an FBI analyst. In other words, analysts who are
satisfied with their promotion potential are more likely to say they will
remain with the FBI as an analyst for the next five years.

       In our interviews, analysts expressed a variety of concerns about
the FBI’s promotion policy and the promotion potential for their job
series. Some analysts want the potential to be promoted to a level
equivalent to the SES. These analysts said they would not remain with
the FBI if the ability for promotion is blocked. Many analysts in field
offices thought they would not be promoted to GS-14 because the
GS-14 administrative officer, to whom analysts used to report, often
serves on promotion boards and would not allow a former subordinate
to have the same grade.

       Some analysts said the type of work necessary for a promotion
was not available to them. Specifically, analysts assigned to field
offices and operations specialists at headquarters said their normal
work duties did not allow them the time to write the types of
intelligence products required for promotion. One analyst said she has
to self-initiate products and also perform her normal duties. Other


                                 - 103 -
analysts said it was more difficult for analysts assigned as reports
officers and operations specialists to be promoted. They said the
promotion guidelines are geared toward the all source intelligence
analyst function, and the criteria for promotion do not reflect the kind
of work they are asked to perform. Some analysts think the
promotion process is unfair when compared to the promotion policy for
special agents. These analysts assert that the promotion process for
agents up to a GS-13 is much less rigorous and time-consuming than
the promotion process for intelligence analysts.

      The Office of Intelligence recognizes that pay and benefits are a
major issue in retaining intelligence analysts and believes that the FBI
has been at a competitive disadvantage because it has had to comply
with the pay provisions of Title 5 of the U.S. Code. In that regard, the
Office of Intelligence believes the Intelligence Reform and Terrorism
Prevention Act of 2004 provides the FBI with the flexibility to compete
with other intelligence agencies and the private sector for intelligence
analysts.

       The FBI has also taken other steps, such as establishing a
student loan repayment program, to improve the benefits it offers
intelligence analysts. The FBI has repaid a portion of 41 analysts’
student loans. In return, these analysts signed 3-year service
agreements.

      Morale and FBI Management

       In our survey, 11 percent of analysts reported they will not stay
with the FBI because of issues concerning morale, work atmosphere,
and management. These issues are the second most frequently cited
reason by analysts with less than five years of experience reported for
not intending to stay with the FBI. Most analysts we interviewed value
the role of the Office of Intelligence, and said the Office has made
significant progress although it has a lot of work to do. However,
many analysts we interviewed are upset with the Office of Intelligence
as a result of what is known as the “migration.” The migration, which
began before the EAD for Intelligence position was created, was an
attempt by the Office of Intelligence to improve the quality of the FBI’s
analytical corps by requiring a college degree for the intelligence
analyst position but also mandating that analysts reapply for their
current jobs. The migration was canceled before the process was
completed, but many analysts had already taken the time and effort to
reapply for the jobs they currently held. Other analysts said that the

                                 - 104 -
attrition rate in their office or unit is high and that the level of attrition
has a detrimental effect on the morale of the remaining analysts.

       In discussing the job satisfaction of the FBI’s analysts, the EAD
for Intelligence told us that while she is concerned about analysts’ job
satisfaction, her focus is on creating an effective intelligence analysis
capability. She pointed out that happy intelligence analysts may or
may not be effective. In other words, job satisfaction (or morale) may
not correlate with results. While we understand and agree with the
EAD for Intelligence’s need to concentrate on establishing an effective
intelligence program, we believe that morale can affect job
performance and most certainly can affect attrition. For these
reasons, morale or satisfaction is one of the factors that warrant
attention to help reduce attrition. After our audit had ended, the
Office of Intelligence told us that it plans to conduct an employee
satisfaction survey in the second half of FY 2005. The Office of
Intelligence’s Performance Metrics Plan includes the satisfaction survey
as a measure of the Office’s planning and budgeting efforts.

      Role of Intelligence Analysts

      Much of the dissatisfaction analysts expressed with morale and
FBI management appears to be linked to the role of intelligence
analysts and their work assignments. In our survey, we found that
analysts’ satisfaction with their work assignments is statistically
related with the likelihood they will stay with the FBI. As shown
below, 81 percent of analysts who are extremely satisfied with their
work assignments are also likely to remain at the FBI.




                                   - 105 -
              Likelihood Analysts Will Stay with the FBI
         and Analysts’ Satisfaction with Work Assignments71


  90%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
  10%
   0%
             Extremely        Very          Satisifed     Unsatisfied     Very
             Satisfied       Satisfied                                  Unsatisfied
                            Satisfaction with Work Assignments

                         Likely to Stay    Unlikely to Stay   Don't Know


        Source: OIG survey of FBI intelligence analysts

       As we noted in Finding 4, many analysts said that special agents
do not always understand the capabilities and functions of intelligence
analysts. Their opinions on this issue are also statistically related with
whether or not they will stay with the FBI. Numerous analysts told us
they are utilized as investigative support personnel rather than as
intelligence analysts.

       The EAD for Intelligence said she is committed to providing the
FBI’s intelligence analysts with the tools and techniques to be effective
intelligence analysts. However, she is uncertain whether all of the
FBI’s intelligence analysts want to be analysts, as opposed to special
agents or case support personnel. She also said that if she could be

        71
           In this chart, for presentation purposes, we grouped “very likely” and
“likely” responses to our question on how likely it was the respondents would stay
with the FBI as an analyst for the next five years. We also grouped “unlikely” and
“very unlikely” responses.
                                          - 106 -
sure all of the FBI’s intelligence analysts are actually doing analytical
work, she might not need as many intelligence analyst positions.
However, she said she does not have the data to determine whether
all analysts are doing analytical work. She said the Office of
Intelligence is currently working on developing that data through a
telephone survey it conducted.

      Change Careers

      Nine percent of the analysts who reported they do not expect to
stay with the FBI told us that they intend to try a new job outside of
the intelligence analyst field. A significant number of these analysts
said they want to become FBI special agents. In our judgment, special
agents who have had previous experience as intelligence analysts
would be a significant resource for the FBI, but paradoxically would
harm efforts to build the FBI’s intelligence analyst corps.

      Respect

       Eight percent of the analysts who said they do not intend to stay
with the FBI reported that issues concerning lack of respect for
intelligence analysts were the reason they would leave. Analysts in
the FBI’s field offices were more likely to cite lack of respect as a
reason for leaving the FBI than their headquarters colleagues: 14
percent of field office analysts and 6 percent of headquarters analysts
said that lack of respect is their reason for considering leaving the FBI.
In our interviews, analysts repeatedly told us that the lack of respect
they feel boils down to one concept: analysts are labeled “support”
personnel rather than intelligence analyst professionals on par with the
FBI’s special agents. Some analysts said the support label leads some
agents to treat analysts as if they were clerks. One analyst made a
military analogy and said that agents are like officers in the military
and analysts are like enlisted personnel. In our survey, we asked
analysts to tell us whether the term “support staff” evokes a negative
feeling in them when applied to intelligence analysts, and 60 percent
said yes.

       We also found that analysts’ opinions on the use of the term
“support staff” statistically correlate with several variables.
Specifically, we found that opinions about the term “support staff”
positively correlates with level of education and negatively correlate
with length of employment. As shown below, the higher an analyst’s


                                  - 107 -
level of education, the more likely that analyst is to be offended by the
term “support staff” to describe intelligence analysts.

            Intelligence Analysts’ Feelings About the
           Term “Support Staff”: By Level of Education


  100%
   90%
   80%
   70%
   60%
   50%
   40%
   30%
   20%
   10%
    0%
           Associates     Bachelors       Masters       Law       Doctorate

                    "Support Staff" Evokes a Negative Feeling
                    "Support Staff" Does Not Evoke a Negative Feeling


      Source: OIG survey of FBI intelligence analysts

      The opposite correlation is true for length of employment. As
shown below, analysts who have been employed by the FBI for five
years or more are much less likely to be offended by the use of the
term “support staff” to describe intelligence analysts.




                                      - 108 -
            Intelligence Analysts’ Feelings About the
         Term “Support Staff”: By Length of Employment

    100%
     90%
     80%
     70%
     60%
     50%
     40%
     30%
     20%
     10%
      0%
                    5 Years or More                 Less Than 5 Years
                              Length of FBI Employment

                    "Support Staff" Evokes a Negative Feeling
                    "Support Staff" Does Not Evoke a Negative Feeling


      Source: OIG survey of FBI intelligence analysts.

      Lack of Challenge

       Issues concerning a lack of challenge in the intelligence analyst
position were the eighth most frequently cited reason for analysts not
intending to stay with the FBI. In our survey we found that responses
to our questions about intellectual challenge and the likelihood an
analyst will stay with the FBI are statistically related. Specifically, we
found that responses to our question about the intellectual challenge
of the analyst position positively relates with the question about
whether they intend to stay with the FBI. As shown below, 93 percent
of the analysts who find their work intellectually challenging said that
they are very likely to remain as FBI intelligence analysts. In contrast,
32 percent of the analysts who do not find their work intellectually
challenging said that it is very unlikely they will remain as an FBI
analyst.




                                      - 109 -
        Likelihood of Remaining an FBI Intelligence Analyst:
         By Level of Intellectual Challenge Posed by Work72

 100%
  90%
  80%
  70%
  60%
  50%
  40%
  30%
  20%
  10%
   0%
             Very Likely      Likely       Unlikely    Very Unlikely Don't Know
                      Likelihood of Remaining an FBI Intelligence Analyst

                      Intellectually Challenged    Not Intellectually Challenged

        Source: OIG survey of FBI intelligence analysts

        Work for Another Intelligence Agency

       Five percent of the respondents to our survey said they will not
stay at the FBI as an analyst because they intend to work for another
intelligence agency. Intelligence analysts in field offices, with five or
more years of FBI employment, and without advanced degrees are
more likely than their colleagues to state this reason for leaving the
FBI.

       The Office of Intelligence recognizes that the FBI competes for
analysts with other intelligence agencies and believes that other
intelligence agencies have had a competitive advantage over the FBI
because many of the agencies do not have to comply with the pay
provisions of Title 5 of the U.S. Code. In that regard, the Office of
Intelligence believes the Intelligence Reform and Terrorism Prevention


        72
          For presentation purposes, we grouped “very challenging” and
“challenging” responses to our survey question on the intellectual challenge of the
intelligence analyst position into “intellectually challenged.” We also grouped
“unchallenging” and “very unchallenging” responses into “not intellectually
challenged.”

                                         - 110 -
Act of 2004 provides the FBI with the flexibility to compete with other
intelligence agencies for intelligence analysts.

Conclusion

       While the turnover rate for intelligence analysts has decreased
each of the past two fiscal years, the turnover rate for intelligence
analysts in recent years has been nearly double that of all other FBI
employees, including special agents. As a result, we are concerned
about the effect attrition may have on the FBI’s efforts to build a
highly effective and well-qualified analytical corps. Given that less
than half of the analysts hired in the last three years said it is “likely”
or “very likely” they will stay with the FBI for at least the next five
years, the FBI needs to focus attention on developing a strategy to
retain these new analysts. The intelligence analysts hired within the
last three years are especially valuable. As a group, these analysts
are better educated and better qualified than the FBI’s analyst
population as a whole. While the FBI is aware of many of the
underlying causes for attrition in the analyst corps, we believe that
some of the causes merit more attention. Specifically, the FBI’s new
promotion process for analysts has not been well-received by the
analytical corps. Also, the issue of lack of respect or analysts feeling
like “second class citizens” continues to be a major concern for
intelligence analysts and needs to be remedied. We believe that the
FBI should develop a retention plan for the effective and productive
analysts already in its analytical corps and a succession plan to deal
with upcoming retirements.

Recommendations

      We recommend that the FBI:

      14. develop retention and succession plans and strategies for its
          intelligence analysts, including measurable goals, and

      15. conduct exit interviews of intelligence analysts who leave
          the FBI entirely or transfer to other positions within the FBI.




                                  - 111 -
            STATEMENT ON COMPLIANCE WITH
                LAWS AND REGULATIONS

       We have audited the FBI’s management in its efforts to hire,
train, and retain intelligence analysts. As required by the standards,
we reviewed management processes and records to obtain reasonable
assurance that the FBI’s compliance with laws and regulations that
could have a material effect on FBI operations. Compliance with laws
and regulations applicable to the FBI’s management of intelligence
analysts is the responsibility of the FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •   Title 5, United States Code

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to those transactions not tested, nothing came to our attention
that caused us to believe that FBI management was not in compliance
with the laws and regulations cited above.




                                - 112 -
            STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit, we considered the FBI’s
internal controls for the purpose of determining audit procedures. This
evaluation was not made for the purpose of providing assurance on
the internal control structure as a whole; however, we noted certain
matters that we consider to be reportable conditions under the
Government Auditing Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its intelligence analysts. As discussed in
the Findings and Recommendations sections of this report, we found
that:

      •   the FBI has not determined the total number of intelligence
          analysts it needs;

      •   the FBI did not have a threat-based or risk-based method of
          allocating intelligence analysts to its different divisions and
          field offices;

      •   the FBI did not ensure that its basic intelligence analyst
          classes were full; and

      •   the FBI does not have a plan to retain current highly qualified
          intelligence analysts.

      Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its intelligence analysts.
This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                  - 113 -
                                                          APPENDIX 1

        OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The primary objective of the audit was to determine how
effectively the FBI recruits, selects, trains, and staffs the various
categories of intelligence analysts and reports officers. As a part of
accomplishing this objective we reviewed: 1) analyst hiring
requirements; 2) progress made toward meeting analyst hiring goals;
3) progress made toward establishing a comprehensive training
program and meeting the training goals; 4) analyst staffing and
utilization to support the FBI’s mission; and 5) progress toward
retaining analysts.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objectives. We conducted work at the FBI
Headquarters in Washington, DC, and six FBI field offices: Albany, NY;
Baltimore, MD; Newark, NJ; Philadelphia, PA; Pittsburgh, PA; and
Washington, DC. In general, our audit data covered October 1, 2001
through July 8, 2004.

       To conduct our audit, we interviewed officials from the FBI,
including intelligence analysts. In addition, we interviewed officials
from other intelligence agencies. The FBI officials interviewed were
from the Office of Intelligence, the Counterterrorism,
Counterintelligence, Criminal Investigative and Cyber Divisions, as well
as the Administrative Services and Finance Divisions. The officials
from other agencies included the Central Intelligence Agency, the
Defense Intelligence Agency, and the Joint Military Intelligence
College. In addition, we reviewed documents related to the budgeting,
hiring, training, utilization and retention of intelligence analysts
including various Concepts of Operations published by the Office of
Intelligence, budget documentation, organizational structures,
congressional testimony, and prior GAO and OIG reports.

       To determine how the FBI determines its requirements for
intelligence analysts and allocates intelligence analysts, we examined
the methodologies the FBI employed to determine the number of
                                - 114 -
intelligence analysts needed by the FBI, the number of additional
analysts requested in its FYs 2003 and 2004 budgets, and its current
and future allocation of intelligence analysts. We accomplished this by
reviewing internal documentation maintained by the Finance Division
and the Threat Forecasting and Operational Requirements CONOPS
and interviewing officials from the Office of Intelligence and the
Finance and Administrative Services Divisions.

       To determine the progress the FBI has made in hiring
intelligence analysts, we examined hiring data for both internal and
external hires, background investigation data, and educational data.
We also analyzed demographic data gathered from our survey of
intelligence analysts. (A detailed discussion of our survey of
intelligence analysts is included below.) The FBI does not maintain
much of the demographic data we needed for this audit, such as prior
military intelligence experience, prior experience in the United States
Intelligence Community, and travel outside the United States for a
period of six months or longer. As a result, we relied on a survey to
gather this information. In addition, we interviewed officials from the
Office of Intelligence about the automated application system now
being used by the FBI. We also interviewed hiring officials at the FBI
about the system the FBI previously used to hire intelligence analysts.

       To determine the progress the FBI has made in providing
introductory training to intelligence analysts, we examined curricula for
the Basic Intelligence Analyst (BIA) course and the Analytical Cadre
Educational Strategy 1 course, attendance data for the BIA, and
student feedback on the BIA. To obtain the perspective of intelligence
analysts who have attended the BIA, we interviewed selected analysts
who took the course. In addition, we collected data on the BIA in our
survey of intelligence analysts concerning the topics covered by the
course, suggestions for improvement, and the BIA’s ability to prepare
intelligence analysts to do their job. We also interviewed CIA and DIA
officials concerning those agencies’ approaches to training intelligence
analysts.

      To determine how FBI intelligence analysts are being utilized, we
interviewed intelligence analysts at headquarters and six field offices.
In addition, our survey of FBI intelligence analysts included a series of
questions about their work and perceptions of their work.

       To determine the progress the FBI has made in retaining highly
qualified and productive intelligence analysts, we examined the Human

                                 - 115 -
Talent CONOPS and attrition data. We also interviewed officials from
the Office of Intelligence. To determine whether FBI intelligence
analysts plan on staying with the FBI as intelligence analysts, we
included appropriate questions in our survey of FBI intelligence
analysts.

Survey of FBI Intelligence Analysts

     As mentioned above, to meet the objectives of our audit we
requested all FBI intelligence analysts to complete an on-line survey.
The methods we used in the survey are described below.

       Our survey was conducted using an anonymous Internet-based
survey. Not all FBI intelligence analysts have public FBI e-mail
addresses. As a result, we could not directly e-mail our survey
notification to the intelligence analysts. Instead, we notified them of
the survey through the FBI Inspection Division and the FBI Office of
Intelligence. Using the FBI’s internal e-mail system, the Inspection
Division sent an e-mail to all intelligence analysts notifying them of the
survey and instructing them how to access it. The Office of
Intelligence posted the same notification and instructions on its FBI
intranet site. In addition, the Office of Intelligence sent e-mail
reminders to the analysts asking them to complete the survey.
Analysts accessed the survey using a special Internet address
dedicated to the survey. The survey itself was password protected.
Through this method, we obtained 817 usable responses from 1,247
intelligence analysts employed by the FBI at the time we launched our
survey, a response rate of 66 percent.

       The practical difficulties of conducting any survey introduce
various types of errors related to survey responses. For example,
differences in how a particular question is interpreted and differences
in the sources of information available to respondents can be sources
of error. In addition, respondents might not be uniformly
conscientious in expressing their views or they may be influenced by
concerns about how their answers might be viewed by the OIG, the
FBI, or the public. We included steps intended to minimize such
errors. For example, to address differences in how questions were
interpreted, we pre-tested our survey with 16 intelligence analysts at
FBI headquarters and 4 field offices. We modified our survey
questions based on the results of these pre-tests. In addition, we
solicited comments from the Office of Intelligence about the content


                                 - 116 -
and clarity of our survey. The Office of Intelligence did not provide
any suggestions for improving the clarity or content of our survey.

      When we analyzed the basic results of our survey, we verified
the results we obtained using our survey software by exporting the
data to another software program and performing the same analysis.
Detailed results of our survey are contained in Appendix 7.




                                 - 117 -
                                                            APPENDIX 2

  AUTHORITIES FOR FBI INTELLIGENCE ACITIVITIES

      The Director of Central Intelligence Directives (DCID) applicable
to the FBI’s management of foreign intelligence collection and
production include:

      •   DCID 2/3 implements the National Intelligence Priorities
          Framework, which translates national foreign intelligence
          objectives and priorities approved by the President into
          specific prioritization guidance for the intelligence community;

      •   DCID 2/1 establishes the authorities and responsibilities of
          the Assistant DCI for Analysis and Production and the National
          Intelligence Analysis and Production Board to oversee,
          monitor, and evaluate national intelligence production;

      •   DCID 3/1 establishes the authorities and responsibilities of
          the Assistant DCI for Collection and the National Intelligence
          Collection Board to oversee, monitor, and evaluate
          intelligence collection;

      •   DCID 3/7 concerns the National Human Intelligence
          Requirements Tasking Center, which coordinates the National
          Human Intelligence Directives that guide FBI human
          intelligence collection;

      •   DCID 6/1 covers security policy for Sensitive Compartmented
          Information (SCI);

      •   DCID 6/3 covers the protection of SCI within information
          systems,

      •   DCID 6/6 addresses security controls for the dissemination of
          intelligence information; and

      •   DCID 6/7 establishes policy for the disclosure or release of
          classified U.S. intelligence to foreign governments and
          international organizations.




                                 - 118 -
                                                            APPENDIX 3

          OBSERVATIONS OF THE 9/11 COMMISSION

       In addition to the 9/11 Commission findings discussed in the
Background section of this report, the Commission made the following
observations about the role of intelligence in the FBI and its
intelligence capabilities:

      •   After the first World Trade Center attack in 1993, senior
          managers at the FBI and the Department of Justice leadership
          became increasingly concerned about the threat posed by
          Islamist extremists to U.S. interests. According to the 9/11
          Commission, “The FBI’s approach to investigations was
          case-specific, decentralized, and geared toward prosecution.
          Significant FBI resources were devoted to after-the-fact
          investigations of major terrorist attacks, resulting in several
          prosecutions.”

      •   Prior to September 11, 2001, the FBI recognized terrorism as
          a major threat and according to an FBI official, “Merely
          solving this type of crime is not enough; it is equally
          important that the FBI thwart terrorism before such acts can
          be perpetrated.”

      In addition to the factors cited in the Background section of this
report, the Commission also cited the following as reasons the FBI’s
1998 strategic plan was not fully implemented. The Commission also
found that the factors that contributed to the failure of the strategic
plan also led to the FBI not producing very many strategic analyses.

      •   A new division, the Investigative Services Division, which was
          intended to strengthen the FBI’s strategic analysis capability,
          did not receive sufficient resources and faced resistance from
          the FBI’s senior managers. The new division, with the
          assistance of the strategic analyst, was supposed to look
          across individual operations and cases to identify trends in
          terrorist activity and develop broad assessments of the
          terrorist threat to U.S. interests. This type of analysis should
          drive an intelligence agency’s collection efforts. According to
          the Commission, this approach “is the only way to evaluate
          what the institution does not know.”


                                  - 119 -
•   The Commission concluded that at the time “The FBI had little
    understanding of, or appreciation for, the role of strategic
    analysis in driving investigations.” Instead, analysts
    continued to be used primarily in a tactical fashion. Tactical
    analysts are supposed to provide direct support to
    investigations. However, special agents thought it was the
    job of all analysts to support their cases. The agents did not
    value strategic analysis, “finding it too academic and
    therefore irrelevant.” By putting the analysts in a separate
    division, the FBI reinforced the agents’ attitude toward
    strategic analysts.

•   FBI analysts did not have ready access to the information
    they were expected to analyze. The FBI’s information
    systems were such an impediment that analysts depended on
    personal relationships with colleagues for information.

•   The Commission faulted the FBI’s efforts to collect intelligence
    from human sources. The FBI was unable to reliably and
    systematically validate source reporting, and it did not have a
    systematic means of tracking and sharing source reporting.
    In addition, the 9/11 Commission found that the FBI’s
    counterterrorism agents were not allocated enough
    surveillance personnel and translators, resulting in a
    significant backlog of untranslated intercepts.




                           - 120 -
                                                            APPENDIX 4

                RESPONSIBILITIES OF THE OFFICE OF
                         INTELLIGENCE

       The Office of Intelligence is responsible for the following aspects
of 1) intelligence collection, 2) intelligence analysis, 3) intelligence
dissemination, and 4) intelligence program management.

      Intelligence Collection

            •   Oversees the FBI’s national collection requirements
                process, prioritizes these requirements, and evaluates
                field office performance against these priorities.

            •   Develops and coordinates the collection requirements
                that the FBI will levy on outside entities.

            •   Establishes formal policy and strategic plans for
                intelligence collection.

            •   Establishes an ongoing assessment of gaps in
                intelligence based on national and FBI priorities.

            •   Continually evaluates the sufficiency of human
                intelligence coverage against FBI priorities.

            •   Establishes procedural mechanisms for ensuring analyst
                access to all relevant information developed through
                FBI investigations and operations.


      Analysis of Intelligence

            •   Establishes precise definitions of the type of analysis
                that will be produced and disseminated by the FBI.

            •   Identifies emerging threats and crime problems that will
                affect FBI investigative and operational strategies.

            •   Identifies intelligence that affects more than one
                investigative program in the FBI.


                                  - 121 -
     •   Identifies responsibilities and positions in the FBI that
         fall under the analytical function.

     •   Establishes consistent qualification requirements for
         analytical positions.

     •   Coordinates with the Administrative Services Division
         (ASD) to develop a national recruiting strategy that will
         ensure acquisition of the most talented analysts
         available.

     •   Coordinates with the ASD to develop a clear career path
         and performance standards for analysts that will
         suitably reflect the elevated importance of intelligence
         analysis to the FBI and nation.

     •   Coordinates with the Training Division to develop
         training and professional development strategies in an
         effort to continually upgrade the analytical capability of
         the FBI.

     •   Articulates standards of quality and provides quality
         assurance review for analytical products.

     •   Coordinates with Information Resources Division to set
         requirements for and manage acquisition of
         technology-based analytical tools.

Dissemination of Intelligence

     •   Serves as the FBI’s primary interface for the
         dissemination and receipt of information within the
         intelligence community, law enforcement, and national
         and international government agencies.

     •   Develops strategies for ensuring timely sharing of
         information.

     •   Establishes systems to ensure timely sharing of
         intelligence across internal FBI programs.

     •   Develops database sharing and checking initiatives.


                           - 122 -
     •   Monitors and catalogs information received from and
         disseminated to outside entities.

     •   Evaluates and monitors the satisfaction with and effect
         of intelligence products disseminated by the FBI.


Intelligence Program Management

     •   Establishes, administers, and evaluates policies,
         guidelines, and standards for all aspects of the
         intelligence program.

     •   Establishes processes to ensure the collection and
         analysis of all pertinent intelligence generated from FBI
         investigative activity in each operational investigative
         program.

     •   Represents the FBI regarding joint intelligence
         responsibilities, issues, and initiatives.

     •   Provides advice and expertise on intelligence issues,
         trends, and developments to the Director, Deputy
         Director, and Executive Assistant Directors.

     •   Establishes a comprehensive strategy governing all
         aspects of the FBI’s new intelligence program and
         devises success measurements.

     •   Establishes and maintains information systems and
         databases needed to support the intelligence mission.

     •   Manages the FBI’s informant and asset programs.




                          - 123 -
                                                             APPENDIX 5

             MEMBERS OF THE UNITED STATES
               INTELLIGENCE COMMUNITY

      The members of the U.S. Intelligence Community include the
following organizations and entities:

     •   The Office of the Director of Central Intelligence, which
         includes the Office of the Deputy Director of Central
         Intelligence for Community Management, the Community
         Management Staff, the Terrorism Threat Integration Center,
         the National Intelligence Council, and other community
         offices.

     •   The Central Intelligence Agency, which performs human
         source collection, all source analysis, and advanced science
         and technology.

     •   National intelligence agencies.

         o The National Security Agency, which performs signals
           collection and analysis.

         o The National Geospatial-Intelligence Agency, which
           performs imagery collection and analysis.

         o The National Reconnaissance Office, which develops,
           acquires, and launches space systems for intelligence
           collection.

         o Other national reconnaissance programs.

     •   Departmental intelligence agencies.

         o The Defense Intelligence Agency, the Department of
           Defense.

         o Intelligence entities of the military services.

         o The Bureau of Intelligence and Research, the Department
           of State.


                                 - 124 -
o The Office of Terrorism and Finance Intelligence, the
  Department of the Treasury.
o The Office of Intelligence and the Counterterrorism and
  Counterintelligence Divisions of the Federal Bureau of
  Investigation, the Department of Justice.

o The Office of Intelligence, the Department of Energy.

o The Directorate of Information Analysis and Infrastructure
  Protection and the Directorate of Coast Guard Intelligence,
  the Department of Homeland Security.




                      - 125 -
                                         APPENDIX 6

             ACRONYMS

ACES-1   Analytical Cadre Educational Strategy 1
ASD      Administrative Services Division
BIA      Basic Intelligence Analyst
CAP      Career Analyst Program
CAS      College of Analytical Studies
CIA      Central Intelligence Agency
DI       Directorate of Intelligence
DIA      Defense Intelligence Agency
DCID     Director of Central Intelligence Directives
EC       Electronic Communication
FBI      Federal Bureau of Investigation
FSL      Funded Staffing Level
FY       Fiscal Year
GAO      Government Accountability Office
GS       General Schedule
IDP      Individual Development Plan
OIG      Office of the Inspector General
OPM      Office of Personnel Management
RMA      Resource Management and Allocation
SCI      Sensitive Compartmented Information
SCIF     Sensitive Compartmented Information Facility
SES      Senior Executive Service
USIC     United States Intelligence Community




                 - 126 -
                                                                         APPENDIX 7

                       RESULTS OF OIG SURVEY OF
                      FBI INTELLIGENCE ANALYSTS

1.    When did you become a GS-0132 at the FBI? (The following titles at
      the FBI have been classified as GS-0132: Intelligence Analyst,
      Intelligence Research Specialist, Intelligence Operations Specialist,
      Reports Officer, All Source Analyst, Operations Specialist)

       Year                   Responses          Percent
       2004                   79                 10%
       2003                   119                15%
       2002                   84                 10%
       2001                   20                 2%
       2000                   23                 3%
       1999                   55                 7%
       1998                   57                 7%
       1997                   66                 8%
       1996                   49                 6%
       1995                   120                15%
       1994                   12                 1%
       1993                   11                 1%
       1992                   24                 3%
       1991                   18                 2%
       1990                   10                 1%
       1989                   8                  1%
       1988                   8                  1%
       1987                   12                 1%
       1986                   10                 1%
       1985                   12                 1%
       1984                   6                  1%
       1983                   7                  1%
       1982                   2                  0%
       1981                   2                  0%
       1980                   2                  0%
       1979                   0                  0%
       1978                   0                  0%
       1977                   1                  0%
       1976                   0                  0%
       1975                   1                  0%
       Total                  818                98%73

      73
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 127 -
2.     What was your GS level when you became a GS-0132 intelligence
       analyst?

        GS Level                 Responses             Percent
        3                        2                     0%
        4                        1                     0%
        5                        26                    3%
        6                        6                     1%
        7                        185                   23%
        8                        3                     0%
        9                        296                   36%
        10                       4                     0%
        11                       179                   22%
        12                       60                    7%
        13                       41                    5%
        14                       12                    1%
        15                       0                     0%
        Total                    815                   98%74


 3.    Have you been a GS-0132 intelligence analyst for more than three
       years?

                                 Responses             Percent
            Yes                  549                   67%
            No                   275                   33%
            Total                824                   100%




       74
          The sum of the percentages listed does not equal 100 percent due to
 rounding.
                                      - 128 -
          4.   How long did it take to obtain the following?

                                           Less than      One to      Two to      Four or      N/A
                                           a week         Two Weeks   Three Weeks More Weeks
                Desk                       198 (72%)      24 (9%)     13 (5%)     22 (8%)      17 (6%)

                Telephone                  173 (63%)      35 (13%)    21 (8%)     28 (10%)     17 (6%)
                Computer                   173 (63%)      43 (16%)    22 (8%)     20 (7%)      16 (6%)
                Access to                  85 (31%)       60 (22%)    57 (21%)    50 (18%)     22 (8%)
                FBI net
                Access to specialized      17 (6%)        20 (7%)     30 (11%)    185 (68%)    22 (8%)
                databases (Intelink,
- 129 -




                etc.)


                SAC’s badge coded to       63 (23%)       54 (20%)    41 (15%)    55 (20%)     61 (22%)
                gain access to the SCIF
                where you are
                permanently assigned
                Access to a Field          39 (14%)       14 (5%)     10 (4%)     41 (15%)     170 (62%)
                Division’s SCIF
                SCI clearances             48 (18%)       44 (16%)    52 (19%)    97 (35%)     33 (12%)
5.   After you reported to your unit or squad, how long did it take for you
     to receive substantive work?

      Length of Time          Responses           Percent
      Less than a week        90                  33%
      One to two weeks        56                  20%
      Two to three weeks      41                  15%
      Four weeks or more      79                  29%
      Not Applicable          8                   3%
      Total                   274                 100%


6.   After you initially reported to your unit or squad, were you provided
     with job expectations for your intelligence analyst work role (all
     source, reports officer, operations specialist)?

                              Responses           Percent
      Yes                     161                 59%
      No                      113                 41%
      Total                   274                 100%


7.   How clear were the expectations to you?

                              Responses           Percent
      Very Clear              28                  17%
      Clear                   69                  43%
      Somewhat Clear          54                  34%
      Not Clear               7                   4%
      Not at all Clear        3                   2%
      Total                   161                 100%


8.   How closely do the expectations match the work you do now?

                              Responses           Percent
      Very Closely            25                  16%
      Closely                 63                  39%
      Somewhat Closely        53                  33%
      Not Closely             16                  10%
      Not at all Closely      4                   2%
      Total                   161                 100%


                               - 130 -
9.        In the average month in the last year, what percentage of your time did you spend on each of the
          following categories of work?

                                             0-24%          25-49%        50-74%        75-100%
           Type of Work
           Work requiring analytical         171 (21%)      184 (22%)     252 (30%)     223 (27%)
           skills

           Program management                656 (79%)      110 (13%)     46 (6%)       18 (2%)

           Administrative duties             568 (68%)      182 (22%)     66 (8%)       14 (2%)
           related to your job role
- 131 -




           (all source analyst,
           reports officer, operations
           specialist)

           Administrative duties not         724 (87%)      85 (10%)      17 (2%)       4 (0%)
           related to your job role
           (all source analyst,
           reports officer, operations
           specialist)

           Other (please specify)            782 (94%)      26 (3%)       7 (1%)        15 (2%)
10.   On which of the following have you worked in the last three months?

                                                Responses    Percent
      Intelligence Information Report           272          33%
      Intelligence Bulletin                     94           11%
      Intelligence Assessment                   253          31%
      Presidential Terrorism Threat Report      35           4%
      Director’s Daily Report                   111          14%
      Developing a FISA Package                 108          13%
      Managing the approval of a FISA package 67             8%
      Reviewing FISA take                       176          21%
      Threat Assessment                         326          40%
      Asset Validation Review                   66           8%
      Source validation                         132          16%
      Vetting new informants                    60           7%
      Electronic Communication (EC) on          496          61%
      intelligence topics
      Intelligence research to support specific 648          79%
      field office cases
      Background checks and name checks,        578          71%
      including Choicepoint research
      Telephone Analysis                        454          55%
      Taskings from the Office of Intelligence  213          26%
      Administrative duties                     629          77%
      Other (please specify)                    177          22%
      None                                      4            0%
      Total Respondents                         819


11.   How satisfied are you with the types of work assignments you receive?

                                               Responses    Percent
      Extremely Satisfied                      84           10%
      Very Satisfied                           219          27%
      Satisfied                                385          47%
      Unsatisfied                              106          13%
      Very Unsatisfied                         22           3%
      Total                                    816          100%




                               - 132 -
12.   How often do you think special agents understand the functions and
      capabilities of an intelligence analyst?

                               Responses         Percent
      Very Often               18                2%
      Often                    150               18%
      Sometimes                433               53%
      Rarely                   188               23%
      Not at All               30                4%
      Total                    819               100%


13.   Considering the knowledge, skills, and abilities necessary to perform
      each of the three roles (all source, reports officer, and operations
      specialist) performed by intelligence analysts, which of the roles would
      you feel comfortable performing within a month of being assigned that
      role? (Check all that apply)

                              Responses          Percent
      All Source              558                70%
      Reports Officer         332                41%
      Operations Specialist   545                68%
      Total Respondents       802




                                - 133 -
          14.   How interested are you in working in a role (all source, reports officer, operations specialist) other than
                the one you are currently assigned?
                                     All Source                   Reports Officer             Operations Specialist




          Current Role                     286 (37%)                      55 (7%)                   267 (35%)
          Extremely Interested             105 (13%)                      62 (8%)                   94 (12%)
          Very Interested                  93 (12%)                       64 (8%)                   73 (10%)
          Interested                       165 (21%)                      176 (23%)                 161 (21%)
          Not Interested                   76 (10%)                       213 (28%)                 100 (13%)
- 134 -




          Not at all                       55 (7%)                        198 (26%)                 63 (8%)
          Interested
          Total                            780 (100%)                     768 (100%)                758 (99%)75




                75
                     The sum of the percentages listed does not equal 100percent due to rounding.
15.   How intellectually challenging is your work as an FBI intelligence
      analyst?

                             Responses        Percent
      Very Challenging       242              30%
      Challenging            452              55%
      Unchallenging          101              12%
      Very Unchallenging     21               3%
      Total                  816              100%


16.   Based on your work as an FBI intelligence analyst, rate your level of
      contribution to the mission of the FBI.

                             Responses        Percent
      Very High              219              27%
      High                   372              46%
      Average                184              23%
      Below Average          28               3%
      Low                    11               1%
      Total                  814              100%


17.   Does the term “support staff” evoke a negative feeling in you when
      applied to intelligence analysts?

                             Responses        Percent
      Yes                    488              60%
      No                     326              40%
      Total                  814              100%


18.   Does your section, unit, field division, or squad have a formal
      mentoring program for intelligence analysts?

                             Responses        Percent
      Yes                    105              13%
      No                     712              87%
      Total                  817              100%




                                - 135 -
19.   Do you have a mentor?

                                Responses          Percent
       Yes                      45                 42%
       No                       63                 58%
       Total                    108                100%

      Question 19 follow on: If yes, rate the usefulness of the mentoring
      program.

                                Responses          Percent
       Extremely Helpful        8                  18%
       Very Helpful             19                 42%
       Helpful                  16                 36%
       Not Helpful              1                  2%
       Not at all Helpful       1                  2%
       Total                    45                 100%


20.   Did you attend the introductory analyst training at the FBI’s College of
      Analytical Studies?

                                Responses          Percent
       Yes                      186                23%
       No                       631                77%
       Total                    817                100%


21.   When did you attend the CAS?

       Year                     Responses          Percent
       2001                     6                  3%
       2002                     34                 18%
       2003                     96                 52%
       2004                     49                 26%
       Total                    185                99%76




      76
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 136 -
          22.   How useful are each of the following training modules in your work as an intelligence analyst? (If any of
                the modules were not covered, check “not applicable.”)

                                          Extremely    Very Useful    Useful       Not Useful Not at all     Not
                                          Useful                                              Useful         Applicable
          Analytical techniques           52 (28%)     47 (25%)       61   (33%)   12 (6%)    8 (4%)         6 (3%)
          Analytical writing              71 (38%)     48 (26%)       39   (21%)   17 (9%)    5 (3%)         6 (3%)
          Money Laundering                11 (6%)      25 (13%)       57   (31%)   41 (22%)   16 (9%)        36 (19%)
          Freedom of Information Act      6 (3%)       8 (4%)         57   (31%)   61 (33%)   40 (22%)       14 (8%)
          Analyst’s Notebook              77 (41%)     33 (18%)       49   (26%)   9 (5%)     5 (3%)         13 (7%)
          Link Charts                     64 (34%)     34 (18%)       53   (28%)   14 (8%)    11 (6%)        10 (5%)
          Security and Information        36 (19%)     33 (18%)       90   (48%)   9 (5%)     7 (4%)         11 (6%)
          Classification
- 137 -




          Legal Issues                    18   (10%)   27   (15%)     85   (46%)   35 (19%)    13 (7%)       8 (4%)
          Case Management                 18   (10%)   26   (14%)     48   (26%)   25 (13%)    8 (4%)        61 (33%)
          FBI Software and Databases      40   (22%)   29   (16%)     39   (21%)   9 (5%)      5 (3%)        64 (34%)
          Investigative Analytical        43   (23%)   27   (15%)     47   (25%)   13 (7%)     6 (3%)        50 (27%)
          Software Databases
          Research and Reference Tools    44 (24%)     32 (17%)       50 (27%)     15 (8%)     9 (5%)        36 (19%)
          Phases of the Intelligence      23 (12%)     31 (17%)       76 (41%)     26 (14%)    13 (7%)       17 (9%)
          Cycle
          Sources of Data                 31 (17%)     34 (18%)       66 (35%)     7 (4%)      11 (6%)       37 (20%)
          Development of Interpersonal    30 (16%)     24 (13%)       44 (24%)     13 (7%)     9 (5%)        66 (35%)
          Skills
23.   How well did the introductory analyst training meet your expectations
      for helping you do your job?

                                                 Responses     Percent
      Greatly Exceeded Expectations              1             1%
      Exceeded Expectations                      10            5%
      Met Expectations                           58            31%
      Did Not Meet Expectations                  76            41%
      Completely Failed to Meet Expectations     41            22%
      Total                                      186           100%


24.   Which of the following would you suggest to improve the College of
      Analytical Studies?

                                                 Responses     Percent
      Integrate introductory analyst training    130           70%
      with new agent training
      Integrate case studies throughout the      147           79%
      new analyst training
      Integrate software used by intelligence    162           87%
      analysts into case studies
      Spend more time on the tools FBI           154           83%
      intelligence analysts use
      Spend more time on preparing specific      131           70%
      intelligence products
      Breakout training according to role (all   125           67%
      source, operations specialist, and
      reports officer)
      Breakout training according to             97            52%
      operational division
      Other (please specify)                     45            24%
      Total Respondents                          186


25.   If you have not attended the introductory analyst class at the College
      of Analytical Studies, would you like to attend?

                                                 Responses     Percent
      Yes                                        159           25%
      No                                         472           75%
      Total                                      631           100%

                                - 138 -
26.   Check all of the following reasons that influence your desire not to
      attend the introductory analyst class at the College of Analytical
      Studies.

                                                Responses      Percent
      The class will repeat topics of courses   387            82%
      I’ve already attended
      I have not heard positive feedback        207            44%
      from those who have attended
      My supervisor is discouraging me from     13             3%
      attending because I’ll be away from
      work for an extended period
      I do not need to attend because of        285            60%
      my years of analytical experience
      Other (please specify)                    177            37%
      Total Respondents                         473


27.   In order to do your job more effectively, what additional training do
      you need? (Check all that apply)

                                                Responses      Percent
      Debriefing sources                        423            52%
      Interrogations/ interviews                417            51%
      Threat assessments                        544            67%
      Damage assessments                        368            45%
      Other (Please specify)                    280            34%
      Total Respondents                         818


28.   Are you satisfied with your promotion potential to a GS-14?

                                                Responses      Percent
      Yes                                       602            75%
      No                                        205            25%
      Total                                     807            100%




                                - 139 -
29.   How satisfied are you with the promotion process for FBI intelligence
      analysts as that process has been applied to you?

                                   Responses      Percent
      Extremely Satisfied          50             6%
      Very Satisfied               96             12%
      Satisfied                    290            35%
      Unsatisfied                  177            22%
      Very Unsatisfied             118            14%
      N/A                          87             11%
      Total                        818            100%


30.   Are you currently a GS-14?

                                   Responses      Percent
      Yes                          95             12%
      No                           722            88%
      Total                        817            100%


31.   How likely are you to reach a GS-14?

                                   Responses      Percent
      Very Likely                  116            16%
      Likely                       152            21%
      Unlikely                     171            24%
      Very Unlikely                168            23%
      Don’t Know                   116            16%
      Total                        723            100%


32.   If you responded “unlikely” or “don’t know” to item 31, please explain.

      Text response: no summary available.




                                - 140 -
33.   How likely is it that you will stay with the FBI as an intelligence
      analyst for the next five years?

                                   Responses             Percent
       Very Likely                 314                   38%
       Likely                      205                   25%
       Unlikely                    96                    12%
       Very Unlikely               85                    10%
       Don’t Know                  116                   14%
       Total                       816                   99%77


34.   If you responded “unlikely” or “very unlikely” to item 33, please
      explain.

      Text response: no summary available.


35.   Did anybody from the FBI contact you during your background
      investigation to seek clarification, additional information,
      or additional documentation?

                                   Responses             Percent
       Yes                         319                   39%
       No                          497                   61%
       Total                       816                   100%




      77
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 141 -
36.   How many times did the FBI contact you during your background
      investigation?

                                   Responses             Percent
       1                           100                   31%
       2                           90                    28%
       3                           63                    20%
       4                           23                    7%
       5                           34                    11%
       6                           5                     2%
       7                           1                     0%
       8                           0                     0%
       9                           0                     0%
       10                          7                     2%
       Total                       323                   101%78


37.   Describe the nature of the information or documentation sought
      by the FBI.

      Text response: no summary available.


38.   During your background investigation, did you contact the FBI to learn
      abut the progress of your background investigation?

                                        Responses          Percent
       Yes                              307                38%
       No                               509                62%
       Total                            816                100%




      78
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 142 -
39.   How many times did you contact the FBI?

                                  Responses      Percent
      1                           57             19%
      2                           76             26%
      3                           41             14%
      4                           33             11%
      5                           35             12%
      6                           11             4%
      7                           6              2%
      8                           7              2%
      9                           0              0%
      10                          31             10%
      Total                       297            100%


40.   When you contacted the FBI, were you asked to provide additional
      information or documentation?

                                  Responses      Percent
      Yes                         59             19%
      No                          248            81%
      Total                       307            100%


41.   Describe the nature of the information or documentation sought
      by the FBI.

      Text response: no summary available.




                               - 143 -
42.    How many months did it take from the time you received your
       conditional offer for a position until you entered on duty?79

        Months                           Responses           Percent
        1                                133                 19%
        2                                68                  10%
        3                                94                  14%
        4                                62                  9%
        5                                48                  7%
        6                                114                 17%
        7                                50                  7%
        8                                28                  4%
        9                                23                  3%
        10                               12                  2%
        11                               5                   1%
        12                               19                  3%
        13                               5                   1%
        14                               2                   0%
        15                               0                   0%
        16                               1                   0%
        17                               0                   0%
        18                               4                   1%
        >18                              16                  2%
        Total                            684                 100%




       79
          In commenting on a draft of this report, the EAD for Intelligence told us
that analysts’ enter-on-duty date is something the FBI does not completely control;
it is negotiated with each new employee.
                                      - 144 -
43.   How many months did it take from the time you submitted your
      application to be an intelligence analyst until you entered on duty?

       Months                                    Responses        Percent
       1                                         66               11%
       2                                         37               6%
       3                                         45               8%
       4                                         41               7%
       5                                         33               6%
       6                                         72               12%
       7                                         32               5%
       8                                         42               7%
       9                                         42               7%
       10                                        39               7%
       11                                        23               4%
       12                                        36               6%
       13                                        13               2%
       14                                        15               3%
       15                                        8                1%
       16                                        4                1%
       17                                        0                0%
       18                                        10               2%
       >18                                       26               4%
       Total                                     584              99%80




      80
         The sum of the percentages listed does not equal 100 percent due to
rounding.

                                     - 145 -
44.   If you have been hired within the last three years, how did you learn
      about the intelligence analyst position at the FBI?

                                                 Responses        Percent
       FBI web site                              72               29%
       USA jobs                                  43               17%
       Job fair                                  27               11%
       Newspaper advertisement                   14               6%
       College recruiting visit                  2                1%
       Received mail or e-mail from the          7                3%
       FBI
       Personal contact with FBI                 87               35%
       personnel
       Total                                     252              102%81


45.   Do you work in Headquarters?

                                                       Responses       Percent
       Yes                                             293             36%
       No                                              523             64%
       Total                                           816             100%


46.   For what division within the FBI do you currently work?

                                                       Responses       Percent
       Counterterrorism Division                       137             47%
       Counterintelligence Division                    79              27%
       Criminal Investigations Division                41              14%
       Cyber Division                                  10              3%
       Other (please specify)                          26              9%
       Total                                           293             100%


47.   Question eliminated in electronic version.




      81
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 146 -
48.   Indicate in which field office you work.

       Office                                         Responses        Percent
       Los Angeles, New York,                         85               18%
       Washington Field
       Baltimore, Chicago, Miami, Newark,             93               20%
       San Francisco
       Atlanta, Boston, Buffalo, Cleveland,           115              25%
       Dallas, Detroit, Houston, Philadelphia,
       Phoenix, San Diego, San Juan, Tampa
       Albuquerque, Denver, El Paso,                  106              23%
       Honolulu, Kansas City, Knoxville,
       Las Vegas, Milwaukee, New Haven,
       New Orleans, Norfolk, Oklahoma City,
       Portland, Richmond, Sacramento,
       San Antonio, Seattle
       Albany, Anchorage, Birmingham,                 69               15%
       Charlotte, Cincinnati, Columbia,
       Indianapolis, Jackson, Jacksonville,
       Little Rock, Louisville, Memphis,
       Minneapolis, Mobile, Omaha,
       Pittsburgh, Salt Lake City, St. Louis,
       Springfield
       Total                                          468              101%82


49.   For which headquarters division do you do the most work?

                                                 Responses            Percent
       Counterterrorism Division                 262                  53%
       Counterintelligence Division              86                   17%
       Criminal Investigations Division          99                   20%
       Cyber Division                            19                   4%
       Other (please specify)                    29                   6%
       Total                                     495                  100%




      82
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 147 -
50.   What is the year of your FBI entry-on-duty date?

              Year                 Responses                   Percent
              2004                 29                          4%
              2003                 86                          11%
              2002                 61                          8%
              2001                 8                           1%
              2000                 2                           0%
              1999                 38                          5%
              1998                 28                          3%
              1997                 55                          7%
              1996                 48                          6%
              1995                 18                          2%
              1994                 3                           0%
              1993                 2                           0%
              1992                 11                          1%
              1991                 27                          3%
              1990                 16                          2%
              1989                 14                          2%
              1988                 30                          4%
              1987                 46                          6%
              1986                 21                          3%
              1985                 30                          4%
              1984                 26                          3%
              1983                 30                          4%
              1982                 12                          1%
              1981                 16                          2%
              1980                 18                          2%
              1979                 12                          1%
              1978                 20                          2%
              1977                 9                           1%
              1976                 17                          2%
              1975                 9                           1%
              1974                 9                           1%
              1973                 9                           1%
              1972                 11                          1%
              1971                 6                           1%
              1970                 8                           1%
              1969                 7                           1%
              1968                 6                           1%
              1967                 3                           0%
              1966                 2                           0%
              1965                 1                           0%
              1964                 1                           0%
              Total                805                         98%83

      83
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 148 -
51.   What was your position title when you entered on duty?

      Text response: no summary available.


52.   What was your GS level when you entered on duty?

            GS Level         Responses               Percent
            03               201                     26%
            04               155                     20%
            05               106                     14%
            06               17                      2%
            07               50                      6%
            08               1                       0%
            09               124                     16%
            10               8                       1%
            11               65                      8%
            12               25                      3%
            13               24                      3%
            14               9                       1%
            15               0                       0%
            Total            785                     100%




                               - 149 -
53.   What is your current GS level?

              GS Level             Responses                   Percent
              03                   0                           0%
              04                   0                           0%
              05                   0                           0%
              06                   1                           0%
              07                   23                          3%
              08                   0                           0%
              09                   77                          9%
              10                   0                           0%
              11                   322                         40%
              12                   190                         23%
              13                   100                         12%
              14                   95                          12%
              15                   3                           0%
              Total                811                         99%84




      84
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 150 -
54.   Have you been employed by the FBI for five years or more?

                                   Responses            Percent
       Yes                         619                  76%
       No                          197                  24%
       Total                       816                  100%


55.   Who was your previous employer?

      Text response: no summary available.


56.   What was your position title at your previous employer?

      Text response: no summary available.


57.   If your previous employer was a federal agency, what was your GS
      level?

       GS Level                    Responses            Percent
       3                           0                    0%
       4                           0                    0%
       5                           1                    2%
       6                           1                    2%
       7                           4                    8%
       8                           0                    0%
       9                           4                    8%
       10                          0                    0%
       11                          4                    8%
       12                          15                   31%
       13                          16                   33%
       14                          3                    6%
       15                          0                    0%
       Total                       48                   98%85




      85
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 151 -
58.   List all your college education from the highest to the lowest.

                                        Responses              Percent
       Associates                       42                     5%
       Bachelors                        307                    37%
       Masters                          192                    23%
       Law                              30                     4%
       Doctorate                        22                     3%
       No Degree Specified              237                    29%
       Total                            830                    101%86


59.   Indicate whether the following apply to you.

                                                                    Responses
       Presidential Management Fellow or Presidential               37
       Management Intern
       Lived outside the United States for six months or            150
       more at one time
       Military intelligence experience                             90
       Work experience in the US intelligence community             110
       other than military
       Foreign language skills                                      177
       Unique skills applicable to the analyst position             263


60.   Comments on the survey or the intelligence analyst position:

      Text response: no summary available.




      86
         The sum of the percentages listed does not equal 100 percent due to
rounding.
                                     - 152 -
                                   APPENDIX 8

THE FBI’s RESPONSE TO THE DRAFT REPORT




                - 153 -
- 154 -
- 155 -
- 156 -
- 157 -
- 158 -
- 159 -
- 160 -
- 161 -
- 162 -
- 163 -
- 164 -
- 165 -
- 166 -
                                                           APPENDIX 9

      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
     SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

      Pursuant to the OIG’s standard audit process, the OIG provided
a draft of this audit report to the FBI on March 17, 2005, for its review
and comment. The FBI’s April 12, 2005, response is included as
Appendix 8 of this final report. The FBI concurred with the 15
recommendations in the audit report and also provided comments
regarding 7 general issues in the report. Our analysis of the FBI’s
response follows.

FBI’s General Comments

      1. In its response, the FBI asserted that the report relies on
anecdotal evidence to support conclusions, particularly the training
and utilization findings. Specifically, the FBI believes that we used the
opinion of one guest instructor at the Basic Intelligence Class to
conclude that the FBI has not invested sufficient resources in its
analyst training program. The instructor was a seasoned intelligence
professional and, in our opinion, provided an important perspective.
However, we did not rely solely on his perspective. This guest
instructor’s critique was one of three sources that pointed to the FBI’s
need for more FBI instructors for its introductory analyst class. Based
on our interviews of analysts who had taken the introductory training
and our review of the new Analytical Cadre Education Strategy-1
(ACES-1) curriculum, we noted the FBI’s reliance on instructors who
are either contractors or personnel from other agencies. Moreover,
during our audit FBI officials recognized this shortcoming and said they
planned to remedy it and our report discusses the FBI’s plans to
increase the number of FBI instructors.

       The FBI’s response also stated that the utilization finding relies
on anecdotal evidence to support the observation that analysts
complained about being assigned much administrative work. The
sentence from the report reads, “Some analysts also complained about
being assigned much administrative work.” This statement is fully
supported by the results of our survey, which found, on average,
analysts reported spending 31 percent of their time performing
different types of administrative work. Similarly, our survey supports
another sentence that concerned the FBI: “Many analysts told us that
most intelligence analysts do very little analysis; instead the work

                                 - 167 -
assigned them is what they classify as investigative support.” This
comment reflects the response of many analysts. Moreover, our
survey found that, on average, analysts spent 49 percent of their time
doing work that did not require analytical skills. The FBI notes that a
lack of administrative support pervades the intelligence community.
While this may be true, our audit examined FBI practices, not the
entire intelligence community.

       2. The FBI disagreed with our use of the number of
disseminated intelligence products as a performance metric for
intelligence analysts and said that this metric is only one of 27 it uses
to evaluate FBI intelligence operations. We acknowledge other
performance metrics are applicable to intelligence analysts, and we
revised the report to reflect the FBI’s comment that it uses 27
performance measures. However, we believe that the number of
disseminated intelligence products is an important measure of the
FBI’s intelligence program and therefore its intelligence analysts, and it
was one key performance measure we gathered from our survey of
intelligence analysts. Moreover, we believe that both the Mission
Statement of the FBI Intelligence Program and the Directorate of
Intelligence Performance Metrics Plan support our view that this is an
important measure when they state: “The mission of the Intelligence
Program is to optimally position the FBI to meet current and emerging
national security and criminal threats by . . . Providing useful,
appropriate, and timely information and analysis to the national
security, homeland security, and law enforcement communities.” In
addition, the Directorate of Intelligence Performance Metrics Plan
includes the number of intelligence products produced by each analyst
as one of its measures of performance.

      Further, to ensure that our survey included an accurate list of
tasks performed by the FBI’s analysts, we discussed the content of the
survey with the Office of Intelligence, and we conducted extensive
structured interviews and survey pretests with intelligence analysts.
The Office of Intelligence did not provide us with comments on the list
of tasks covered by our survey of intelligence analysts or suggest that
we include other performance measures in our survey.

      3. The FBI expressed concern with our use of the term
“transfer” to describe intelligence analysts who were hired from within
the FBI. We edited the final report to include a footnote defining our
use of “transfer” in this context. The FBI also expressed concern
about statements in our report in which we found that externally hired

                                 - 168 -
analysts had superior qualifications to internally hired analysts.
However, the data we received from the FBI and the data from our
survey indicated that analysts who entered on duty in the last three
years were more likely to possess qualifications desired by the FBI
including: military intelligence experience, intelligence community
experience, Presidential Management Fellow, experience living outside
the United States, and foreign language skills. Analysts who entered
on duty prior to 2002 were less likely to have such superior
qualifications. In response, the FBI said it had analyzed the
educational background of internally hired analysts and found that
internally hired analysts were not less educated than the FBI
intelligence analyst population as a whole. However, our report does
not state that internally hired analysts were less educated than the
analyst corps as a whole. In fact, the report notes that analysts hired
internally during FYs 2002 - 2004 are better educated than analysts
who entered on duty before FY 2002. Finally, the FBI commented that
the same hiring standards are applied to all applicants for analyst
positions. We did not state otherwise in the report.

       4. The FBI expressed concern with our characterization of the
comments of the Executive Assistant Director – Intelligence (EAD-I)
regarding the analyst attrition rate. The FBI’s response stated that the
EAD-I was pleased with the 8 percent attrition rate for FY 2004
because it represents a decline from the previous year and because
the attrition rate appears to have stabilized. We edited the final report
to state that the EAD-I was pleased with the 8 percent rate because it
was a decline from the previous year. However, we note that the FBI
did not provide data to support the statement that attrition rate has
stabilized at 8 percent.

      5. The FBI asserted that our report did not highlight sufficiently
that retirement was the reason analysts most frequently cited for not
intending to stay with the FBI. However, both the executive summary
and the body of our report make it clear that retirement was the
reason analysts most frequently cited for not intending to stay with the
FBI.

      6. The FBI disagreed with the following statement in the report
regarding analysts’ attendance of the introductory analyst training:
“While all analysts are required to attend the basic course, actual
enrollment is voluntary.” The FBI attached a November 2004
Electronic Communication (EC) showing that all FBI intelligence
analysts must attend ACES-1 or ACES-1.5. However, the statement

                                 - 169 -
cited by the FBI is part of a discussion of the Basic Intelligence Analyst
(BIA) class, which has been replaced by ACES. We also note that the
EC the FBI provided does not address the fundamental problem the
FBI had with accountability for BIA attendance. The EC does not
establish any deadline or timeframes by which analysts must attend
the ACES classes.

       7. The FBI stated that since the OIG conducted the audit, the
balance of analysts in the field to analysts at headquarters has shifted.
The FBI provided recent data on the distribution of analysts, stating
that as of March 2005 the majority were in the field. However, this
data did not identify what operational entities were included in the
count of analysts at headquarters or in the field. In our report, the
analysis of the allocation of analysts includes three categories: field
offices, operational divisions at headquarters, and other FBI entities
such as the Information Technology Centers and the Critical Incident
Response Group. Our analysis found that nine percent of analysts
were assigned to these other entities. Because the March 2005 data
the FBI supplied does not identify whether the other FBI entities are
included in the count of analysts at headquarters or in the count of
field analysts, we could not verify that the balance of analysts had
shifted to the field offices from headquarters.

Status of Recommendations

1. Resolved. In response to this recommendation, the FBI stated
   that it agrees that its hiring goals should be based on: the
   forecasted need for intelligence analysts; projected attrition in the
   analyst corps; and its ability to hire, train, and use analysts. It
   notes, however, that Congress decides the FBI funded level of
   intelligence analysts and therefore ultimately determines the
   number of analysts the FBI can hire. The FBI reports that it is
   working on a threat-based methodology for determining the
   number of analysts it requires and is obtaining tools from the
   Office of Personnel Management to better forecast its needs based
   on projected attrition and other factors. The recommendation can
   be closed when we receive documentation showing that the FBI’s
   hiring goals are based on the forecasted need for intelligence
   analysts; projected analyst attrition; and the FBI’s ability to hire,
   train and utilize analysts.

2. Resolved. This recommendation is resolved based on the FBI’s
   statement that it will assign a point of contact to all applicants

                                 - 170 -
   who have received a conditional offer of employment and the
   FBI’s statement that its automated hiring system notifies
   applicants of their application status. This recommendation can
   be closed when the FBI provides us with documentation showing:
   1) that it has established a point of contact for all applicants who
   have received conditional offers of employment, and 2) that its
   automated hiring system notifies applicants of their status.

3. Resolved. This recommendation is resolved based on the FBI
   reporting that it is currently developing a methodology to
   determine the number of intelligence analysts needed. According
   to the FBI, this methodology will be based on the FBI Threat
   Assessment and Field Threat Assessments and other threat and
   risk data. This recommendation can be closed when we receive
   documentation showing that the FBI has developed and
   implemented a threat-based or risk-based methodology for
   determining the number of intelligence analysts it requires.

4. Resolved. The FBI agrees with this recommendation, stating that
   the Directorate of Intelligence is currently developing a new threat
   and risk-based Intelligence Analyst Allocation Process. This
   recommendation can be closed when we receive documentation
   demonstrating that the FBI has implemented a threat-based or
   risk-based methodology for allocating intelligence analysts across
   the FBI’s headquarters divisions and field offices.

5. Resolved. The FBI agrees with this recommendation and stated
   that it is developing competency models for the Intelligence
   Career Service. This recommendation can be closed when we
   receive documentation showing that the FBI has linked its
   methodology for allocating intelligence analyst positions to its
   Human Talent Requirements Forecast.

6. Resolved. The FBI agrees with this recommendation and reports
   that it has already addressed the recommendation by ensuring
   that all budget requests identify intelligence analyst positions.
   This recommendation can be closed when we receive
   documentation demonstrating that the FBI’s budget
   documentation includes the current funded staffing level for
   intelligence analysts as well as any requested additional positions.

7. Resolved. The FBI agrees with this recommendation and
   enclosed an EC showing that all analysts must attend either

                               - 171 -
    ACES-1 or ACES-1.5. However, the EC does not describe any
    controls to ensure compliance, such as timeframes or deadlines
    for completing the ACES training. As a result, this documentation
    is not sufficient to show that all ACES-1 classes are full or will be
    in the future. This recommendation can be closed when we
    receive documentation demonstrating that ACES-1 classes are full.

8. Resolved. The FBI agrees with this recommendation and reports
   that ACES classes in November and December 2004 were a pilot
   program for a new rigorous evaluation. This recommendation can
   be closed when we receive documentation showing that the FBI
   has developed a more rigorous training evaluation system that
   includes the effectiveness and relevance of each instructional
   block; asks analysts what other topics need to be covered; obtains
   the views of analysts after returning to work when they can
   evaluate the effectiveness of the training in improving their job
   skills; and obtains evaluations of training effectiveness from
   analysts’ supervisors.

9. Resolved. The FBI agrees with this recommendation and said it
   is in the process of developing a staffing plan for the Center for
   Intelligence Training, which includes ACES instruction. According
   to the FBI, the staff at the Center will be a mixture of contractors,
   subject matter experts, and full-time FBI instructors. This
   recommendation can be closed when we receive documentation
   demonstrating that the FBI has developed a methodology to
   determine the number of staff needed to teach ACES-1 and a plan
   to staff ACES-1 with FBI personnel, including experienced FBI
   intelligence analysts.

10. Resolved. The FBI agrees with this recommendation and said
    that it plans to incorporate testing into the ACES-1 and ACES-1.5
    curricula in FY 2006. This recommendation can be closed when
    we receive documentation demonstrating that the FBI has
    integrated testing into the ACES-1 curriculum.

11. Resolved. The FBI agrees with this recommendation and reports
    that it has begun to provide training to special agents on the roles
    and capabilities of intelligence analysts. However, based on the
    information the FBI provided, it does not appear that all special
    agents receive this training. This recommendation can be closed
    when we receive documentation demonstrating that the FBI


                                - 172 -
    requires all special agents to attend training on the role and
    capabilities of intelligence analysts.

12. Resolved. The FBI agrees with this recommendation and
    provided documentation showing that it had assessed the work
    done by analysts in the Operations Specialist work role. The FBI
    said an assessment for the other work roles — All Source Analysts
    and Reports Officers — is underway. This recommendation can be
    closed when we receive documentation from the FBI showing that
    it has assessed the work done by intelligence analysts and
    determined what is analytical in nature and what work is in
    general support of investigations that can more effectively be
    performed by other support or administrative personnel.

13. Resolved. The FBI agrees with this recommendation and said it
    had completed a support workforce analysis that documented the
    FBI’s need for more administrative personnel. This
    recommendation can be closed when we receive a copy of the
    strategic workforce plan for intelligence support personnel,
    including a gap analysis of current investigative support personnel
    (by position) and the number (by position) the FBI needs to meet
    current and forecasted threats.

14. Resolved. The FBI agrees with this recommendation and said it
    has begun retention and succession planning. This
    recommendation can be closed when we receive a copy of the
    retention and succession plans and strategies for intelligence
    analysts, including measurable goals.

15. Resolved. The FBI agrees with this recommendation and said it
    is beginning to conduct informal exit interviews and plans to
    implement more rigorous exit interviews. This recommendation
    can be closed when we receive documentation showing that the
    FBI conducts exit interviews of intelligence analysts who leave the
    FBI or transfer to other positions within the FBI.




                                - 173 -
